<html>
<title> - CONFIRMATION HEARINGS ON FEDERAL APPOINTMENTS</title>
<body><pre>[Senate Hearing 113-515, Part 4]
[From the U.S. Government Publishing Office]


                                            S. Hrg. 113-515, Part 4
 
                      CONFIRMATION HEARINGS ON FEDERAL 
                                 APPOINTMENTS

=======================================================================

                                HEARINGS

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                JULY 10, JULY 24, AND SEPTEMBER 11, 2013

                               __________

                       Serial No. J-113-1, Part 4

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                         U.S. GOVERNMENT PUBLISHING OFFICE
94-843                           WASHINGTON : 2015                         
_____________________________________________________________________________________         
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>  
         
         
         
         
         
        

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
DIANNE FEINSTEIN, California         CHUCK GRASSLEY, Iowa, Ranking 
CHUCK SCHUMER, New York                  Member
RICHARD DURBIN, Illinois             ORRIN G. HATCH, Utah
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
MAZIE HIRONO, Hawaii                 JEFF FLAKE, Arizona
            Bruce A. Cohen, Chief Counsel and Staff Director
              Kolan Davis, Republican Chief Staff Director
                            
                            C O N T E N T S

                        WEDNESDAY, JULY 10, 2013

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from The State of Vermont.     6
    prepared statement...........................................   227
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     7
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     9


                               PRESENTERS

Warner, Hon. Mark R., a United States Senator from the State of 
  Virginia, presenting Patricia Ann Millett, Nominee to be 
  Circuit Judge for the District of Columbia Circuit.............     1
Kaine, Hon. Tim, a United States Senator from the State of 
  Virginia, presenting Patricia Ann Millett, Nominee to be 
  Circuit Judge for the District of Columbia Circuit.............     3
Cochran, Hon. Thad, a United States Senator from the State of 
  Mississippi, presenting Debra M. Brown, Nominee to be District 
  Judge for the Northern District of Mississippi.................     4
Wicker, Hon. Roger, a United States Senator from the State of 
  Mississippi, presenting Debra M. Brown, Nominee to be District 
  Judge for the Northern District of Mississippi.................     5
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York, presenting Gregory Howard Woods, Nominee to be District 
  Judge for the Southern District of New York, and Elizabeth A. 
  Wolford, Nominee to be District Judge for the Western District 
  of New York....................................................    96

                       STATEMENTS OF THE NOMINEES

Millett, Patricia Ann, Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................    12
    Biographical Information.....................................    13
Woods, Gregory Howard, Nominee to be District Judge for the 
  Southern District of New York..................................    98
    Biographical Information.....................................    99
Wolford, Elizabeth A., Nominee to be District Judge for the 
  Western District of New York...................................   135
    Biographical Information.....................................   136
Brown, Debra M., Nominee to be District Judge for the Northern 
  District of Mississippi........................................   181
    Biographical Information.....................................   182

                               QUESTIONS

Questions for all nominees submitted by Senator Ted Cruz.........   228
Questions for Patricia Ann Millett submitted by Senator Chuck 
  Grassley.......................................................   229
Questions for Gregory Woods submitted by Senator Chuck Grassley..   234
Questions for Elizabeth Wolford submitted by Senator Chuck 
  Grassley.......................................................   237
Questions for Debra M. Brown submitted by Senator Chuck Grassley.   239

                                ANSWERS

Responses of Patricia Ann Millett to questions submitted by 
  Senator Cruz...................................................   241
Responses of Patricia Ann Millett to questions submitted by 
  Senator Grassley...............................................   245
Responses of Gregory Woods to questions submitted by Senator Cruz   259
Responses of Gregory Woods to questions submitted by Senator 
  Grassley.......................................................   262
Responses of Elizabeth Wolford to questions submitted by Senator 
  Cruz...........................................................   269
Responses of Elizabeth Wolford to questions submitted by Senator 
  Grassley.......................................................   272
Responses of Debra M. Brown to questions submitted by Senator 
  Cruz...........................................................   276
Responses of Debra M. Brown to questions submitted by Senator 
  Grassley.......................................................   279

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Ashley N. Wicks, Magnolia Bar President, Magnolia Bar 
  Association, Jackson, Mississippi, July 15, 2013, letter.......   283
Reuben V. Anderson and Fred Banks, Jr., Phelps Dunbar, Jackson, 
  Mississippi, July 17, 2013, letter.............................   284
Azande W. Williams, Treasurer, Metro Jackson Black Women Lawyers 
  Association, Jackson, Mississippi, July 17, 2013, letter.......   286
Michael A. Berk, Director, School of Architecture, Mississippi 
  State University, July 15, 2013, letter........................   287
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 17, 2013, letter.......................................   288
Robin S. Conrad, Past Executive Vice President, National Chamber 
  Litigation Center, June 24, 2013, letter.......................   290
Floyd Abrams, Eric Angel, Jeffrey A. Bartos, Stuart M. Benjamin, 
  James A. Bensfield, Dori Bernstein, Tim Broas, Megan L. Brown, 
  Thomas M. Buchanan, Kathryn Buchar, Plato Cacheris, Ty Cobb, 
  Ronald K.L. Collins, Robert Corn-Revere, Mark S. Davies, David 
  DeBruin, Bernard J. DiMuro, Viet D. Dinh, John M. Dowd, H. 
  Bartow Farr, Jeffrey L. Fisher, Stuart M. Gerson, Scott D. 
  Gilbert, Steven H. Goldblatt, J. Warren Gorrell, Jr., Thomas C. 
  Green, Jeffrey T. Green, Ross Guverman, Jonathan Hacker, Adam 
  S. Hakki, James Hamilton, Pamela Harris, Beth Heifetz, David 
  Honig, John Hundley, William H. Hurd, Peter B. Hutt II, Phil 
  Inglima, Vicki C. Jackson, Michael D. Jones, Vernon E. Jordan, 
  Jr., Riyaz Kanji, Robert Kaplan, Pamela S. Karlan, Judith S. 
  Kaye, Christine N. Kerns, Ben Klubes, Kim Koopersmith, Kathryn 
  E. Kovacs, Martin Lederman, Michael N. Levy, Emmett B. Lewis, 
  III, Timothy K. Lewis, Robert M. Loeb, Mark MacDougall, Andrew 
  H. Marks, Lisa T. McElroy, Bruce R. McLean, Paul R. Michel, 
  Steven Molo, Monica T. Monday, Gary P. Naftalis, Danny Onorato, 
  Gary A. Orseck, Spencer A. Overton, Aaron M. Panner, Anthony T. 
  Pierce, Arti K. Rai, Bert Rein, Lawrence S. Robbins, Michele A. 
  Roberts, E. Joshua Rosenkranz, Kevin Russell, Amar D. Sarwal, 
  David Schertler, Eric Schnapper, James E. Sharp, Anthony 
  Shelley, Eric A. Shumsky, Jonathan R. Siegel, Neil S. Siegel, 
  Paul M. Smith, Mary Lou Soller, Gloria Solomon, Grace E. 
  Speights, Kim Sperduto, Danielle Spinelli, Beth Stephens, Cate 
  Stetson, Brendan V. Sullivan, Jr., Kathleen M. Sullivan, 
  William W. Taylor, Dick Thornburgh, John B. Tieder, Jr., 
  Laurence H. Tribe, Gloria C. Tristani, Rebecca K. Troth, Bob 
  Trout, Alan E. Untereiner, Stephen I. Vladeck, Roger E. Warin, 
  Jonathan M. Weisgall, Stephen Wermiel, John M. Whealan, 
  Benjamin F. Wilson, Nancy Winkelman, Brian Wolfman, Emily M. 
  Yinger, Hugh F. Young, Jr., Roger E. Zuckerman, July 2, 2013, 
  letter.........................................................   292
Jefferson Keel, NCAI President, National Council of American 
  Indians, July 2, 2013, letter..................................   302
Barbara A. Arnwine, Executive Director and Jon M. Greenbaum, 
  Chief Counsel, Lawyers' Committee for Civil Rights Under Law, 
  Washington, DC, July 3, 2015, letter...........................   304
Stuart W. Bower, Jr., July 2, 2013, letter.......................   306
Seth P. Waxman, former Solicitor General, July 3, 2013, letter...   308
Dan Schweitzer, Supreme Court Counsel for the National 
  Association of Attorneys General, Bethesda, Maryland, July 3, 
  2013, letter...................................................   310
Lisa Soronen, Executive Director, State and Local Legal Center 
  (SLLC), July 3, 2013, letter...................................   312
Jessica E. Adler, President, Women's Bar Association of the 
  District of Columbia, Washington, DC, July 8, 2013, letter.....   314
Silvia Burley, Chairperson, California Valley Miwok Tribe, 
  Stockton, California, July 8, 2013, letter.....................   317
Leonard Forsman, Chairman, The Suquamish Tribe, Suquamish, 
  Washington, July 8, 2013, letter...............................   318
Carl H. McNair, Jr., Major General, U.S. Army (RET), Springfield, 
  Virginia, July 8, letter.......................................   319
Lilly Ledbetter, July 8, 2013, letter............................   320
Hon. Timothy K. Lewis, Washington, DC, July 8, 2013, letter......   322
Carter G. Phillips and Peter D. Keisler, July 8, 2013, letter....   324
David Bernhard, Judicial Screening Committee, Hispanic Bar 
  Association of the Commonwealth of Virginia, Richmond, 
  Virginia, July 9, 2013, letter.................................   325
Chuck Canterbury, National President, Fraternal Order of Police, 
  Washington, DC, July 9, 2013, letter...........................   331
David Diaz, Co-Chair, Endorsements Committee, Hispanic Bar 
  Association of the District of Columbia, Washington, DC, July 
  9, 2013, letter................................................   332
Donald B. Ayer, Lisa Blatt, Richard P. Bress, Louis R. Cohen, 
  Edward C. DuMont, Roy Englert, Mark Evans, H. Bartow Farr, III, 
  James S. Feldman, David C. Frederick, Irving L. Gornstein, 
  Douglas Hallward-Driemeier, Toby Heytens, Dan Himmelfarb, Alan 
  Horowitz, William M. Jay, Alan Jenkins, Neal Katyal, Michael K. 
  Kellogg, Jeffrey A. Lamken, Paul J. Larkin, Jr., Richard J. 
  Lazarus, Michael R. Lazerwitz, Robert A. Long, Maureen E. 
  Mahoney, Ronald Mann, Deanne E. Maynard, Carter G. Phillips, 
  Andrew J. Pincus, Lawrence S. Robbins, Charles A. Rothfeld, 
  David B. Salmons, Richard H. Seamon, Stephen M. Shapiro, 
  Barbara D. Underwood, Paul R.Q. Wolfson, Christopher J. Wright, 
  July 9, 2013, letter...........................................   334
Chuck Wexler, Executive Director, Police Executive Research 
  Forum, Washington, DC, July 9, 2013, letter....................   337
John E. Page, President, National Bar Association, Washington, 
  DC, July 10, 2013, letter......................................   338
John E. Echohawk, Executive Director, Native American Rights 
  Fund, Washington, DC, July 11, 2013, letter....................   339
Maryse C. Allen, President, Virginia Women Attorneys Association, 
  July 17, 2013, letter..........................................   341
Judith E. Schaeffer, Vice President, Constitutional 
  Accountability Center, Washington, DC, July 17, 2013, letter...   343
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 4, 2013, Millett letter...............................   345
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 17, 2013, Wolford letter...............................   347
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 14, 2013, Woods letter.................................   349

                        WEDNESDAY, JULY 24, 2013

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.   351
    prepared statement...........................................   691
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   355

                               PRESENTERS

Baucus, Hon. Max, a U.S. Senator from the State of Montana, 
  presenting Brian Morris, Nominee to be District Judge for the 
  District of Montana, and Susan P. Watters, Nominee to be 
  District Judge for the District of Montana.....................   353
Shaheen, Hon. Jeanne, a U.S. Senator from the State of New 
  Hampshire, presenting Landya B. McCafferty, Nominee to be 
  District Judge for the District of New Hampshire...............   358
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut, presenting Jeffrey Alker Meyer, Nominee to be 
  District Judge for the District of Connecticut.................   359

                       STATEMENTS OF THE NOMINEES

Pillard, Cornelia T.L., Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................   362
    Biographical Information.....................................   364
Morris, Hon. Brian, Nominee to be District Judge for the District 
  of Montana.....................................................   447
    Biographical Information.....................................   448
Watters, Hon. Susan P., Nominee to be District Judge for the 
  District of Montana............................................   503
    Biographical Information.....................................   504
Meyer, Jeffrey Alker, Nominee to be District Judge for the 
  District of Connecticut........................................   556
    Biographical Information.....................................   557
McCafferty, Landya B., Nominee to be District Judge for the 
  District of New Hampshire......................................   626
    Biographical Information.....................................   627

                               QUESTIONS

Questions for all nominees submitted by Senator Ted Cruz.........   693
Questions for Cornelia Pillard submitted by Senator Chuck 
  Grassley.......................................................   694
Questions for Cornelia Pillard submitted by Senator Jeff Sessions   703
Questions for Brian Morris submitted by Senator Chuck Grassley...   707
Questions for Susan P. Watters submitted by Senator Chuck 
  Grassley.......................................................   710
Questions for Jeffrey Alker Meyer submitted by Senator Chuck 
  Grassley.......................................................   713
Questions for Landya B. McCafferty submitted by Senator Chuck 
  Grassley.......................................................   716

                                ANSWERS

Responses of Cornelia Pillard to questions submitted by Senator 
  Grassley.......................................................   718
Responses of Cornelia Pillard to questions submitted by Senator 
  Sessions.......................................................   741
Responses of Cornelia Pillard to questions submitted by Senator 
  Cruz...........................................................   749
Responses of Brian Morris to questions submitted by Senator 
  Grassley.......................................................   753
Responses of Brian Morris to questions submitted by Senator Cruz.   761
Responses of Susan P. Watters to questions submitted by Senator 
  Grassley.......................................................   764
Responses of Susan P. Watters to questions submitted by Senator 
  Cruz...........................................................   770
Responses of Jeffrey Alker Meyer to questions submitted by 
  Senator Grassley...............................................   772
Responses of Jeffrey Alker Meyer to questions submitted by 
  Senator Cruz...................................................   781
Responses of Landya B. McCafferty to questions submitted by 
  Senator Grassley...............................................   784
Responses of Landya B. McCafferty to questions submitted by 
  Senator Cruz...................................................   790

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

William T. Coleman, Jr., Senior Partner and Senior Counselor, 
  O'Melveny and Myers LLP, Washington, DC, June 4, 2013, letter..   793
John M. Townsend, Partner, Hughes Hubbard and Reed LLP, July 8, 
  2013, letter...................................................   795
William S. Sessions, Former Chief Judge, U.S. District Court for 
  the Western District of Texas, Former Director, Federal Bureau 
  of Investigation, Washington, DC, July 9, 2013, letter.........   797
Richard Bierschbach, Harold Bruff, Jonathan Cedarbaum, Walter E. 
  Dellinger, Joseph R. Guerra, Pamela A. Harris, Clare 
  Huntington, Dawn E. Johnsen, Martin S. Lederman, Robin 
  Lenhardt, Randolph D. Moss, Trevor Morrison, Beth Nolan, Todd 
  Peterson, H. Jefferson Powell, Jeannie S. Rhee, Teresa Wynn 
  Reseborough, Richard Shiffrin, David A. Strauss, William M. 
  Treanor, Jay Wexler, July 17, 2013, letter.....................   799
Dean William M. Treanor, Georgetown University Law Center, 
  Washington, DC, July 17, 2013, letter..........................   802
Robin Abrams, Martha Boersch, Jeffrey Bornstein, Sean Coffey, 
  Miles Ehrlich, Jamie Gorelick, Michele Hirshman, Matthew 
  Jacobs, David Kris, Carl H. Loewenson, Jr., Daniel Marcus, Mark 
  Matthews, Julie Rose O'Sullivan, David W. Ogden, Richard 
  Olderman, Lisa Kate Osofsky, Karen Popp, Ismail Ramsey, Stephen 
  C. Robinson, Paul Rosenzweig, John Savarese, Howard Shapiro, 
  Paul Shechtman, Mark Stein, Beth Wilkinson, July 17, 2013, 
  letter.........................................................   804
Donald B. Ayer, J. Scott Ballenger, H. Christopher Bartolomucci, 
  Lisa S. Blatt, Richard P. Bress, Louis R. Cohen, Drew S. Days 
  III, Walter Dellinger, Edward C. DuMont, H. Bartow Farr III, 
  James A. Feldman, Jeffrey Fisher, David C. Frederick, Jerrold 
  J. Ganzfried, Irv Gornstein, Michael H. Gottesman, Jonathan D. 
  Hacker, Mark E. Haddad, Pamela S. Karlan, Neal Katyal, Stephen 
  B. Kinnaird, Jeffrey A. Lamken, Richard J. Lazarus, Robert A. 
  Long, Ronald Mann, Alan B. Morrison, Carter G. Phillips, Andrew 
  J. Pincus, Lawrence S. Robbins, Charles A. Rothfeld, Kevin 
  Russell, Paul M. Smith, Catherine E. Stetson, Kathleen M. 
  Sullivan, Laurence H. Tribe, Barbara D. Underwood, Lawrence G. 
  Wallace, Seth P. Waxman, Paul R.Q. Wolfson, Christopher J. 
  Wright, July 17, 2013, letter..................................   809
Viet D. Dinh, Professor of Law, Georgetown Law, Washington, DC, 
  July 18, 2013, letter..........................................   814
Nancy R. Adams, Julia J. Cleckley, Gina S. Farrisee, Evelyn 
  ``Pat'' Foote, Claudia J. Kennedy, Dennis J. Laich, Gale S. 
  Pollock, Wilma L. Vaught, Mary A. Baldy-Klotz, Margarethe 
  Cammermeyer, Marilla J. Cushman, Sherry de Vries, Debrah Feil, 
  Elizabeth W. Fleming, Norma L. Garrett, Lawrence Korb, Cindy 
  McNally, Robert (Mac) McNally, Paul Mango, Lory Manning, Debra 
  D. Mark, Stephanie Marshall, Joellen Oslund, Dwayne Oslund, 
  Michael E. Pheneger, Dawn S. Rucker, Katherine Scheirman, Loren 
  Simpson, Genie Davison Sorensen, Alfonse P. Squitiere, Glenna 
  L. Tinney, July 22, 2013, letter...............................   816
Jessica E. Adler, President, Women's Bar Association of the 
  District of Columbia, July 22, 2013, letter....................   819
Wade Henderson, President and CEO, Nancy Zirkin, Executive Vice 
  President, The Leadership Conference on Civil and Human Rights, 
  Washington, DC, July 23, 2013, letter..........................   822
Nancy Duff Campbell, Co-President, Marcia D. Greenberger, Co-
  President, National Women's Law Center, Washington, DC, July 
  23, 2013, letter...............................................   824
Bree Adams Guiterman, Kylie Lowe, Elizabeth C. Dobbins, Matthew 
  Steven Lowe, Arthur Bradford Morrill IV, Robert L. Fendley, 
  Kylie Morgan Lowe, Samantha D. Henke, Raevon Pulliam, July 23, 
  2013, letter...................................................   826
Pamela Berman, President, National Conference of Women's Bar 
  Associations, July 24, 2013, letter............................   828
Peter M. Reyes, Jr., HNBA National President, Hispanic National 
  Bar Association, Washington, DC, August 7, 2013, letter........   831
Douglas T. Kendall, President, Judith E. Schaeffer, Vice 
  President, Constitutional Accountability Center, Washington, 
  DC, September 9, 2013, letter..................................   833
Wade Henderson, President and CEO, Nancy Zirkin, Executive Vice 
  President, The Leadership Conference on Civil and Human Rights, 
  Washington, DC, September 11, 2013, letter.....................   835
Shanna L. Smith, President and CEO, National Fair Housing 
  Alliance, Washington, DC, September 18 2013, letter............   837
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 4, 2013, Pillard letter...............................   839
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 29, 2013, Morris letter................................   841
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 29, 2013, Watters letter...............................   843
Kimberly A. Knox, President, Connecticut Bar Association, New 
  Britain, Connecticut, August 1, 2013, letter...................   845
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 10, 2013, Meyer letter................................   846
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, May 29, 2013, McCafferty letter............................   848
Quotes for the Record on the DC Circuit's Caseload...............   850

                     WEDNESDAY, SEPTEMBER 11, 2013

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................   859
    prepared statement...........................................   691
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......   860
    Opening Statement Nominations Hearing: Judge Wilkins.........  1168
    prepared statement...........................................  1235
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................  1238

                               PRESENTERS

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland, presenting Robert Leon Wilkins, Nominee to be Circuit 
  Judge for the District of Columbia Circuit.....................   852
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California, presenting James Donato, Nominee to be District 
  Judge for the Northern District of California, and Beth Labson 
  Freeman, Nominee to be District Judge for the Northern District 
  of California..................................................   853
Pierluisi, Hon. Pedro R., Resident Commissioner in Congress from 
  the Commonwealth of Puerto Rico, presenting Hon. Pedro A. 
  Delgado Hernandez, Nominee to be District Judge for the 
  District of Puerto Rico........................................   855
Boozman, Hon. John, a United States Senator from the State of 
  Arkansas, presenting Timothy L. Brooks, Nominee to be District 
  Judge for the Western District of Arkansas.....................   856
Pryor, Hon. Mark L., a United States Senator from the State of 
  Arkansas, presenting Timothy L. Brooks, Nominee to be District 
  Judge for the Western District of Arkansas.....................   858

                       STATEMENTS OF THE NOMINEES

Wilkins, Robert Leon, Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................   861
    Biographical Information.....................................   862
Donato, James, Nominee to be District Judge for the Northern 
  District of California.........................................   953
    Biographical Information.....................................   954
Brooks, Timothy L., Nominee to be District Judge for the Western 
  District of Arkansas...........................................  1003
    Biographical Information.....................................  1004
Freeman, Beth Labson, Nominee to be District Judge for the 
  Northern District of California................................  1041
    Biographical Information.....................................  1043
Delgado Hernandez, Hon. Pedro A., Nominee to be District Judge 
  for the District of Puerto Rico................................  1118
    Biographical Information.....................................  1119

                               QUESTIONS

Questions for Robert Leon Wilkins submitted by Senator Chuck 
  Grassley.......................................................  1169
Questions for James Donato submitted by Senator Chuck Grassley...  1173
Questions for James Donato submitted by Senator Michael S. Lee...  1175
Questions for Timothy L. Brooks submitted by Senator Chuck 
  Grassley.......................................................  1176
Questions for Beth Labson Freeman submitted by Senator Chuck 
  Grassley.......................................................  1178
Questions for Hon. Pedro A. Delgado Hernandez submitted by 
  Senator Chuck Grassley.........................................  1181
Questions for all nominees submitted by Senator Ted Cruz.........  1184

                                ANSWERS

Responses of Robert Leon Wilkins to questions submitted by 
  Senator Grassley...............................................  1185
Responses of Robert Leon Wilkins to questions submitted by 
  Senator Cruz...................................................  1197
Responses of James Donato to questions submitted by Senator 
  Grassley.......................................................  1200
Responses of James Donato to questions submitted by Senator Lee..  1206
Responses of James Donato to questions submitted by Senator Cruz.  1209
Responses of Timothy L. Brooks to questions submitted by Senator 
  Grassley.......................................................  1211
Responses of Timothy L. Brooks to questions submitted by Senator 
  Cruz...........................................................  1216
Responses of Beth Labson Freeman to questions submitted by 
  Senator Grassley...............................................  1219
Responses of Beth Labson Freeman to questions submitted by 
  Senator Cruz...................................................  1225
Responses of Hon. Pedro A. Delgado Hernandez to questions 
  submitted by Senator Grassley..................................  1228
Responses of Hon. Pedro A. Delgado Hernandez to questions 
  submitted by Senator Cruz......................................  1233

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 10, 2013, Brooks letter...............................  1240
Joseph C. Akers , Jr., Interim Executive Director, National 
  Organization of Black Law Enforcement Executives, Alexandria, 
  VA, August 28, 2013, letter....................................  1242
Benjamin F. Wilson, John E. Page, Ricardo Anzaldua, James J. 
  Bender, Donna B. Coaxum, Bernard T. Gugar, Michelle C. Ifill, 
  Hannibal G. Williams II, Paul Lancaster Adams, Grace E. 
  Speights, Leslie T. Thornton, Keith H. Williamson, Kwamina 
  Williford, Steven H. Wright, September 10, 2013, letter........  1244
Doreen Spears Hartwell, President, Las Vegas Chapter of the 
  National Bar Association, Las Vegas, Nevada, September 10, 
  2013, letter...................................................  1246
Wade Henderson, President and CEO, Nancy Zirkin, Executive Vice 
  President, The Leadership Conference on Civil and Human Rights, 
  Washington, DC, September 10, 2013, letter.....................  1248
The National Bar Association, Washington, DC, September 11, 2013, 
  statement......................................................  1250
Nancy Duff Campbell, Co-President, Marcia D. Greenberger, Co-
  President, National Women's Law Center, Washington, DC, 
  September 10, 2013, letter.....................................  1254
William (Billy) R. Martin, President, The Washington Bar 
  Association, Washington, DC, September 18, 2013, letter........  1256
Michael J. Madigan, Orrick, Herrington & Sutcliffe LLP, 
  Washington, DC, September 27, 2013, letter.....................  1258
Jessica E. Adler, President, Women's Bar Association of the 
  District of Columbia, September 30, 2013, letter...............  1260
National Bar Association, Affiliate Chapters, September 30, 2013, 
  letter.........................................................  1263
Douglas T. Kendall, President, Judith E. Schaeffer, Vice 
  President, Constitutional Accountability Center, Washington, 
  DC, September 27, 2013, letter.................................  1268
Wade Henderson, President and CEO, Nancy Zirkin, Executive Vice 
  President, The Leadership Conference on Civil and Human Rights, 
  Washington, DC, October 2, 2013, letter........................  1270
African American Ministers in Action, AFL-CIO, Alliance for 
  Justice, Amalgamated Transit Union (ATU), American Association 
  for Justice, American Association of University Women, American 
  Constitution Society, American Federation of Government 
  Employees (AFGE), American Federation of State, County and 
  Municipal Employees (AFSCME), American Federation of Teachers 
  (AFT), American Postal Workers Union (APWU), Americans for 
  Financial Reform, Asian Americans Advancing Justice--AAJC, 
  Association of Flight Attendants (CWA), Auto Workers United 
  (UAW), Black Leadership Forum, Coalition of Women's Initiatives 
  in Law, Common Cause, Communications Workers of America, 
  Constitutional Accountability Center, CREDO Mobile, Department 
  of Professional Employees (AFL-CIO), Earthjustice, Earth Rights 
  International, Environmental Law and Policy Center, Feminist 
  Majority, Generational Alliance, Hispanic National Bar 
  Association (HNBA), Human Rights Campaign, International 
  Brotherhood of Boilermakers, International Federation of 
  Professional and Technical Engineers (IFPTE), Justice at Stake, 
  Lambda Legal, MALDEF, Metal Trades Department (AFL-CIO), Mine 
  Workers of America (UMWA), National Abortion Federation, NAACP, 
  NAACP Legal Defense & Educational Fund, Inc., National 
  Association of Consumer Advocates, National Bar Association, 
  National Coalition on Black Civic Participation, National 
  Conference of Women's Bar Associations, National Congress of 
  American Indians, National Council of Jewish Women, National 
  Education Association, National Employment Lawyers Association 
  (NELA), National Fair Housing Alliance, National Legal Aid & 
  Defender Association, National Organization for Women, National 
  Partnership for Women and Families, National Women's Law 
  Center, People for the American Way, ProgressNow, Service 
  Employees International Union, Sheet Metal Air Rail 
  Transportation (SMART) Transportation Division, Sierra Club, 
  Steelworkers United (USW), Union for Reform Judaism, USAction, 
  YEO Action, Young People for Action, American Constitution 
  Society New England Law Boston, Americans for Democratic Action 
  Iowa, Arizona Advocacy Network, Asian Americans Advancing 
  Justice--Chicago, California School Employees, Cleveland NAACP, 
  Courts Matter to ME, I Believe Project (Mississippi), Illinois 
  Coalition for Constitutional Values, Interfaith Alliance of 
  Iowa, Iowa Association for Justice, Iowa Citizens Action 
  Network, Iowas Fair Courts Coalition, Jewish Alliance for Law & 
  Social Action (Massachusetts), Justice Not Politics (Iowa), 
  Louisiana Courts Matter, Maine Women's Lobby, National 
  Association of Social Workers Maine Chapter, National Council 
  of Jewish Women Lousiana State Policy Advocacy Network, 
  National Council of Jewish Women Maine State Policy Advocacy 
  Network, National Council of Jewish Women Minneapolis Section, 
  National Council of Jewish Women Pennsylvania State Policy 
  Advocacy Network, National Council of Jewish Women Missouri 
  State Policy Advocacy Network, National Council of Jewish Women 
  Texas State Policy Advocacy Network, Nebraskans for Civic 
  Reform, Ohio Coalition for Constitutional Values, One Iowa, 
  Pennsylvania Coalition for Constitutional Values, Planned 
  Parenthood of the Heartland, Texans for a Fair Judiciary, 
  Women's Bar Association of Illinois, Women's Bar Association of 
  Massachusetts, Working Families Win (Iowa)July 31, 2013, letter  1272
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 4, 2013, Wilkins letter...............................  1276
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 24, 2013, Donato letter...............................  1278
Paul M. Davis, Attorney at Law, Novato, California, June 21, 
  2013, letter...................................................  1280
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 24, 2013, Freeman letter..............................  1282
Oreste E. Ramos, President, Federal Bar Association, Puerto Rico 
  Chapter, San Juan, Puerto Rico, August 19, 2013, letter........  1284
Hon. Pedro R. Pierluisi, Member of Congress, Puerto Rico, 
  September 5, 2013, letter......................................  1285
Judy Perry Martinez, Chair, American Bar Association, Washington, 
  DC, June 27, 2013, Delgado letter..............................  1287
                              ----------                              

                     ALPHABETICAL LIST OF NOMINEES

Brooks, Timothy L., Nominee to be District Judge for the Western 
  District of Arkansas...........................................  1003
Brown, Debra M., Nominee to be District Judge for the Northern 
  District of Mississippi........................................   181
Delgado Hernandez, Hon. Pedro A., Nominee to be District Judge 
  for the District of Puerto Rico................................  1118
Donato, James, Nominee to be District Judge for the Northern 
  District of California.........................................   953
Freeman, Beth Labson, Nominee to be District Judge for the 
  Northern District of California................................  1041
McCafferty, Landya B., Nominee to be District Judge for the 
  District of New Hampshire......................................   626
Meyer, Jeffrey Alker, Nominee to be District Judge for the 
  District of Connecticut........................................   556
Millett, Patricia Ann, Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................    12
Morris, Hon. Brian, Nominee to be District Judge for the District 
  of Montana.....................................................   447
Pillard, Cornelia T.L., Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................   362
Watters, Hon. Susan P., Nominee to be District Judge for the 
  District of Montana............................................   503
Wilkins, Robert Leon, Nominee to be Circuit Judge for the 
  District of Columbia Circuit...................................   861
Wolford, Elizabeth A., Nominee to be District Judge for the 
  Western District of New York...................................   135
Woods, Gregory Howard, Nominee to be District Judge for the 
  Southern District of New York..................................    98


NOMINATION OF PATRICIA ANN MILLETT, OF VIRGINIA, NOMINEE TO BE CIRCUIT 
 JUDGE FOR THE DISTRICT OF COLUMBIA CIRCUIT; GREGORY HOWARD WOODS, OF 
NEW YORK, NOMINEE TO BE DISTRICT JUDGE FOR THE SOUTHERN DISTRICT OF NEW 
 YORK; ELIZABETH A. WOLFORD, OF NEW YORK, NOMINEE TO BE DISTRICT JUDGE 
     FOR THE WESTERN DISTRICT OF NEW YORK; AND DEBRA M. BROWN, OF 
MISSISSIPPI, NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
                              MISSISSIPPI

                        WEDNESDAY, JULY 10, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:08 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Charles E. 
Schumer, presiding.
    Present: Senators Leahy, Schumer, Franken, Coons, Grassley, 
Lee, and Cruz.
    Senator Schumer. The hearing will come to order, and I want 
to welcome our colleagues. We have four colleagues here, and we 
are going to do the higher court first, which is the DC 
Circuit. And so here to introduce Ms. Millett are Senator 
Warner and Senator Kaine. Then we will have Senator Cochran and 
Senator Wicker introduce their nominee, and then we will get on 
with the rest of the hearing.
    So, Senator Warner, you are on.

  PRESENTATION OF PATRICIA ANN MILLETT, NOMINEE TO BE CIRCUIT 
  JUDGE FOR THE DISTRICT OF COLUMBIA CIRCUIT, BY HON. MARK R. 
       WARNER, A U.S. SENATOR FROM THE STATE OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and today I am 
honored to join with my good friend and colleague, Senator 
Kaine, to introduce a fellow Virginian, President Obama's 
nominee to the U.S. Court of Appeals for the DC Circuit, 
Patricia Millett. Patricia is extremely well qualified to carry 
out the duties and responsibilities of a federal appellate 
judge.
    I know the Committee has no doubt looked at her 
professional career and had the same reaction as I did. This is 
an extraordinarily talented individual who would be a great 
credit to the court.
    Patricia earned her bachelor's degree summa cum laude, with 
highest distinction, in 1985 from the University of Illinois, 
and, Mr. Chairman, I think that--Mr. Chairman, this is an 
important factor. I think that Patricia went to the same law 
school that you and I and Senator Kaine did, and if my facts 
are correct, she graduated magna cum laude, which I am not sure 
that you or I or Senator Kaine had the distinction of 
graduating from.
    [Laughter.]
    Senator Warner. So, you know, I just thought we might let 
that note be out there.
    Senator Schumer. I used to say the best thing about going 
to Harvard is you are not impressed when someone else says they 
went there, because if they took you, they could take anybody.
    [Laughter.]
    Senator Warner. That is right. I hope that will be stricken 
from the record.
    [Laughter.]
    Senator Schumer. When I said ``meaning you,'' I meant 
``me.''
    [Laughter.]
    Senator Warner. After this distinctive educational 
background, she clerked for the late Judge Thomas Tang of the 
U.S. Court of Appeals for the Ninth Circuit. She worked on the 
appellate staff of the Civil Division of the U.S. Department of 
Justice. She went on to serve under both Democratic and 
Republican administrations as an assistant to the Solicitor 
General, where she was awarded the Attorney General's 
Distinguished Service Award.
    Currently, she is chair of the Supreme Court practice at 
Akin Gump. Patricia has actually argued 32 cases before the 
High Court. This either places her, depending on the week, as 
the number one or second, top one or two, of all women lawyers 
who have ever argued that many cases before the Supreme Court.
    She also brings a distinctive bipartisan support to this 
nomination. Seven former Solicitor Generals from both ends of 
the political spectrum support Patricia Millett's nomination. 
This includes Democrats Walter Dellinger and Drew Days and 
Republicans Ted Olson, Ken Starr, and Paul Clement.
    She has been recognized by the National Law Journal as one 
of the 100 Most Influential Lawyers in America and received the 
endorsement of the American Bar Association and the Virginia 
State Bar.
    She has got here with her family--beyond these impressive 
professional accomplishments, she is an active member of our 
community. She has volunteered at homeless shelters along with 
transitional housing organizations. I think a couple of her 
kids are about to go off on missions. She is an active member 
of the Aldersgate United Methodist Church in my home town of 
Alexandria, where she volunteers in Sunday school. She has also 
repeatedly volunteered her time to assist with the Street Law 
Project Supreme Court Summer Institute for Teachers that 
educates high school teachers about the Supreme Court. I know 
this is a program that many Members of the Committee widely 
respect.
    Most importantly, she and her two young children have also 
been big supporters of her husband, who served for over 20 
years in our military where he was deployed during Operation 
Iraqi Freedom.
    Let me close before I get to Senator Kaine and say that for 
any of you who might not be willing to support Patricia's 
confirmation, I want to warn you ahead of time, both her 
husband and her two children all have a black belt in 
taekwondo.
    [Laughter.]
    Senator Warner. So, you know, bear that in mind as well.
    This is an extraordinary lawyer with a great background in 
the community. I can think of no one that would be better 
served--better service to the U.S. Court of Appeals, a court 
that is in desperate need of having its many vacancies filled. 
I endorse her without reservation, and it is my hope that this 
Committee will come to that same conclusion after you have had 
a chance to review her credentials and ask her questions. She 
will be a great tribute to the court.
    With that, I will turn it over to my good friend Senator 
Kaine.
    Senator Schumer. Senator Kaine is recognized.
    Senator Kaine. Great.
    Senator Schumer. By Chairman Warner.
    [Laughter.]

  PRESENTATION OF PATRICIA ANN MILLETT, NOMINEE TO BE CIRCUIT 
JUDGE FOR THE DISTRICT OF COLUMBIA CIRCUIT, BY HON. TIM KAINE, 
           A U.S. SENATOR FROM THE STATE OF VIRGINIA

    Senator Kaine. Thank you, Mr. Chair and Members of the 
Committee. I love doing these with my friend and colleague, my 
senior Senator, Mark Warner, and it is a happy occasion to be 
here for Patricia Millett. Mark did a good job of summarizing 
her background, a public service background, two years as a 
judicial clerk. I worked as a clerk in the Eleventh Circuit, 
and I know how a beginning lawyer is often very molded by a 
clerkship experience, learning about judging, judicial 
temperament, dedication, and she had that experience early. She 
has had an extensive public career, as Senator Warner 
indicated, both in the Justice Department and then with a 
lengthy tenure in the Solicitor General's office under both 
Democratic and Republican Presidents.
    The Senator mentioned that she has gotten strong 
recommendations from seven former Solicitor Generals of both 
parties, but also I believe the Committee has a letter with 
dozens of former Assistant or Deputy Solicitor Generals, 
current and former, weighing in on behalf of Patricia. That 
sort of bipartisan experience representing the United States 
under both Democratic and Republican administrations is a very 
important thing.
    She left the public service to go to one of America's best 
known law firms at Akin Gump Strauss, where she has headed the 
appellate practice section, as Senator Warner mentioned. She 
has a very distinguished record of arguing cases before the 
Supreme Court, 32 cases and briefs in 77 cases. But she also 
has an extensive record of arguing cases before the courts of 
appeals. She has had 38 courts of appeals arguments in 12 
circuit courts, including arguments before the DC Circuit. So 
this is a court that she knows well.
    Senator Warner described her family: her husband, Robert, 
and her two children, Elizabeth and David, who are both here. 
It is a family that values public service, broadly defined, 
active in their church, active in community activities. And she 
would bring, I think, a great deal of life experience and 
balance to this all-important court.
    We care about courts in Virginia. We proudly claim probably 
the greatest jurist in American history, John Marshall. We want 
to have judges who have the character and the educational and 
career experiences that will enable them to be solid jurists, 
and I know Patricia would carry that out in a wonderful way.
    And so I encourage your favorable consideration of her 
candidacy and favorable consideration on the floor. Thanks very 
much.
    Senator Schumer. Thank you, Senator Kaine, and I know you 
folks have busy schedules, so if you wish to leave, you may. 
And if you wish to stay and listen to the mellifluous words of 
Senators Cochran and Wicker, that would be fine, too.
    So now let me call on Senator Cochran to introduce the 
nominee from the Northern District of Mississippi.

 PRESENTATION OF DEBRA M. BROWN, NOMINEE TO BE DISTRICT JUDGE 
FOR THE NORTHERN DISTRICT OF MISSISSIPPI, BY HON. THAD COCHRAN, 
          A U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Cochran. Mr. Chairman, I am pleased to be here with 
the Committee this morning to recommend Debra Brown for 
confirmation as a United States District Court Judge for the 
Northern District of Mississippi.
    Ms. Brown graduated from the Mississippi State University 
School of Architecture in 1987, where she has served as a 
member of the school's Advisory Council. She worked as an 
architect here in Washington, where she participated in the 
renovation and restoration of municipal and historic buildings 
and in the construction of commercial and residential 
properties as well.
    She received her law degree from the University of 
Mississippi School of Law in 1997, where she served as 
associate editor and articles editor of the Mississippi Law 
Journal.
    After graduating from law school, Ms. Brown became the only 
lawyer in Mississippi with degrees in both architecture and 
law, and in 1997 she joined the Phelps Dunbar law firm in 
Jackson, Mississippi, where she became a partner and remained 
until January 2012, when she joined, as a shareholder, the 
Wise, Carter, Child & Caraway law firm, also in Jackson.
    During her almost 16 years in private practice, Ms. Brown 
has had the opportunity to engage in numerous civil cases 
covering a broad range of subject matters, but especially in 
the areas of commercial construction and civil liability 
litigation. The American Bar Association's Standing Committee 
on the Federal Judiciary unanimously concluded that she is 
qualified to serve as a federal district court judge.
    She is a member of the American Bar Association, the 
National Bar Association, and the Federal Bar Association, as 
well as a member of the Mississippi State Bar and the Magnolia 
Bar Association, where she has served also as the Mississippi 
Women Lawyers Association representative as president. She is 
also a fellow of the Mississippi Bar Foundation.
    She was the 2004 recipient of the Jackson Young Lawyers 
Outstanding Service Award and was recognized in 2008 by the 
Mississippi Business Journal as one of Mississippi's leading 
business women.
    Debra Brown is very well qualified by ability, education, 
and experience to serve as a United States district court 
judge. The President nominated her for the post on May 16, 
2013. Senator Wicker and I have returned our Senate Judiciary 
Committee blue slips recommending approval of her nomination 
and her confirmation by the Senate.
    It is a personal pleasure to be before the Committee today 
and to express my confidence that she will reflect great credit 
and serve with distinction as a member of the United States 
federal judiciary.
    Senator Schumer. Thank you, Senator Cochran.
    Senator Wicker.

 PRESENTATION OF DEBRA M. BROWN, NOMINEE TO BE DISTRICT JUDGE 
FOR THE NORTHERN DISTRICT OF MISSISSIPPI, BY HON. ROGER WICKER, 
          A U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman, and thank you, 
Members of the Committee. Let me join Senator Cochran in 
enthusiastically endorsing Debra Brown for the position of 
district court judge. And let me also say, Mr. Chairman, that 
as a son of Mississippi and as the junior Senator from 
Mississippi, this is a profoundly special moment for me because 
I think Judge Brown will be an outstanding addition to the 
federal bench and, if confirmed, Ms. Brown would be the first 
African American female judge in the State of Mississippi.
    So it means a lot to me. It is an emotional moment for me, 
and we are making history, and I am just so honored to be part 
of it.
    Ms. Brown has represented accomplishment and excellence her 
entire life. Back in Yazoo City High School, she was a National 
Merit finalist. She was president of the National Honors 
Society. It had not occurred to me, but it seems that it is a 
good balance that we need at least an architect or two on the 
federal bench.
    [Laughter.]
    Senator Wicker. And, my goodness, Ms. Brown got her degree 
from Mississippi State University School of Architecture. She 
practiced architecture right here in DC, and then decided to 
make a career switch, after having a very accomplished career 
in architecture, went back to the University of Mississippi Law 
School--the first person in her family to earn a law degree.
    She has been a partner at Phelps Dunbar. She has been a 
shareholder at Wise, Carter, Child & Caraway in Jackson, 
Mississippi. She certainly represents legal excellence, as 
Senator Cochran mentioned, in the areas of commercial 
construction, general liability litigation, premises liability, 
product liability, intellectual property, employment law, and 
insurance defense. She has the intellectual capacity to take on 
the most complex issues. She also served as president of the 
Mississippi Women Lawyers Association from 2003 to 2004.
    She has a reputation for professional excellence. She was 
selected by the Mississippi Business Journal as one of 
Mississippi's 50 leading business women, and in addition, she 
has given back to her community as a volunteer. In addition to 
her pro bono activities, she serves on the board of two 
nonprofit organizations, the Mississippi Center for Justice--a 
public interest law firm committed to combating discrimination 
and poverty in Mississippi--along with Operation Shoestring, a 
charity that offers academic enrichment and related services to 
the children of Mississippi.
    Now, I have already pointed out that she is from Yazoo 
City, Mississippi. She lives in Jackson now, but she is a 
native of Yazoo City, a graduate of Yazoo City High School. 
This is in the Southern Delta, Mr. Chairman. She replaces the 
late Judge Allen Pepper, a dear friend of Senator Cochran and 
me, who was from Cleveland, at the northern end of the 
Mississippi Delta.
    She will occupy the office of the federal judge in the 
courthouse in Greenville, Mississippi, and it occurs to me, 
Senator Cochran and Members who might be in a position to make 
appropriations, that that courthouse is not up to speed.
    [Laughter.]
    Senator Wicker. It is not state of the art. The setback 
from the street makes it a terrorist threat, and it needs to be 
replaced. And I just think it is special today to have in our 
presence and to submit to you the judge who will undoubtedly 
preside over the construction of a brand-new, state-of-the-art 
courthouse in Greenville, Mississippi.
    [Laughter.]
    Senator Wicker. Debra Brown is going to be good for the 
country. She will be good for the people, and this is a good 
day for Greenville, Mississippi, and for the Delta. And I 
consider it a personal and high honor to recommend her highly 
to this Committee and to the U.S. Senate.
    Senator Schumer. Well, thank you, Senator Wicker. And we do 
have the most senior Members of the Appropriations Committee, 
one sitting to your right, one sitting to my left. So I am sure 
your pleas we will be listened to.
    Anyway, thank you all for being here and introducing your 
witnesses, and before I call the first panel, we are honored to 
have our Chair of our Judiciary Committee here today, and I am 
going to call on him first for a brief opening statement, then 
the rest of us; then we will call Ms. Millett and go forward 
from there.
    Chairman Leahy.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Well, I thank you, and I will be brief 
because I am going to another Committee meeting. But we could 
not have a more experienced Member of this Committee than 
Senator Schumer to be here to chair it.
    I appreciate the comments of the two Senators from 
Mississippi, both good friends of mine, and the two Senators 
from Virginia, also good friends. And with Senator Grassley 
here, I would note that we held a respectful, productive 
hearing for the President's nominee to be FBI Director 
yesterday. And today we have another hearing, which I hope will 
be of the same caliber. I think if we have a fair hearing 
today, we are going to agree that these nominees are deserving 
of bipartisan support, all of them.
    I will mention one: Patricia Millett, who is nominated to 
one of three vacancies on the District of Columbia Circuit. An 
appellate advocate, she served in the Office of the Solicitor 
General under both President Clinton and President Bush. She 
has argued 32 cases before the Supreme Court--I mean, that 
would be a career for anyone--another 36 before federal courts 
of appeals. She testified here in 2008 at the request of the 
Senate Republicans. Eminently well qualified, and there is no 
question she should serve on that court.
    I would note there has been some discussion of the caseload 
of the court. Earlier this week, the Senate voted unanimously 
to confirm Wyoming Attorney General Gregory Phillips to the 
Tenth Circuit. That means the number of pending appeals per 
active judge on that court dropped from 150 to 135. The DC 
Circuit has 177 pending appeals per active judge. Most of them 
are far more complex. So I think, just as earlier this year 
when Senators voted Jane Kelly to the Eighth Circuit, which 
gave that court the lowest caseload in the country, I hope 
those same Senators will realize that here we have somebody 
with a much busier court, a court that needs her, and do so.
    But all of the nominees are so well qualified that I thank 
again Senator Schumer and Senator Grassley for having this 
hearing, and I can assure you I will try to move these. Once 
the hearing is over, is completed, and Senator Schumer tells me 
that the record is closed, we will put them on the agenda.
    Thank you.
    Senator Schumer. Thank you, Mr. Chairman, and we are 
honored by your presence here today.
    Now we will call the first panel, which is a panel of one--
oh, Senator Grassley, do you want to make an opening statement? 
I was going to make mine when Ms. Millett came here, but go 
ahead. Do you want to make one now?
    Senator Grassley. I would prefer to make mine after you 
make yours.
    Senator Schumer. Okay, great. Okay. And so let us call our 
first panel, which is Patricia Millett.
    [Pause.]
    Senator Schumer. Patricia Millett, will you please stand to 
be sworn? Do you affirm that the testimony you are about to 
give before the Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ms. Millett. I do.
    Senator Schumer. Please be seated.

 OPENING STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Schumer. Okay. Well, welcome. I want to thank 
Chairman Leahy for being here, Ranking Member Grassley, 
Senators Franken, Lee, and Cruz for being here as well.
    Now, before we get to Ms. Millett, I am going to make an 
opening statement, Senator Grassley will, and then we will get 
right to our nominee.
    So I would like to make a brief comment about President 
Obama's noble and serious efforts to fill vacancies on the 
United States Court of Appeals for the DC Circuit, often called 
the ``second most important court in the country.''
    Four years after his election, the President has had just 
one nominee to the DC Circuit confirmed. The 11-member court 
has three vacancies. It does not even have enough judges for 
more than two full hearing panels.
    To be clear, the caseload per active judge, as Senator 
Leahy mentioned, on the DC Circuit is now 177 per judge. For 
the Tenth Circuit, which we just confirmed a new judge two days 
ago, the caseload is 150 per judge. That was before the nominee 
was approved.
    In fact, the DC Circuit currently has a higher number of 
pending appeals per active judge than there was when any of 
President Bush's nominees were nominated or confirmed. And we 
all know how complicated many of the cases before the circuit 
are.
    Now, my good friend and colleague, fellow ``Chuck'' in the 
Senate, Senator Grassley, has introduced a bill called The 
Court Efficiency Act, which would take away the three remaining 
seats on the DC Circuit. This bill was not introduced by either 
party during the Bush administration. In fact, my Republican 
colleagues during the Bush administration voted to confirm the 
9th, 10th, and 11th judges to the DC Circuit. They voted to 
confirm the 10th judge on that court twice.
    Given that no party has ever refused to fill the ninth slot 
on the court based on caseload, and given that the current 
caseload is quite high, I hope and expect my colleagues on the 
Committee will proceed to evaluate each nominee on his or her 
own merits.
    Sri Srinivasan, a truly exceptional candidate of whom any 
President would be proud, was finally confirmed to the eighth 
seat on the court, rightfully so.
    An earlier nominee, Caitlin Halligan, had two failed 
cloture votes before she withdrew her name. One of the chief 
arguments against her was the caseload of the DC Circuit, but 
Judge Srinivasan was confirmed after her failed votes. Halligan 
was also an exceptionally well-qualified nominee. Her opponents 
dredged up other reasons to prevent her nomination from going 
forward based on briefs she wrote as a lawyer and gave for 
other people. I hope that another qualified female candidate 
will be accorded the respect that she deserves.
    Patricia Millett could not have possibly had a more varied 
career showing the breadth of her intelligence and her 
experience. She has represented a wide swath of clients, argued 
many types of cases from all sides, and expressed keenly 
intelligent opinions on a variety of legal issues, even if one 
disagrees with some of them. In short, as her myriad supporters 
have noted in dozens of letters to this Committee, she is a 
lawyer's lawyer. So I look forward to hearing from her and 
other nominees, and we will call on Senator Grassley for his 
opening statement now.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
                       THE STATE OF IOWA

    Senator Grassley. I have some differences with my 
distinguished colleague on this point, but I am also glad to 
have participated in the Senate confirmation of 199 of 
President Obama's nominees and the disapproval of only two, 
which I think is a 99-percent average, and this President ought 
to be very proud of the Senate's actions on these nominees.
    First of all, congratulations to the nominee, to Ms. 
Millett. Glad to have you here.
    I previously expressed my opposition to including on the 
agenda today any nominee of the District of Columbia Circuit. 
First, as my colleagues are aware, there is a lack of consensus 
regarding the workload of the court. Second, we are moving at a 
very quick pace on nominations. And, third, we are skipping 
over nominations that were submitted to the Committee earlier 
than the DC Circuit nominations. In fact, my concerns are 
identical to those expressed by Senate Democrats when President 
Bush nominated Peter D. Keisler to fill this particular vacancy 
in 2006.
    For example, one of my colleagues said, ``Like my 
colleagues, I am not pleased that the Committee is holding this 
hearing today. As we wrote to you last week, Mr. Keisler was 
nominated only a month ago. The question of whether another 
judge should be named to the DC Circuit is an issue that needs 
further study and discussion in the Committee.''
    Another Senator stated, regarding the timing of Mr. 
Keisler's hearing, ``First, we have barely had time to consider 
the nominee's record. Mr. Keisler was named to this seat 33 
days ago. So we are having this hearing with astonishing and 
inexplicable speed. The average time for nominations to a 
hearing for the last seven nominees to that court is several 
times that long.''
    That Senator also commented on my third point, skipping 
over nominees. In 2006, he said, ``I am especially surprised 
that we are pushing forward, given that Mr. Keisler is now 
leapfrogging ahead of several nominees.''
    My point is both parties have raised concerns, and they 
should be addressed before we move forward with the nominations 
of Court of Appeals for the DC Circuit.
    I would acknowledge that in 2006 the hearing for Mr. 
Keisler went forward, even with concerns expressed by my 
Democratic colleagues. But what was the result? Did Senate 
Republicans then steamroll the minority or quickly rubber stamp 
the nomination? Did they change the rules of the Senate to 
ensure confirmation by simple majority vote? Of course not. The 
Republican Chairman at the time was exceptionally 
accommodating, perhaps ultimately to the detriment of Mr. 
Keisler's nomination. Senator Democrats used every procedure 
and strategy possible to delay consideration of the nomination. 
This included boycotting Committee meetings to avoid a quorum, 
invoking the two-hour rule to prohibit a Committee meeting, and 
threatening a filibuster in Committee. Ultimately his 
nomination was returned to the President, even after a hearing 
had been held, and his nomination was held over in mark-up. 
Democrats blocked the final mark-up vote.
    During the next Congress, when Democrats held the majority, 
Mr. Keisler was renominated and was pocket filibustered in the 
Committee. I would note that, despite the treatment that he 
received, Mr. Keisler submitted a letter in support of Ms. 
Millett's credentials. This is a real testament to his 
character, and I do not recall many Democrat letters of support 
for Mr. Keisler at the time of his nomination.
    It is interesting that Mr. Keisler declined to take a 
position on whether additional judges on the DC Circuit are 
warranted. But I would like to address in a little more detail 
my concerns about moving forward on the DC Circuit.
    First is the workload issue. In 2006, Democrats argued that 
the DC Circuit caseload was too light to justify confirming any 
additional judges to the bench. You know what? Since then, the 
caseload has continued to decrease. In terms of raw numbers, 
the DC Circuit has the lowest number of appeals filed annually 
among all circuit courts of appeal. In 2005, that number was 
1,379. Last year, it was 1,193, a decrease of 13.5 percent. The 
next lowest circuit is the First Circuit, which has 33 percent 
more appeals filed and yet has half as many judges.
    In terms of the number per authorized judgeship, again, the 
DC Circuit is the lowest. In 2012, the DC Circuit has 108 total 
appeals filed per authorized judgeship, the lowest in the 
Nation. By comparison, the national average was 344, nearly 
three times higher. Furthermore, this measure is also on 
decline. Total appeals per authorized judgeship in 2005 was 
115. In 2012, that number had fallen to 108. What is noteworthy 
is that the number decreased despite having one less judge due 
to the judgeship transferred to the Ninth Circuit in 2008.
    But probably the best numbers to look at are those that 
measure the workload per active judge. The caseload has 
decreased so much since 2005 that, even with two fewer active 
judges, the filing levels per active judge are practically the 
same. In 2005, with 10 active judges, the court had 138. Today, 
with only eight active judges, it has 149. This makes the DC 
Circuit caseload levels the lowest in the Nation and less than 
half the national average.
    We have recently confirmed judges to the Eight and Tenth 
Circuits. It has been suggested--in fact, you heard it this 
morning--that these circuits have caseloads lighter than the DC 
Circuit. I think this is simply not accurate. The DC Circuit 
has fewer cases filed and fewer cases terminated than either 
the Eighth Circuit or the Tenth Circuit. Cases filed and cases 
terminated measure the amount of appeals coming into the court 
and being resolved by the court respectively. That is how you 
determine how busy a court is.
    It is quite revealing that the White House is attempting to 
rely on pending cases to try to compare the Eighth and Tenth 
Circuits to the DC Circuit. But what the White House fails to 
mention is that cases pending measure case backlog, not how 
many cases are being added and removed from the docket.
    When looking at how many cases are added per active judge, 
the DC Circuit is the lowest, with 149. It is nowhere near the 
Eighth Circuit, 280, and the Tenth Circuit, 217. When looking 
at the numbers of cases being removed by each court, the DC 
Circuit is once again the lowest at 149. Again, the Eighth 
Circuit and Tenth Circuit are much higher at 269 and 218, 
respectively.
    So by nearly every measure, the facts show that the DC 
caseload is low and getting lower, raising serious doubts as to 
whether we need more than eight active judges, given a 
remarkably light caseload.
    The final point I will make about the workload is this: I 
am aware that the White House has been arguing aggressively 
that Republicans voted for Judge Griffith in 2005 who for a 
short term served as the 11th active judgeship. Therefore, they 
argue that we should now vote to fill the 9th, 10th, and 11th 
seats. However, again, what the White House fails to mention is 
that when we voted for Judge Griffith in 2005, Judge Edwards 
had already announced that he was taking senior status. As a 
result, anyone knew that in effect we were voting for the 10th 
active judge, not the 11th seat. And as I have already 
explained, since that time the numbers have fallen so much that 
the number of cases per active judge is roughly equivalent to 
2005, even though there are two fewer active judges.
    A second major area of concern in addition to the workload 
issue is the quick timeline for consideration of this nominee. 
The President nominated three individuals just 36 days ago. 
Compare this to the history of previous DC Circuit nominations. 
According to my count, since 1980 there have been 29 
individuals nominated to this court, including the three recent 
nominees. The average wait for a hearing for these nominees is 
130 days. President Clinton's nominees, on average, waited 120 
days, slightly below the overall average. For President 
Clinton, the delay more than doubled with the nominees waiting 
an average of 287 days for their first hearing, but Senate 
Democrats insisted on second hearings for three of President 
Bush's nominees. When those are factored in, the nominations 
for hearings average jumps to 445 days.
    Those averages do not tell the story of the worst delays. 
Estrada waited 505 days. John Roberts waited 630 days for his 
first hearing and 721 days for his second hearing. Brent 
Kavanaugh waited 277 days for his first hearing and did not 
complete the Committee hearing process until an astounding 
1,019 days later. In contrast, today's nominees have waited 36 
days. Not only are President Bush's--or President Obama's 
nominees receiving a hearing in a shorter time, but also a much 
faster pace. Today's hearing is the 10th hearing this year 
during which we will consider a total of 28 judicial nominees. 
Compare that favorable treatment of this President during the 
beginning of his second term versus President Bush's first year 
of his second term. At that stage, in President Bush's second 
term, the Committee had held not 10 hearings with 28 judicial 
nominees, but only three hearings for five nominees. All were 
holdovers from the previous Congress. In fact, for the entire 
year of 2005, Senator Democrats only allowed seven hearings for 
18 judicial nominees, and, again, we have already exceeded that 
10 hearings with 28 judiciCal nominees.
    So I am disappointed that today we are moving forward on 
this particular nomination for DC Circuit. We should first have 
held hearings on the workload. We should not have leapfrogged 
over other nominees who have been waiting in Committee so we 
could expedite this process. And we should give more time to 
the Members to review the qualifications and record of the 
nominees.
    Saying all that, I am still happy that we have approved 199 
judges during this Presidency with only two being not confirmed 
by the Senate.
    Thank you.
    Senator Schumer. Thank you, Senator Grassley.
    And now let us turn to the witness. We want to welcome 
Senator Coons for being here. Ms. Millett, if you have an 
opening statement, you may make it, but we certainly want you 
to introduce your family, who I know is here.

STATEMENT OF PATRICIA ANN MILLETT, NOMINEE TO BE CIRCUIT JUDGE 
              FOR THE DISTRICT OF COLUMBIA CIRCUIT

    Ms. Millett. Thank you, Senator Schumer. I know that I am 
someone who communicates for a living, but I have to confess 
that this morning, words seem quite inadequate to convey the 
depth of my gratitude and honor for being here and for this 
opportunity to discuss with you whatever questions you might 
have.
    I am particularly grateful to you, Senator Schumer, Senator 
Grassley, and all the Senators present, for having this hearing 
and for taking the time. I am also very grateful for the 
incredibly gracious introduction by Senators Warner and Kaine.
    I also want to express my gratitude to President Obama for 
the inexpressible honor of this nomination and the opportunity 
to serve as a steward of our very precious judicial system.
    I have, as you may have noted, a lot of family and friends 
here today. I will not list them all. It will not be like an 
Academy Award speech. But I want every one of them to know that 
I am so grateful for the gift of their presence. It is a true 
blessing to me. I will, if you will permit, note that my 
father, Richard Millett, is here. My mother and my sister, 
Joan, could not be here, but are with me in spirit, as is my 
late brother, who joins us from a better place.
    There are a couple of special people, if I could quickly 
just note: the Reverend Dr. Dennis Perry and Major General Carl 
McNair; from my church two very special people, Teresa and 
George Reyes, the godparents to my children and incredible 
sources of support to me and my husband. And I will simply 
quickly note that and confess again that the very best parts of 
my family are the ones sitting behind the table and not at the 
table: my daughter, Elizabeth, who is 12 years old, and my son, 
David King, who is 15; and as Senators Kaine and Warner noted, 
are both headed off next week away from swimming pools to spend 
their summertime helping the less fortunate through service 
projects. And I am incredibly proud of them.
    And, of course, my husband, Robert King, who is simply the 
best husband and father anyone could ever ask for.
    I could fill the hearing time with my pride and affection 
for friends and family, but I will not impose on your time any 
further, and I would be most happy to answer your questions.
    [The biographical information of Ms. Millett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Schumer. Thank you. Could we ask all of those who 
were introduced just to stand so we may greet you and say 
hello? Welcome. Thank you for being here.
    Okay. I will start with the questions. First, Ms. Millett, 
you have represented business interests in your private 
practice at Akin Gump. As a young associate at Miller & 
Chevalier, your clients were primarily business and business 
entities. At the same time, you commented about the Ledbetter 
case, where the Supreme Court ruled in favor of Goodyear Tire 
on equal pay, that the Court does not always get it right.
    Will your business experience color your views as you hear 
cases, particularly on labor and employment issues? What will 
be your approach to cases where business and labor are in 
conflict?
    Ms. Millett. Thank you, Senator. I appreciate the question. 
My approach as a lawyer is, of course, to advocate on behalf of 
clients and to present their story. Every case that I have 
belongs to my clients. I am their voice. It is not my voice.
    If I were to be confirmed as a judge, my role would be to 
be the voice of the rule of law, to be impartial and to 
represent and to adjudicate decisions consistent with text and 
precedent. And I note that while I have certainly represented 
businesses, I have also represented employees like Mr. Staub in 
a case in the Supreme Court involving employment 
discrimination. And during my time in the Solicitor General's 
office, we filed briefs on behalf of individual employees in 
cases in the Supreme Court. So I do think that my experience on 
both sides of those cases is something that has informed the 
balance I would bring as a judge and impartiality as a judge.
    Senator Schumer. Thank you.
    Throughout your career you have appeared on panels, 
speaking to and educating students at law schools across the 
country. Is it part of your professional responsibility to 
teach and mentor?
    Ms. Millett. Absolutely. As I think all lawyers are 
committed to doing that and should be doing that, it is part of 
our professional obligations. I have always felt a particular 
duty to do that as a woman Supreme Court advocate.
    Senator Schumer. Thank you. And in the course of speaking 
and writing about various issues like Citizens United, you have 
formed personal opinions on the law. Is that correct?
    Ms. Millett. Yes.
    Senator Schumer. Is there any reason you could not separate 
your personal views from your role as a judge?
    Ms. Millett. Not only is there no reason, but, in fact, 
with every fiber of my being, I value our justice system and 
the way it works. And it would be a betrayal of the justice 
that every client I have ever represented wants, which is 
simply an impartial, fair hearing by a judge who applies the 
rule of law. That is what they all want, and that is all that I 
would be capable of providing.
    Senator Schumer. What can you say to those on the right or 
on the left who may have questions about your judicial 
philosophy?
    Ms. Millett. I can say that I am not sure I even have a 
judicial philosophy. I have been very busy handling cases one 
case at a time and working the case one case at a time. I think 
were I to be confirmed, I would have certainly a mechanism and 
it would be to study the case hard, decide only what is before 
me through the application of controlling precedent and 
relevant text.
    Senator Schumer. Thank you.
    Now, you have spoken in the past of your Christian faith, 
and in 2004 you told Greenville College, ``To be a Christian 
lawyer, I must always remember that laws are made for the 
benefit of people. People are not made for the benefit of 
laws.''
    In what ways will your religious faith shape how you 
conduct yourself as a judge? And will your religious faith 
dictate how you decide cases, should you be confirmed?
    Ms. Millett. My religious faith is the biggest part of who 
I am, and I am proud of that. And it is something that is 
incredibly important to me. But the--our Constitution is a very 
precious system of justice that it creates, and it creates 
judges to decide cases based not on personal views, not on 
background, not on personal beliefs, but based on the rule of 
law. That is what every client I have ever had wants. That is 
what the system demands. And I would never betray that 
incredibly precious system by injecting personal beliefs into 
decision making.
    Senator Schumer. Thank you. We are going to try to stick 
strictly to the five-minute rule, since we have a second panel 
and we have a vote at noon.
    Senator Grassley.
    Senator Grassley. Thank you very much.
    You have extensive appellate experience, especially with 
the Supreme Court. Certainly during that time you have 
reflected on judges or justices before whom you have appeared. 
I would like to have you describe for us some traits or 
judicial philosophy that you would like to emulate as a judge 
if confirmed. Is there a particular justice that you admire? 
Two questions.
    Ms. Millett. Thank you. There are many justices that I 
admire. As a Virginian, I am, of course, duty bound to note 
first the great Chief Justice John Marshall. But I also want to 
mention Judge Tang for whom I clerked, if you will permit me to 
cite a judge rather than a justice, who taught me--he was the 
very epitome of approaching every case one case at a time, 
working it through and finding the right answer in the law 
itself. And that is what I would hope to emulate.
    I, of course, as a woman, am incredibly grateful to the 
path-breaking work of Justice Sandra Day O'Connor and Justice 
Ruth Bader Ginsburg as well.
    Senator Grassley. You have commented in interviews about 
the different personalities and question-asking styles of the 
Justices on the Supreme Court. What do you envision as an 
appropriate demeanor for a federal judge?
    Ms. Millett. I think the most important thing for a federal 
judge to do at the bench is to engage the lawyers in a 
reasonable and fair manner. I find that when I go to court on 
behalf of clients, those clients want to see the judges engaged 
in a respectful way, not overriding, not overbearing, but 
discussing the important legal issues in the case. That is the 
process that people want to see, and so I would try to strike 
the balance that way.
    Senator Grassley. You have written, ``My strong personal 
views are that the freedom and autonomy of the individual to 
exercise her faith free from unwanted governmental interference 
have helped to make the United States the strong country that 
it is.'' Does that statement still accurately reflect your 
personal views of religious freedom? And if so, how would this 
affect your duties on the bench?
    Ms. Millett. I certainly am a big believer in religious 
freedom, but all of the liberties that are protected by our 
Constitution. We have a Constitution that envisions limited 
government that works for the people; the people do not work 
for it. It belongs to the people. And I think my full 
understanding and appreciation for our limited government, the 
limited role of courts within our limited Federal Government, 
is what I would bring to bear on the bench if I were confirmed.
    Senator Grassley. A recent conflict between religious 
freedom and federal law is mandated by the Affordable Care Act 
that employers provide contraception and abortion coverage as 
part of their employee health insurance plans. For some 
employers, this presents a particularly difficult question of 
whether to abide by the law or go against their conscience.
    If a case were to come before you involving this question, 
how would you take into consideration the First Amendment 
rights of these employers and mandates? And I think maybe I 
better back up because I do not want you to say you cannot 
answer the question because you might have a case before you. I 
am talking very generally between religion and conscience of 
somebody that has to abide by the law. How would you take into 
consideration the First Amendment rights of these employers and 
mandates?
    Ms. Millett. Right. I would certainly--and I appreciate 
that. Without referencing any particular case, in any such 
religious freedom case there are important precedents from the 
U.S. Supreme Court to apply that involve--there are cases like 
the recent Hosanna-Tabor case from the Supreme Court that have 
recognized the role of religious autonomy. There are other 
cases like Smith v. Employment Division which have addressed 
the application of general laws to religious practitioners. So 
I would have to survey--what I would do is survey Supreme Court 
precedent in the First Amendment area and apply it to the 
particular case as it came before me.
    Senator Grassley. This will probably have to be my last 
question. In a 2009 panel at Georgetown University Law School 
Supreme Court Institute, you made the following statement about 
Justice Sotomayor: ``The fact that people say she is an 
activist judge because she did not protect the personal 
individual right to bear arms is really to be laughed away.''
    That statement has raised some concerns about your views on 
the Second Amendment, so this gives you an opportunity to 
explain to the Committee your views in a very general way on 
that Second Amendment.
    Ms. Millett. And thank you for the opportunity to clarify. 
My comment there in particular was with respect to a case 
called Maloney that Justice Sotomayor had been on when it was 
decided in the Second Circuit. And in that case, what I was 
referring to was the fact that the Second Circuit had done what 
judges are supposed to do, and that was apply controlling 
Supreme Court precedent, including the Supreme Court's Footnote 
23 in the Heller decision to say it is not for us on the Second 
Circuit to first say whether the Second Amendment is an 
individual right incorporated into the 14th Amendment. Of 
course, the Supreme Court answered that question shortly 
thereafter in the McDonald case. So all Justice Sotomayor did 
in that case was what judges should do, and that is wait for 
the Supreme Court to overturn its own precedent. But I note 
that in the Stevens case, I had the support of the National 
Rifle Association. I talked in my briefing very much about the 
importance of the individual right there to engage in hunting 
and expression while hunting, the combination.
    Senator Grassley. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Schumer. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Ms. Millett, thank you for being here. You have argued more 
cases before the Supreme Court than any other woman. Is that 
correct?
    Ms. Millett. Actually someone passed me at the end of 
April.
    Senator Franken. I am wrong, then.
    [Laughter.]
    Senator Franken. Okay. Thanks.
    [Laughter.]
    Senator Franken. My advice is really do not say I am wrong 
again.
    [Laughter.]
    Ms. Millett. I am under oath, though.
    [Laughter.]
    Senator Franken. Okay. I will try to be careful then.
    [Laughter.]
    Senator Franken. Let me ask a question where you cannot 
possibly contradict me.
    [Laughter.]
    Senator Franken. Since you have argued before the Supreme 
Court more than any other woman but one, how will that inform 
you about being on the other side of it in terms of how you 
conduct the question-and-answer sessions? And what have you 
learned from that?
    Ms. Millett. Thank you. I have learned a lot. It has been a 
great privilege to litigate cases in the U.S. Supreme Court, 
and I am grateful that clients have trusted me with those very 
important matters that they have.
    You know, what I have learned is that--I know a lot of 
people talk about how active the Supreme Court is in 
questioning, but as a lawyer speaking on behalf of clients, we 
really value that opportunity to engage with them and wrestle 
with the difficulties in the law. Now, there is a balance 
between questioning and getting too active. I think the Chief 
Justice recently commented on that to make sure--we want to 
make sure the lawyers can get their story in because it is 
their client's day in court. So you have to find a balance 
between engaging the lawyers so that you can learn from each 
other about the proper legal answers, but understanding the 
duty to give everyone their full and fair day in court.
    Senator Franken. And when you are doing that, are you as an 
advocate before the Court under a time limit? I mean, there is 
a given amount of time, right?
    Ms. Millett. There is, absolutely.
    Senator Franken. So is there a tension between trying to 
get a word in and strategically just waiting until the Justices 
in that case have just talked themselves out so you can take a 
moment and talk? Is there a strategic way to do that?
    Ms. Millett. There is absolutely--there are strategic ways. 
I do not want to give them all away right here, but I will tell 
you that it is--I cannot wait normally for them to stop 
talking, so you have to find ways to respectfully engage them 
in the dialogue.
    Senator Franken. Okay. There was a question about an 
activist judge and Justice Sotomayor in her confirmation 
hearings being activist because she had ruled that way on the 
Second Amendment. But would it not have been more activist 
actually to rule the other way?
    Ms. Millett. Well, I think that is an important observation 
that you are making, because the point I was trying to explain 
was that all the Second Circuit did in that case was say--a 
case where they were asking to hold that the Second Amendment 
individual right was incorporated into the 14th Amendment as 
against the States. The Supreme Court, as they said in Heller 
Footnote 23, you know, they said--they cited their own 
precedent and said, ``We have held that it applies only against 
the Federal Government.'' So the Second Circuit was duty bound 
to apply that as well as a recent Second Circuit decision. One 
panel is bound by another panel in a court of appeals.
    So that panel really had its hands tied, so it left the 
decision where it needed to be and where the Supreme Court 
ultimately resolved it in the McDonald case, and that was for 
the Court to overrule its own precedent.
    Senator Franken. So as a circuit court judge, it is really 
activist when what you are doing is overturning stare decisis; 
in other words, when you are--when the Supreme Court has 
decided something and you contradict that decision, isn't that 
what being activist is in a sense?
    Ms. Millett. It is certainly--you know, judges on lower 
federal courts are bound by Supreme Court precedent. When you 
have on-point Supreme Court holdings, particularly as recent as 
Heller Footnote 23, and you have a panel--panels are bound by 
other panels unless the Court goes en banc. So both of those 
are meant to be restraints on the judges.
    Senator Franken. My time is up, but I would point out that 
is why saying that, to call what then-Judge Sotomayor did 
``activist'' is actually almost the opposite of what she, in 
fact, did.
    Ms. Millett. I would agree.
    Senator Franken. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Schumer. Thank you, Senator Franken.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. And thank you for 
joining us today and for bringing your nice family with you. I 
look forward to asking Ms. Millett a few questions, but before 
I do so, I want to address an issue that Senator Grassley 
mentioned briefly a few minutes ago, and that is this 
administration's push to fill three additional spots on the DC 
Circuit at a time when, based on a standard set several years 
ago by Senator Democrats, there was no need, no pressing need 
certainly, to fill those vacancies.
    On July 27, 2006, a number of my Democratic colleagues, 
including several current Members of this Committee, signed a 
letter arguing that an additional nominee to the DC Circuit 
``should under no circumstances be considered must less 
confirmed by this Committee before we first address the very 
need for that judgeship.'' The letter argued that the DC 
Circuit's caseload simply did not justify filling an additional 
judgeship for that court.
    Based on that objection and despite Peter Keisler's stellar 
record and the fact that he had really broad-based bipartisan 
support throughout the legal profession, Democrats in the 
Senate blocked his nomination to the DC Circuit. And today I 
believe we find ourselves in much the same situation that we 
found ourselves in 2006.
    Ms. Millett has an impressive record. There is no question 
about that. But before we consider, much less confirm, her 
nomination, we must look carefully at the need for an 
additional judgeship on the DC Circuit. And I believe any 
objective evidence-based look at the court, at that court, 
makes plain that it simply does not need an additional judge at 
this time.
    No one who is familiar with the DC Circuit's current 
workload can honestly say that the court is overworked or in 
need of an additional judge. While other federal circuit courts 
struggle to keep up with rising caseloads, in each of the last 
several years the DC Circuit has canceled regularly scheduled 
argument dates due to lack of pending cases. Especially at a 
time when other circuit court vacancies need to be filled, and 
the administration has failed to put forward judicial nominees 
for seats that are considered judicial emergencies, it raises 
questions for the administration to focus so heavily on a court 
that does not need additional judges.
    The administration appears to be pushing to confirm 
additional unneeded judges to this court because of that 
court's important role reviewing executive actions. The DC 
Circuit has primary responsibility to review administrative 
actions taken by many federal departments and agencies. The 
court's decisions, including its recent invalidation of the 
President's unconstitutional recess appointments, often have 
significant political implications. With this administration's 
controversial executive agenda, including recently announced 
plans to effect climate change through Executive actions, the 
President appears to have targeted the DC Circuit in the hope 
that he can stack the DC to his advantage.
    Both Democrats and Republicans have repeatedly stated that 
the DC Circuit has too many authorized judgeships. I believe 
the best approach is to reallocate the DC Circuit's unneeded 
judgeships to other federal appellate courts whose caseloads 
are many times higher. Senate bill 699, the Court Efficiency 
Act, of which I am a cosponsor, would do exactly that.
    So setting aside that for a moment, I want to turn briefly 
to your judicial philosophy. You said a minute ago that you do 
not have a judicial philosophy. That sometimes worries me. That 
usually would have been a concern to me because I think no one 
should come to a judgeship, especially one of this importance, 
without a judicial philosophy. But fortunately you follow that 
up with something that suggested that you have one, and one 
that seems me to be a good one.
    You embellish, first of all, that one of your role models 
as a jurist would be Judge Tang in the Ninth Circuit for whom 
you clerked, and you said that he starts from the assumption 
that there is a right answer in the law, that you can find the 
answer based on the text. So do you stand by that? Is that 
something that would inform your decision making as a jurist if 
you were to be confirmed to this position?
    Ms. Millett. Certainly I would--and thank you for the 
question to allow me to elaborate on that. The text and 
precedent in any given case, because sometimes the text is 
ambiguous and you need to look at precedent, or sometimes 
precedent is given new light to the meaning of the text. But 
the two of those together, that is what I would call myself 
most loyally. I would be a loyalist to text and precedent, I 
think is the best I can do. I am not sure if that counts as a 
philosophy or just a way of doing business, but it is what 
Judge Tang taught me.
    Senator Lee. Fantastic. When you were initially asked about 
judicial role models, you brought up Chief Justice John 
Marshall, and I think if we had a nickel for every time we hear 
that one as the first choice, we would all be wealthy. So that 
is why it was good that you added to that by adding the judge 
for whom you clerked.
    You also mentioned that as a woman you particularly admire 
Justice Sandra Day O'Connor and Justice Ruth Bader Ginsburg. 
And yet those two do not necessarily have the same judicial 
philosophy. Why did you select those two?
    Ms. Millett. Well, I picked them in part because I just 
have great admiration. As someone who was in law school at the 
time Justice Sandra Day O'Connor--a young lawyer at the time--
was nominated as the first woman on the Supreme Court, it was 
an important affirmation to me of the message that you can do 
what you want to do as a lawyer and that this country's--you 
know, the promises of the Constitution are very real and very 
concrete. So she and Justice Ginsburg, with all her work 
helping to establish equal rights for women, are simply people 
who are very important in a very sort of ``rubber meets the 
road'' way for me in my legal career.
    Senator Lee. Thank you, Mr. Chairman. I see my time has 
expired.
    Senator Schumer. Senator Coons.
    Senator Coons. Thank you, Chairman Schumer. Thank you, Ms. 
Millett. Congratulations on your nomination, and welcome to you 
and your family and supporters and friends.
    In April, I had the distinct privilege of chairing the 
confirmation hearing for Sri Srinivasan, who is now, of course, 
a confirmed judge serving on the DC Circuit. And at the time, I 
noted that it would be hard to imagine a candidate who was 
better equipped with a breadth and depth of legal experience as 
a law clerk, as a government attorney, as a private advocate. 
And in reviewing your record, it is apparent we did not have to 
imagine you. Here you are. Your experience and your 
qualifications make you an exceptional candidate, and I want to 
thank you and your family for your willingness to serve.
    In my view, your record of advocacy is marked by 
excellence, not partisanship, and I think it is evident in the 
bipartisan letter of support the Committee received on your 
behalf signed by many former Solicitors General, including 
Garre, Olson, Clement, and Starr. And I sincerely hope that 
this Committee and the Senate will treat your nomination with 
due respect and in regular order, just as it did when 
confirming judges to the vacancies in the 9th, 10th, and 11th 
seats to the DC Circuit in the prior administration.
    But let me focus on you. If confirmed, you would be the 
fourth active female judge in the DC Circuit, bringing the 
circuit court to near parity, making it the circuit court with 
the second highest proportion of women judges. You have spoken 
about diversity on the bench. You just answered a question from 
Senator Lee about it.
    Would you tell us why you think gender diversity, as well 
as diversity in terms of race or other forms of background, is 
vital for the judiciary, given your opening comment that you 
have been the voice of your clients and, if seated on the 
bench, you would be the voice of the rule of law without regard 
to background or personal experience or faith or other critical 
features?
    Ms. Millett. The importance of diversity runs two ways, in 
my view. It runs into the court because the most important 
trait for any judge, in my view, is to be open-minded and 
impartial and have a full appreciation not just of what you 
know but what you do not know. And I think that diversity in 
all forms--I noted Justice Sotomayor when she was nominated had 
patent experience. I may have been the only person who focused 
on that aspect of diversity. But diversity in all forms simply 
increases open-mindedness amongst people. And then diversity 
work outwards. In the same way that Justice O'Connor's 
nomination did for me, it is an open symbol to everyone in the 
country that opportunities here are based on merit and hard 
work, not race, gender, ethnicity, religion, or any of those 
lines.
    Senator Coons. I was struck in reviewing your very 
extensive resume of Supreme Court cases that you have actually 
lost your fair share of cases in which you have appeared. How 
important is it to be right? And if you are outvoted on a 
three-judge panel, do you conclude your legal analysis was 
wrong?
    Ms. Millett. Well, thank you for the reminder.
    [Laughter.]
    Senator Coons. I was just sticking up for Senator Franken.
    [Laughter.]
    Ms. Millett. I always do my best.
    I think the role of a lawyer, of course, is to put on the 
best argument you can for a client, but I respect the role of 
the judges or justices in the system. They make the call. I 
make the case; they make the call. If I were to be confirmed as 
a judge, I would know that I am now a call maker, and that is 
an incredibly weighty and serious responsibility. And I would 
exercise it--I am an open-minded person, and I would listen 
closely to colleagues. But if, at the end of the day, law and 
precedent told me the answer was different from colleagues, 
even if they were more senior, that is what I would be duty 
bound to enforce. And I suspect if you ask some of these people 
in the audience, they will tell you that I am capable of 
sticking to my positions when I need to.
    Senator Coons. Parenting and judicial decisions often 
have----
    [Laughter.]
    Senator Coons. Let me if I might, with the indulgence of 
the Chair, ask one last question about a particular case that 
was of interest to me. In 2008, you represented victims of 
torture at the hands of the Somali Government in Samantar v. 
Yousuf. In that case, you argued--and I believe you convinced 
all nine Justices--that the grant of immunity in the Foreign 
Sovereign Immunities Act pertains really to foreign governments 
and their instrumentalities, not to individual officials who 
might be sued in their individual capacity. You talked about 
how you would handle reversal. There has been, in my view, some 
movement in the law on this. Since your representation in 
Samantar, the Supreme Court has decided several cases that are 
sharply limited to liability of foreign citizens in U.S. courts 
for egregious violations. In Mohamad v. Palestinian Authority, 
the Supreme Court held that Torture Victims Protection Act 
applied only to individuals and not to corporations. In Kiobel 
v. Royal Dutch Petroleum, the Supreme Court ruled that the 
Alien Tort Statute, which was enacted all the way back in 1789 
and had been used for more than 30 years to reach foreign 
perpetrators of torts in violation of the Law of Nations, could 
not be used except in rare cases with a close nexus to the 
United States.
    Given your representation in Samantar, do Mohamad and 
Kiobel represent marked departures from settled law? What do 
you believe is motivating this new approach to the 
interpretation of human rights law? And what is your view about 
its potential trajectory, if that is appropriate?
    Ms. Millett. Well, I would not want to express a view on 
trajectory because those are precisely the types of questions 
that could come before me, were I to be confirmed to the court. 
The questions in Kiobel were different than the ones that I was 
raising in the Samantar v. Yousuf case. So each of them were 
decided as matters of statutory construction.
    The Kiobel case is part of a body of law where the Supreme 
Court has become very interested in examining 
extraterritoriality limitations on statutes, and obviously, 
were I to be confirmed, I would adhere to all Supreme Court 
precedent and also, you know, follow the text of statutes, 
whether existing ones or, if the Congress were to respond to 
decisions, the new text enacted by Congress. Whichever text is 
before me, that is what I would apply.
    Senator Coons. Thank you. I see my time is up. Thank you.
    Senator Schumer. Senator Cruz, if you have questions.
    Senator Cruz. Thank you, Mr. Chairman.
    Ms. Millett, thank you for being here. Thank you for your 
able testimony. You and I have known each other a long time, 
and you are a talented and skilled appellate advocate. You are 
someone who has earned high respect in the Supreme Court bar, 
which is a community where earning respect there means 
something. And so I congratulate you on your nomination and 
your able testimony this morning.
    I will also note that you find yourself in the midst of a 
broader battle and a battle on issues many of which are 
unconnected to your professional background and qualifications, 
but issues that, sadly, have consumed the DC Circuit for 
decades.
    There are a lot of political games when it comes to 
judicial nominations. Both sides have decried the political 
games concerning judicial nominations but, unfortunately, the 
DC Circuit, second only to the U.S. Supreme Court, has been a 
battleground on both sides for the politicization of judicial 
nominations. And a number of excellent nominees have been named 
to the DC Circuit previously by Republican Presidents. And our 
friends on the Democratic side of the aisle have chosen to 
prevent their nominations from going forward and to prevent 
them for what I believe were partisan reasons.
    Peter Keisler, who has been discussed already in this 
hearing, who is a talented and able lawyer, and yet our friends 
on the Democratic side of the aisle did not allow that 
nomination to proceed.
    Miguel Estrada, someone whom you and I both know well, is 
another superbly talented appellate lawyer, someone whose 
nomination was made at the beginning of the Bush 
administration, and the Democrats in the Senate repeatedly 
acted to stop his nomination from proceeding. Most tellingly, a 
senior Democrat then on this Committee in writing, in memos 
that became public, stated that Miguel Estrada's confirmation 
must be prevented ``because he is Hispanic,'' which in my view 
was troubling, was cynical, was nakedly partisan, because 
Miguel was viewed, I think with good reason, as having a 
significant prospect of being the first Hispanic Supreme Court 
nominee, and so Senate Democrats wanted to make sure Miguel did 
not get anywhere near the DC Circuit so that he would not be 
allowed to build a judicial record that could serve as a 
predicate to going to the Supreme Court.
    Now, right now the DC Circuit is evenly divided among 
active judges with four Republicans and four Democrats. And you 
find yourself one of three nominees from the President. The 
President and senior Democrats on this Committee have made 
clear that they want to pick a fight on the DC Circuit. They 
want to pick a fight on the DC Circuit, and, unfortunately, I 
believe part of this pressure, part of the effort of stopping 
qualified Republican nominees and then deciding to pick a fight 
now is a desire to pack the Court.
    The DC Circuit has been a court that has been holding this 
administration accountable and, in particular, holding 
rulemaking accountable that has been contrary to federal law. 
And I believe there is an activist base that is pressuring the 
President, that is pressuring senior Senate Democrats, to get 
judicial nominees on the DC Circuit to protect the regulations 
coming from this administration. And I think any effort to pack 
the Court because the administration does not like the outcomes 
of judges applying the law fairly should be decried.
    And so there are workload issues that I think need to be 
discussed, but I think there is a broader context that is 
irrespective of your fine qualifications, but to be honest, was 
irrespective of Miguel Estrada's qualifications or Peter 
Keisler's.
    And so I think this is going to be a continued issue of 
discussion and significant agreement on the Senate, because I 
think partisan politics has driven this Committee's approach to 
the DC Circuit for over a decade. I think that is unfortunate. 
I would far rather see a situation where able judges were 
confirmed irrespective of that. But it is not consistent with 
our responsibility to allow one party to prevent qualified 
judges from going to the court and at the same time to enable 
packing the court to reach preferred outcomes.
    So I thank you for being here, and I think it is 
regrettable the overall context of this dispute, which, as I 
said, is irrespective of your very fine professional 
qualifications. Thank you.
    Senator Schumer. Thank you, Senator Cruz.
    Thank you, Ms. Millett. We very much appreciate your being 
here and answering questions, and we are now ready to move on 
to the next panel.
    Ms. Millett. Thank you all.
    Senator Schumer. Will Ms. Brown, Ms. Wolford, and Mr. Woods 
have their seats? I am going to make my introDCion. I am here 
in my role as New York Senator, not so much as chairing this 
hearing, to introduce our two fine nominees from New York, and 
let me begin by doing that.
    Can we have a little order in the room? Let us close the 
door, please.
    [Pause.]
    Senator Schumer. Okay. I think we are ready to start. Can 
we close that door back there, please? Thank you. Great.

SCHUMER, HON. CHARLES E., A U.S. SENATOR FROM THE STATE OF NEW 
 YORK, PRESENTING GREGORY HOWARD WOODS, NOMINEE TO BE DISTRICT 
 JUDGE FOR THE SOUTHERN DISTRICT OF NEW YORK AND ELIZABETH A. 
WOLFORD, NOMINEE TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT 
                          OF NEW YORK

    It is my distinct honor to introduce two eminently 
qualified nominees to the Committee, both from New York: Greg 
Woods and Elizabeth Wolford.
    Mr. Woods and Ms. Wolford are the 17th and 18th nominees 
for district court judgeships in the State of New York that I 
have had the pleasure of recommending to the President in the 
last four years. Despite New York's deep bench of legal talent, 
the search for qualified candidates for federal judgeships is 
not an easy one. As I have said multiple times, I look not just 
for exceptional talent and skill, but for moderation of 
viewpoint and temperament and, all else being equal, for 
diversity so that our bench in New York truly resembles the 
people it serves.
    Throughout their careers, Mr. Woods and Ms. Wolford have 
not only displayed tremendous legal talent but committed 
themselves to helping their respective communities. And as my 
colleagues will see, Mr. Woods and Ms. Wolford represent the 
best of the legal profession and are well equipped to serve on 
the district courts for the Southern and Western Districts of 
New York.
    Although Mr. Woods is a nominee for the Southern District 
of New York, Senator Coons will take pleasure in knowing that 
he originally hails from Delaware, and I saw Senator Coons 
greet you personally, Mr. Woods.
    After graduating magna cum laude from Williams College, he 
attended Yale Law School where he distinguished himself as its 
top writer and oralist. Yet his passion for public service led 
him to take his first job out of law school at the Department 
of Justice, where he worked as a trial attorney in the 
Commercial Litigation Branch of the Civil Division. In this 
capacity, Mr. Woods focused on fighting fraud and maintaining 
the integrity of our public programs and private institutions.
    Despite his relative youth--at least relative to most of us 
here today on this panel--Mr. Woods' work in the private sector 
is similarly impressive. As an associate and partner at the top 
new law firm of Debevoise & Plimpton for over a decade, Mr. 
Woods participated in some of the largest, most complex 
financing deals and acquisitions. Still, despite his active 
practice, he found time to give back to New York and the 
Nation, serving on Debevoise's pro bono committee and on the 
boards of various community organizations.
    To name a few accomplishments, he helped nonprofits 
navigate tax policy, assisted small businesses obtaining 
financing so they could grow and create jobs, and secured 
asylum for an African dissident facing torture at home.
    Mr. Woods has since returned to Washington, and he 
currently serves as General Counsel at the Department of 
Energy, overseeing its vast legal portfolio. And prior to this, 
he was Deputy General Counsel at the Department of 
Transportation, where he similarly honed his experience in 
regulation and litigation.
    By any and all accounts, Mr. Woods is a brilliant legal 
mind who exemplifies the spirit of public service we seek in 
our district courts.
    Now, second, I have the privilege of introducing another 
dedicated and skilled attorney, Elizabeth Wolford, before this 
Committee today. Born in the great city of Buffalo, she moved 
east and grew up in Rochester and attended Colgate University, 
a little further east on the Erie Canal. After studying law at 
Notre Dame, she again returned to New York, following in her 
father's footsteps to practice law in Rochester.
    Ms. Wolford has been a remarkable leader in the Rochester 
legal community ever since she graduated law school, working as 
an associate and partner at the Wolford law firm with her 
family. Her clients include some of Rochester's most 
recognizable institutions, including the University of 
Rochester, Rochester Institute of Technology, Excellus, and 
Eastman Kodak. Her practice spans every area of law from 
criminal proceedings to contract actions, providing her with 
the expansive expertise that is essential as a judge.
    Ms. Wolford has been a tireless advocate for her clients as 
well as for the Rochester community. In addition to serving on 
countless charitable boards, she has a noteworthy history of 
pro bono representation. The court on which she may soon sit 
even awarded her its Special Service Award in recognition of 
her advocacy in civil rights matters. And I am very proud to 
say that, upon confirmation, Ms. Wolford would be the first 
female judge on the U.S. District Court for the Western 
District of New York. I have always believed in diversity on 
the bench. It is important that America's courts reflect the 
diversity of us as a people, and the Western District is long 
overdue in this respect.
    Ms. Wolford has been a powerful and principled community 
leader for over two decades, and I feel confident she will 
excel in her new role.
    I want to thank both of you for your willingness to be here 
today, thank your families--without whom I know you would not 
be here--and I look forward to hearing from our nominees. Of 
course, Ms. Brown, you had two very fine introducers earlier 
today, so I need say no more. They did a great job.
    So will the witnesses please stand to be sworn? And please 
state your names.
    Mr. Woods. Gregory Woods.
    Ms. Wolford. Elizabeth Wolford.
    Ms. Brown. Debra Brown.
    Senator Schumer. Do you affirm that the testimony you are 
about to give before the Committee will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Mr. Woods. I do.
    Ms. Wolford. I do.
    Ms. Brown. I do.
    Senator Schumer. Thank you. You may be seated.
    Now, we will call on each of you for a brief opening 
statement, if you wish, and certainly the introduction of your 
beautiful families who will be seated--``arrayed'' behind us is 
the right word. First, Mr. Woods.

STATEMENT OF GREGORY HOWARD WOODS, NOMINEE TO BE DISTRICT JUDGE 
             FOR THE SOUTHERN DISTRICT OF NEW YORK

    Mr. Woods. Thank you very much, Senator. First, I would 
like to thank Chairman Leahy, Ranking Member Grassley, and you, 
Senator, both for your recommendation and for chairing this 
hearing, and the other Senators on the Committee for 
considering my nomination.
    I do have a number of family members here: my wife, Mary; 
my two children, Ainsley Mae and James, who are fifth and third 
graders--or sixth and fourth graders, excuse me, in New York 
City schools. They are down here from camp.
    My father, Gregory Woods; my mother, Kathy Woods.
    I have a number of friends here with me, too, from around 
the world. Two I just want to mention by name: my DC roommate, 
Lieutenant Commander Moet, who is here, and my fantastic 
assistant, Kathy Dickerson, both of whom see me more or as much 
as all the members of my family.
    Senator Schumer. Great. Will you all please rise so we can 
greet you personally? Thank you so much for coming.
    [The biographical information of Mr. Woods follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Senator Schumer. Ms. Wolford.

STATEMENT OF ELIZABETH A. WOLFORD, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF NEW YORK

    Ms. Wolford. Thank you, Senator. Thank you, Senator 
Schumer, for recommending me for this position. I want to thank 
the President for the nomination. It really is quite an honor.
    I want to thank the Committee Ranking Member Grassley for 
participating in scheduling this hearing here today.
    I do have some family members that I would like to 
acknowledge who have made the trip here.
    My mother and father, Mike and Bea Wolford. I practice law 
with my dad and have done that for over 20 years now.
    My brother, Jim Wolford, is here. He is also one of my law 
partners, and he is here with two of his children, my niece and 
nephew, Christine and Thomas Wolford.
    My brother, John, is also here. He did not go into the 
practice of law. He served in the Air Force, actually, as a 
pilot for 14 years and retired at the rank of major after 
serving in Iraq and Afghanistan. And he is here with his two 
children, my niece and nephew, Madigan and Michael.
    So thank you.
    Senator Schumer. Thank you. If you all would please rise so 
we can greet you? Thank you all for coming, and it is great to 
see all the kids here so proud of their parents. It is a 
wonderful thing.
    [The biographical information of Ms. Wolford follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
    
    Senator Schumer. Ms. Brown.

 STATEMENT OF DEBRA M. BROWN, NOMINEE TO BE DISTRICT JUDGE FOR 
              THE NORTHERN DISTRICT OF MISSISSIPPI

    Ms. Brown. Thank you, Senator, for providing the 
opportunity for me to recognize those persons that have 
supported me throughout this process and without whom I would 
not be sitting here today.
    I would like to first thank President Barack Obama for the 
nomination. It is a high honor, and I am very humbled by it.
    Thank you, Chairman, and thank you to the Ranking Member 
and all the Members of the Senate Judiciary Committee for the 
opportunity for this hearing, and thank you, Senator Schumer, 
for presiding.
    I want to extend special gratitude to my home State 
Senators for their very kind words and their presence here 
today among their very busy schedules.
    I would like to recognize my family members. First, 
starting with my very, very, very proud parents, Ruthie Brown 
and Willie James Brown, who traveled here from Yazoo City, 
Mississippi. Three of my five sisters are here: my sister, 
Pamala Feehan, who traveled from Fort Myers, Florida; my 
sister, Ingrid Brown, who traveled here from Memphis, 
Tennessee; my sister, Celeste Larkins, who is here from Frisco, 
Texas; and my niece, Tylar, who is Celeste's daughter, is here 
also from Frisco, Texas. And I must say that I believe her 
excitement and enthusiasm for this occasion is very close to 
surpassing mine.
    [Laughter.]
    Ms. Brown. At the point right after she found out about my 
nomination, I think it was about every 15 minutes at least she 
told me how awesome this occasion was, my nomination, and I 
definitely agree with her.
    I also have here a cousin, Tamara Brown, who lives here in 
the DC area.
    Finally, I would like to thank my law firm family, Wise, 
Carter, Child & Caraway. They have been a great support. They 
have been patient with me throughout this process, and I very 
much appreciate their dedication to me and allowing me to 
pursue this goal.
    Thank you, Senator.
    Senator Schumer. Thank you. Will your nice family and 
friends and supporters please stand? Welcome. Great to see you, 
and I see your niece smiling from one ear to the other.
    [Laughter.]
    Senator Schumer. Please be seated.
    [The biographical information of Ms. Brown follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    
    Senator Schumer. Okay. Well, I am going to ask general 
questions for all of our nominees here, so I will ask you the 
question and then we will move from my--well, from Mr. Woods to 
Ms. Wolford to Ms. Brown.
    First, tell us a little bit about why you want to be a 
judge and how you believe your experiences up to this point 
will help you do the job. Mr. Woods.
    Mr. Woods. Thank you, Senator Schumer.
    I think as an attorney there is--I believe highly in the 
importance of public service. As a lawyer, I think that there 
is nothing more important that we can do as practicing lawyers 
to serve the public than to act as judges.
    My personal experience, I think I have acquired the skills 
necessary to do the job. In my case, I also had a broad range 
of experiences with different areas of law and practice. And I 
think that is beneficial to the bench, hopefully particularly 
so in New York City, which is such a commercial capital of the 
United States. My experience as a commercial and financial 
lawyer hopefully will help contribute to my work on the bench, 
if I am confirmed.
    Senator Schumer. Thank you.
    Ms. Wolford.
    Ms. Wolford. Thank you, Senator. I obviously worked for the 
same legal employer for over 20 years, so there were not a lot 
of positions that I would have ever considered leaving for. But 
the district court judgeship, I think, is one of the most 
interesting, challenging positions that one could hold in the 
legal profession, and it also provides a great opportunity for 
public service. I have been interested in public service my 
whole career, but this would allow me an opportunity to really 
give back to the community and to the public in a way that I 
have not yet been able to.
    Senator Schumer. Great.
    Ms. Brown.
    Ms. Brown. I believe serving as a federal judge is one of 
the highest honors that I can imagine. The federal courts are 
important to citizens every day of their life. It touches them 
in small and large ways. And the courts, more than anything, 
belong to the citizens. And for me to be a public servant and 
be a part of that scheme is just incredible in my mind.
    I think I prepared myself, given my 16 years of litigation 
experience. More than anything, it has taught me work ethic. It 
has taught me to be organized. It has taught me to be 
respectful of everyone that I come in contact with, from 
opposing counsel to, of course, the court, the witnesses, the 
jury, everyone involved in that process.
    It also has taught me to be a good organizer and to manage 
things very carefully. It has taught me patience and how to 
listen very well. And for all those reasons, I think that I 
have the qualities to be on the federal bench.
    Senator Schumer. Thank you. And now we will start with Ms. 
Brown and move the other way, just to mix it up a little.
    To each of you, what do you believe are the most important 
characteristics for a judge to have? Ms. Brown.
    Ms. Brown. I believe one of the most important 
characteristics is for a judge to respect his or her position. 
From that, I believe flows all of the other attributes that I 
admire in judges: patience, courteousness, definitely adherence 
to the rule of law and adherence to judicial precedents. I 
believe judges also should be modest in a sense and carry 
themselves well both in the court and outside the court, that 
they should have unyielding integrity and courage for those 
occasions when maybe their decisions are not popular or when 
they feel pressures from various groups or parties to rule in a 
manner that may be contrary to the law.
    For all of those traits, I believe that those are things 
that make a very successful judge, make a judge be more 
respected and help citizens respect the courts and the 
decisions that they have to make.
    Senator Schumer. Thank you.
    Ms. Wolford.
    Ms. Wolford. Thank you, Senator. Ms. Brown offered a very 
good summary of the qualifications that are necessary for a 
judge to hold. I agree that respect is one of the most critical 
aspects, respect for the law, respect for the parties, and 
respect for the position. And, in addition, I think open-
mindedness and patience are critical to be an effective judge.
    Senator Schumer. And Mr. Woods.
    Mr. Woods. Thank you. I agree wholeheartedly with my 
colleagues. I would say fidelity to the rule of law, 
intellectual curiosity, hard work, dedication to do the work 
necessary to get the right answer, and modesty, and I would say 
humility, to be open-minded and to treat the parties that 
appear before you with dignity and respect.
    Senator Schumer. Thank you.
    Senator Grassley. My time has expired.
    Senator Grassley. I will probably submit some questions for 
answer in writing.
    Senator Schumer. Without objection.
    Senator Grassley. Thank you, but I do want to ask some now.
    Senator Schumer. Go right ahead.
    Senator Grassley. Since you served as General Counsel at 
the Department of Energy, and this is not going over decisions 
you made there that I am finding fault with, it is just that 
you--when you had your confirmation hearing, or as General 
Counsel your job was to ensure the Department complies with the 
obligations under the law. And how would you grade yourself on 
that performance? And then before you answer that question, let 
me ask you the second and last question. At that confirmation 
hearing, you agreed to a full review of all the Department of 
Energy current authorizations and to help identify if there are 
any areas duplicative or perhaps unnecessary. Did you keep that 
commitment? But then in regard to your possible judgeship, 
would you explain how that experience would affect your 
decision making as a judge?
    Mr. Woods. Great. Thank you very much, Senator. As a judge, 
Senator, I think I would approach every issue that came before 
me on the facts of the case in front of me, and I would look to 
applicable precedent to reach the hopefully correct decision in 
that case or controversy.
    Senator, my job as General Counsel at the Department of 
Energy requires me to be an advocate on behalf of my client, 
and I completely recognize that the role of a judge is 
different from that of an advocate. And as a judge, I would 
ensure that I followed the process that I just described.
    Senator Grassley. Do you think that you did what you 
promised the Committee you would do, that you were able to 
review those areas where there was duplication and do something 
about things that were unnecessary?
    Mr. Woods. Thank you, Senator. I believe that Senator 
Murkowski asked me if I would work with her on any efforts that 
she wanted to undertake, and, Senator, I believe that many of 
the requests that Senator Murkowski has asked of us I have 
accommodated.
    Senator Grassley. Okay. Ms. Wolford, one of the questions I 
ought to ask you, since you are leaving a law firm now, what 
recusal policies would you implement in regard to your firm?
    Ms. Wolford. Thank you for that question, Senator. I would 
recuse myself from any matter that the Wolford law firm was 
handling or in which it was a party. Both my father and brother 
are with the firm and will continue to be with the firm, and it 
would be inappropriate for me to handle any matter in which the 
firm was appearing.
    Senator Grassley. I think your questionnaire said that only 
five percent of your litigation experience has been involved 
with criminal matters. So you are going to have to obviously do 
both civil and criminal as a judge. What experience do you have 
with criminal law? And probably more importantly, what steps 
have you taken or will you take to familiarize yourself with 
the area of criminal law?
    Ms. Wolford. Thank you for that question, Senator. I have 
had some exposure to criminal law as part of my practice, but 
there is no question that it is five percent, as I indicated in 
the questionnaire, and I absolutely have to get up to speed in 
that area of the law.
    First of all, I will read anything I can to come up to 
speed, including materials that I have already received from 
the Federal Judicial Center. And there is one thing I have 
learned, Senator, in my over 20 years of practice, is that 
there is absolutely no substitute for hard work. And that 
certainly will not change if I am fortunate enough to be 
confirmed.
    Senator Grassley. I will go to Ms. Brown. I want to give 
you a chance to respond to something you wrote when you were in 
law school, how it applies today. You wrote from the 
Mississippi Law Journal, and I think it was arguing that 
conservatives do not actually want a colorblind electoral 
system that they say they want because that would mean the 
system will be ``infiltrated by members of various races who 
are comparably capable of performing the tasks of government.''
    You can explain that any way you want to, but I would have 
this specific question: Do you still feel that, as you put in 
that article, ``in order to treat some people equally, we must 
treat them differently'' ? Do you still feel that way?
    Ms. Brown. Thank you for that question, Senator. As you 
pointed out, I did write that article many years ago while I 
was in law school. It was the backdrop for a hypothetical 
electoral scheme that I wanted to explore, more as a 
theoretical piece.
    The quote that you mention, I believe, is part of the 
backdrop leading up to my proposed hypothetical model. I 
believe that the quote that you mentioned is something that--
and, you know, I gathered together lots of commentary and 
theorists on the issue and basically cited to them as part of 
the backdrop.
    I do believe, although I do believe my personal beliefs 
would not influence any decision I had on the bench, that we as 
a society should take a very thoughtful look at race and any 
type of diversity issues here in the Nation, and that it would 
bode us all well to do that.
    I believe the article also concluded as well that not only 
conservatives would like this model that I propose, but neither 
would liberals, because I think somewhere we need to meet in 
the middle in that regard.
    Senator Grassley. Again, as I asked Ms. Wolford about your 
having such great work in civil matters, do you have experience 
in criminal law? And then, last, if you have not had that 
experience, how would you familiarize yourself with that in 
your work if you are confirmed?
    Ms. Brown. My litigation practice has been 100 percent 
civil. I have not had any criminal experience at all. I, 
however, would immerse myself in the federal procedure rules 
and the federal statutes, look at the Sentencing Guidelines. I 
think that preparation and study is the way to achieve that 
goal.
    I also would consult with--we have some federal judges in 
Mississippi who had absolutely no criminal experience at all, 
and I would consult with them about how to efficiently and 
effectively get up to speed so that I would be prepared to rule 
on those matters.
    Senator Grassley. Okay. Thank you, Mr. Chairman.
    Senator Schumer. Well, thank you, Senator Grassley. I thank 
all three witnesses. I would just ask unanimous consent--there 
are 21 letters that I have here in support of Patricia Millett. 
I would ask unanimous consent to add them to the record, 
including letters from Carter Phillips and Peter Keisler, who 
are attorneys; Douglass Maynard of the New York Police 
Department; Chuck Canterbury, president of the Fraternal Order 
of Police; and 37 assistant deputy and acting attorneys general 
who signed the letter. Without objection.
    [The letters appear as submissions for the record.]
    Senator Schumer. We want to thank the witnesses. We want to 
thank their beautiful families and proud families for being 
here.
    The record is going to remain open for seven days for 
people to submit questions in writing which you may be asked to 
submit to us, and speaking, I think, on behalf of the whole 
Committee, whatever the outcome is, we are proud of all three 
of you.
    Mr. Woods. Thank you.
    Ms. Wolford. Thank you.
    Ms. Brown. Thank you, Senator.
    Senator Schumer. With that, the hearing is adjourned.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]

                Miscellaneous Submissions for the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

 NOMINATION OF CORNELIA T. L. PILLARD, NOMINEE TO BE CIRCUIT JUDGE FOR 
   THE DISTRICT OF COLUMBIA CIRCUIT; HON. BRIAN MORRIS, OF MONTANA, 
NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF MONTANA; HON. SUSAN P. 
 WATTERS, OF MONTANA, NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF 
 MONTANA; JEFFREY ALKER MEYER, OF CONNECTICUT, NOMINEE TO BE DISTRICT 
JUDGE FOR THE DISTRICT OF CONNECTICUT; AND LANDYA B. MCCAFFERTY, OF NEW 
    HAMPSHIRE, NOMINEE TO BE DISTRICT JUDGE FOR THE DISTRICT OF NEW 
                               HAMPSHIRE

                        WEDNESDAY, JULY 24, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Whitehouse, Klobuchar, Franken, 
Coons, Blumenthal, Hirono, Grassley, Lee, Cruz, and Flake.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. The Committee will be chaired by Senator 
Blumenthal, who is on his way, but I want to open it today by 
welcoming five excellent judicial nominees, and, of course, I 
do thank Senator Blumenthal for chairing this. He is the former 
Attorney General of Connecticut and understands these things as 
well as anyone.
    We will first hear from Nina Pillard, who is President 
Obama's nominee to fill one of the three current vacancies on 
the DC Circuit.
    Professor Pillard has had a distinguished career as a 
practitioner and as an academic. She earned a unanimous rating 
of ``well qualified'' from the ABA Standing Committee on the 
Federal Judiciary. She has argued nine cases before the Supreme 
Court and briefed 18 others on behalf of a range of clients. 
She spent her legal career in public service, in the Office of 
the Solicitor General and the Office of Legal Counsel, and at 
the American Civil Liberties Union and the NAACP Legal Defense 
and Educational Fund. For the past 13 years, she has worked as 
professor at my alma mater, Georgetown University Law Center. 
At Georgetown, she serves as the faculty co-director of the 
Supreme Court Institute, where she has helped prepare fellow 
lawyers in dozens of cases. I have been in that mock-up room at 
Georgetown, and I have had everybody from--Chief Justice 
Roberts has told me that he would practice cases when he was 
arguing cases before the Supreme Court there. The law school is 
a little bit nicer than it was when I went there.
    But she is lucky enough to have family in the great State 
of Vermont. Her sister lives in Charlotte on the shore of our 
Great Lake, Lake Champlain. I understand she and her family 
spend quite a bit of time in Vermont, so I am glad to see the 
family, and she will introduce them when she is sworn in.
    I would note that a number of my friends on the other side 
of the aisle have made comments about the history of the 
Committee's consideration of nominees to the DC Circuit. It is 
certainly inaccurate to suggest that there is any comparison 
between a letter sent eight years ago by Committee Democrats 
expressing concerns about a particular nominee and the effort 
now to strip the DC Circuit of three of its 11 judgeships.
    The 2006 letter made reference solely to the 11th 
judgeship, and the caseload issue was raised, in addition to 
several substantive concerns about the nominee. We did note 
that, as sometimes happens, Committee Republicans had blocked 
and opposed President Clinton's nominees to the DC Circuit's 
11th seat, even though the caseload was higher during the 
Clinton administration than during the Bush administration.
    When the DC Circuit's caseload was around 190 pending 
appeals per active judge during the Clinton administration, 
Senator Grassley and other Republicans opposed filling the 12th 
and even the 11th seat and delayed the confirmation of Merrick 
Garland. At that time, even Senator Hatch said that this was 
``playing politics with judges.'' Of course, as soon as we had 
a Republican President, they had no problem filling that 11th 
seat, and that was when there was 121 pending appeals per 
active judge at that time.
    I would remind my friends on the other side of the aisle 
that they felt they needed that 11th seat with 121 pending 
appeals per active judge. Of course, it was a Republican 
nominating the judge.
    But now the caseload is up to 177 pending appeals per 
active judge, and the need does not seem as great because there 
is a Democratic President.
    You know, the numbers, of course, are far more favorable to 
President Obama for filling these seats than it was for 
President Bush. And I would hope that President Obama is not 
going to be held to a different standard as though somehow he 
is different than President Bush.
    No Senate Democrat opposed the May 2003 confirmation of 
John Roberts to the DC Circuit, even though it brought the 
caseload all the way down to its lowest level in the 20 years--
111 pending appeals per active judge. So now that the load is 
much, much higher than when we confirmed John Roberts to the 
circuit, I hope that we can start working on Professor 
Pillard's nomination and those of Patricia Millett and Robert 
Wilkins.
    We also welcome Landya McCafferty, nominated to the 
District of New Hampshire; Jeffrey Meyer, who is nominated to 
the District of Connecticut; and Brian Morris and Susan 
Watters, who are both nominated to judicial emergency vacancies 
in the District of Montana. All have the support of their home 
State Senators, both Republicans and Democrats. I hope we can 
move forward on them.
    I will yield first to Senator Grassley, and then I am going 
to turn the gavel over to Senator Blumenthal. But I know 
Senator Baucus is here and wants to speak of the nominations in 
the Big Sky country.
    Senator Blumenthal [presiding]. Senator Grassley.
    Senator Grassley. I would like to let Senator Baucus go 
ahead.
    Senator Blumenthal. Senator Baucus, Senator Grassley has 
very graciously yielded to you, so please go ahead. And thank 
you to Senator Leahy.

PRESENTATION OF BRIAN MORRIS, NOMINEE TO BE DISTRICT JUDGE FOR 
 THE DISTRICT OF MONTANA, AND SUSAN P. WATTERS, NOMINEE TO BE 
DISTRICT JUDGE FOR THE DISTRICT OF MONTANA, BY HON. MAX BAUCUS, 
            A U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Chairman Leahy, for those 
comments, and thank you, Senator Grassley, my good friend. We 
have worked together so much on the Finance Committee. And 
thank you, Senator Blumenthal.
    I am pleased to be here today to introduce two outstanding 
Montanans to the Committee: Justice Brian Morris and Judge 
Susan Watters, to serve as United States District Judges for 
the District of Montana.
    One of the most important responsibilities I have is my 
constitutional role to provide advice and consent on the 
President's nominations to the federal bench. Over the course 
of my time here, I have had the opportunity to recommend some 
of Montana's top legal minds to the federal bench. I approach 
each vacancy with the same criteria. I want the best. I do not 
care if they are Republicans, Democrats, liberals, 
conservatives. I want the best.
    I look for individuals with a breadth of legal experience, 
ethics above reproach, sharp analytical skills, and respect for 
precedent.
    In consultation with Montana's legal community, I 
recommended Susan Watters and Brian Morris to President Obama. 
I am certain that their experience, leadership, and prudence 
will serve Montanans well.
    Montana Supreme Court Justice Brian Morris has 
distinguished himself as one of the brightest legal minds that 
has ever come out of Montana. Another important distinction: He 
hails from Butte--Butte, Montana, that is. It is a privilege to 
introduce him to the Committee today.
    Justice Morris is accompanied by his wife, Cherche; two of 
their children, Max--I think daughter Mekdi could not make it 
today. I would like to offer my congratulations to Justice 
Morris and his family. His nomination caps what has already 
been a prestigious legal career.
    Justice Morris earned a football scholarship to Stanford 
University and graduated with a bachelor's degree and master's 
degree in economics. In 1991, Justice Morris graduated with 
distinction from Stanford Law School. At the law school, 
Justice Morris clerked for Judge John Noonan, Jr., of the Ninth 
Circuit Court of Appeals. Then he clerked for Chief Justice 
Rehnquist of the U.S. Supreme Court. After clerking for the 
Court, Justice Morris worked for one year at The Hague on the 
U.S.-Iran Claims Tribunal, representing American citizens and 
businesses who lost property in Iran after the Islamic 
Revolution.
    Following his time in The Hague, Brian returned home to 
Montana, where he took a job with the Bozeman firm Goetz, 
Madden & Dunn, handling both criminal law and commercial 
litigation.
    Justice Morris then served for three years as Montana's 
Solicitor General. In 2004, Justice Morris was elected to the 
Montana Supreme Court where he has since served. There he has 
demonstrated all the qualities required of a federal court 
judge: integrity, fairness, a steady disposition, and superb 
analytical skills. And despite his lofty credentials, Justice 
Morris is known for his approachability and down-to-earth 
nature. After all, he is from Butte.
    He has four children and is highly involved with their 
sports and schools. In addition, on any given day, you might 
find him or one of his law clerks volunteering to read to 
students at Smith Elementary School in Helena.
    For more than eight years, he has served the people of 
Montana on the bench and in the community. As a federal judge, 
I have no doubt that he will continue to perform at the highest 
possible level.
    It is now my privilege to introduce the second nominee from 
Montana. In Montana, we are especially proud that in 1916, 
Montanans elected the first woman to the U.S. House of 
Representatives, Jeannette Rankin, who achieved this remarkable 
feat four years before women secured the right to vote. We 
elected the first woman to Congress four years before women had 
the right to vote.
    Today's second nominee, Judge Susan Watters, is another 
trail-blazing Montanan, another trail-blazing woman. If she is 
confirmed by the Senate, she will become the first woman to 
serve as a Federal District Court Judge for the District of 
Montana.
    Judge Watters' husband, Ernie, is here today. I know that 
Ernie, along with their two daughters--who, by the way 
surprised our nominee here today by flying into DC just to be 
here for the hearing. A big surprise for Susan. She had no idea 
her daughters were coming. They are here today to be with Susan 
and with Ernie, Susan's husband. I know they are all very proud 
of her. I congratulate her entire family on this tremendous 
achievement.
    Judge Susan Watters was born and raised in Billings, 
Montana, and graduated with honors from Eastern Montana College 
in 1980. Shortly afterward, her two daughters were born. Judge 
Watters raised two young children while attending the 
University of Montana Law School, achieving a law degree in 
1988.
    After law school, she served as deputy county attorney for 
Yellowstone County. In 1985, Judge Watters opened her own 
practice where she represented clients in State and federal 
court. In 1999, Governor Marc Racicot appointed her to sit as a 
district court judge for Montana's 13th Judicial District in 
Billings. And since her appointment, Judge Watters has been re-
elected three times, most recently with more than 80 percent of 
the vote.
    During her 14 years on the bench, Judge Watters has 
presided over thousands of cases and hundreds that have gone to 
trial. She has overseen civil, criminal, probate, juvenile, and 
family law cases. Among Judge Watters' most notable 
achievements is the establishment of the Yellowstone County 
Family Drug Treatment Court in 2001. Because of its 
overwhelming success, this court has become a model for other 
family drug courts across the Nation.
    Judge Watters has built a reputation of being fair, hard-
working, possessing strong analytical skills and an excellent 
judicial temperament. She has served the people of Yellowstone 
County for more than a decade. I am absolutely confident she 
will bring the same high level of professionalism and dignity 
to the federal bench.
    I appreciate the opportunity to introduce Justice Morris 
and Judge Watters to this Committee. Not only are they 
exceptionally qualified, their service is critically needed. 
The District of Montana holds three full-time Article III 
judgeships. Two are now vacant. Currently our Chief Judge, Dana 
Christensen, our only sitting active federal judge, is devoting 
countless hours traveling from Missoula to Great Falls to help 
with the docket. Senior Judge Don Molloy is traveling the 345 
miles from Missoula to Billings each month to cover his docket. 
I might remind the Committee this is the same distance as from 
here to Hartford, Connecticut.
    These two vacancies are classified as judicial emergencies 
by the Administrative Office of the U.S. Courts. I hope the 
Committee will work diligently and expediently to get these two 
exemplary nominees to the Senate floor for confirmation.
    Senator Blumenthal. Thank you very much, Senator Baucus. 
Thank you for being here today and so graciously and eloquently 
introducing these two very well-qualified nominees. And we 
really appreciate your being here. We know that you have a very 
busy schedule with the Finance Committee, and I am going to 
call on Senator Grassley to give his opening statement, and 
then I will introduce the other nominees. But I hope everyone 
understands that Senator Baucus probably will not be able to 
stay for the remainder of the hearing, but we do appreciate you 
being here. Thank you.
    Senator Baucus. Thank you, Mr. Chairman. And I know I am 
beating a dead horse here, but these are two terrific people.
    [Laughter.]
    Senator Baucus. Thank you.
    Senator Blumenthal. Thank you. Well, your saying so means a 
lot. Thank you.
    Senator Baucus. Thank you.
    Senator Blumenthal. Senator Grassley.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
                       THE STATE OF IOWA

    Senator Grassley. I welcome all the nominees. Among the 
nominations on the agenda today is the nominee for the DC 
Circuit, and I will make a statement similar to what I made 
when there was another nomination. And you heard some 
statistics from Senator Leahy. I want the audience to know that 
there is an honest difference of opinion between Senator Leahy 
and me on this subject of whether or not we need additional 
judges.
    I would point out that the main difference is whether or 
not you are going to consider pending cases before the DC 
Circuit or whether you are going to look at how much work is 
actually getting done by the circuit court. And I look at the 
filed cases and the terminated cases in my statistics, as 
opposed to pending cases.
    Also, another point I should make you aware of is that 
there was a seat on this court eliminated during President 
Bush's administration, and even though I am a Republican, I led 
that effort to eliminate that one seat because I did not think 
it was needed at that particular time.
    I have indicated on a number of occasions that I believe it 
is a mistake to move forward with these nominations when there 
is so much disagreement about whether these seats are even 
needed. Notwithstanding the disagreement over the workload, the 
Chairman has indicated that he will move forward with these 
nominees, and he is Chairman and he sets the agenda, and I have 
to accept that. But I would like to address a little more 
detail about why the workload simply does not warrant the 
additional judges.
    First, I would like to remind my colleagues that in 2006 
the Democratic majority now, then in the minority, argued that 
the DC Circuit caseload was too light to justify confirming any 
additional judges to the bench. Since that time, the caseload 
has continued to decrease.
    In terms of raw numbers, the DC Circuit has the lowest 
number of total appeals filed annually among all the circuit 
courts of appeal. In 2005, that number was 1,379, this year 
1,193, a decrease of 13 percent. If you look at the number of 
appeals filed per authorized judgeship, again, the DC Circuit 
is the lowest. In 2012, the DC Circuit had 108 total appeals 
filed per authorized judgeship. This is the lowest in the 
Nation. By comparison, in 2012 the national average was 344, 
nearly three times as high for the other circuits. In 2005, the 
total number of appeals filed per authorized judgeship was 115, 
and again in 2012, that number had fallen to 108.
    And what is noteworthy is that the number decreased even 
though Congress transferred one judgeship to the Ninth Circuit 
in 2008. Stated differently, the total number of cases filed 
has fallen so much since 2005 that the number of filings per 
judgeship has decreased even though we have fewer authorized 
judgeships today than in 2005.
    Perhaps the best numbers to examine are those that measure 
the workload per active judge. The caseload has decreased so 
much since 2005 that even with two fewer active judges, the 
filing levels per active judge are practically the same.
    In 2005, with 10 active judges, the court had 138 appeals 
per active judge. Today, with only eight active judges, it has 
149. This makes the DC Circuit caseload level the lowest in the 
Nation and less than half of the national average.
    We have recently confirmed judges in the Eighth and Tenth 
Circuits. It has been suggested that these circuits have 
caseloads lighter than the DC Circuit. As I have said in the 
past, that is not accurate. The DC Circuit has fewer cases 
filed and fewer cases terminated than either the Eighth or the 
Tenth Circuit. Cases filed and cases terminated measure the 
amount of appeals coming into the court and being resolved by 
the court, respectively. That is how you determine how busy a 
court is.
    Now, I would like to note that the White House is 
attempting to rely on pending cases to try to compare the 
Eighth and Tenth Circuits to the DC Circuit. But what the White 
House fails to mention is that cases pending measure case 
backlog. Cases pending does not measure how many cases are 
being added and removed from the docket.
    When looking at how many cases are added or files per 
active judge, the DC Circuit is the lowest with 149. It is 
nowhere near the Eighth Circuit's 280 or the Tenth Circuit's 
217.
    When looking at the numbers of cases being terminated by 
each court, the DC Circuit is once again the lowest at 149. 
Again, the Eighth Circuit and Tenth Circuit, 269 and 218, 
respectively. So an objective review of the caseload reveals 
that the DC Circuit is very low, and it raises serious doubts 
regarding whether we need more than eight active judges on the 
court.
    Now, there is no question in my mind that the statistics 
makes clear that the DC Circuit does not need additional 
judges, and that is especially true if you use the standards 
that the Democrats set when they opposed Peter Keisler's 
nomination to the DC Circuit in 2006.
    But in addition to the statistics, I think it is extremely 
helpful to get input from the judges themselves. By way of 
background, let me just say that when I chaired the Judiciary 
Subcommittee on the Courts in the 1990s, I conducted a survey 
of U.S. courts. Back then I asked judges to provide their 
perspective on a variety of issues. The insight that the judges 
were able to provide through that survey was invaluable at that 
time, and I think using that same method will be valuable this 
time.
    So based on that experience, I recently sent a letter to 
judges currently serving on the DC Circuit. I asked the judges 
whether based on their experience the workload of the DC 
Circuit warranted additional judges. I also asked that those 
who cared to respond do so anonymously so that they could feel 
free to speak candidly. The results are not surprising.
    The judges themselves confirmed everything that I have been 
saying about the workload of the course. As one judge put it, 
``I do not believe the current caseload of the DC Circuit or, 
for that matter, the anticipated caseload in the near future 
merits additional judgeships at this time. If any more judges 
were added now, there would not be enough work to go around.''
    Another judge wrote, ``The court does not need additional 
judges for several reasons. For starters, our docket has been 
stable and decreasing, as the public record manifests. 
Similarly, as the public record also reflects, each judge's 
work product has decreased from 30-some opinions each year in 
the 1990s to 20-some and even fewer than 20 opinions each year 
since.''
    Again, this is not this Senator saying that the caseload is 
low. These are judges currently serving. These judges say that 
if we confirm any additional judges, ``there would not be 
enough work to go around.'' Who is in a better position than 
the judges to make an assessment about the court's workload and 
the need for additional judges?
    I would also remind my colleagues that the court currently 
has six senior judges. Combined with the eight active judges, 
that is a total of 14 judges serving on the court. According to 
one of the judges on the court, the senior judges ``will more 
than likely serve for another decade based upon their 
respective ages and health.'' Likewise, another judge noted 
that the DC Circuit has ``an extraordinary number of sitting 
senior judges, six, who are actually younger than the average 
age of the U.S. senior judges.'' Based on this, it is clear 
that the senior judges on the court are contributing a 
significant amount of work and will continue to do so for the 
foreseeable future. They serve because they want to, not 
because they have to. This is all the more reason why the DC 
Circuit is the most--has the lowest agenda.
    I will have a lot more to say on this subject as we move 
forward with this nomination, and I yield back. Thank you.
    Senator Blumenthal. Thank you, Senator Grassley, for those 
remarks. I hope that we can move on with the business before 
us, which is the nominations that we are considering. But I 
just want to say that I respectfully disagree, Senator. I think 
that the statistics and numbers that you cited are certainly 
not the sole or even the best measure of the workload of a 
court the size and complexity and challenge of cases which are 
extraordinarily high before the DC Circuit are equally if not 
more important, and I am going to enter into the record, if 
there is no objection, statements from present and former 
members of the court who have commented for the record, not 
anonymously, their views as to the workload of the court, and 
that includes former Chief Judge Harry Edwards, Judge Lawrence 
Silberman, former Chief Judge Patricia Wald, former Chief Judge 
Douglas Ginsburg, and Chief Justice John Roberts of the U.S. 
Supreme Court, all indicating very strongly and unequivocally 
that the workload of this court is certainly a tremendous 
challenge and growing rather than diminishing.
    Having said that, let me introduce now two of my colleagues 
who very generously have agreed to be here today to introduce 
their nominees, nominees from their States, and I would begin 
with Senator Shaheen.

 PRESENTATION OF LANDYA B. McCAFFERTY, NOMINEE TO BE DISTRICT 
    JUDGE FOR THE DISTRICT OF NEW HAMPSHIRE, BY HON. JEANNE 
    SHAHEEN, A U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Shaheen. Thank you very much, Mr. Chairman, Ranking 
Member Grassley, Senator Hirono. I am sorry to be a little 
late, but delighted to be here this morning to introduce Landya 
McCafferty, who has been nominated by the President to be the 
Federal District Court Judge for the District of New Hampshire.
    I want to note at the beginning that Landya, if confirmed, 
will be the first woman to serve on the federal bench in New 
Hampshire. I have to point that out. But really it is not 
Landya's gender that matters. It is her professional experience 
and her personal qualities that really make her stand out.
    When word got out in New Hampshire that there would be a 
vacancy on our federal bench, I heard from lawyers across the 
State. They recommended Landya McCafferty for this judgeship. 
And I did not know Landya at the time, but I was very impressed 
by what I was hearing from others who had worked with her about 
her skill and experience. I wanted to meet her and I was not 
disappointed. I was struck by Landya's intellect, by her 
thoughtfulness, and by her level temperament. She gave 
straightforward and well-reasoned answers to all of my 
questions.
    In addition to her current position as the U.S. magistrate 
judge for the District of New Hampshire, her federal court 
experience includes clerking for two district court judges at 
the First Circuit Court of Appeals. Her other professional 
experience includes prosecuting professional misconduct cases 
as the disciplinary counsel for the New Hampshire Supreme Court 
Attorney Discipline Office; serving as an appellate and trial 
attorney in a highly regarded New Hampshire public defender 
program's amendment working in private practice as a civil 
litigator.
    Landya is also an innovator. As a magistrate judge, she has 
become a nationally recognized expert and teacher on how to use 
technology, including iPads, to achieve a more efficient and 
paperless work flow in the federal court system.
    Mr. Chairman, I have no doubt that Landya McCafferty will 
be an excellent federal district court judge. I urge her 
confirmation and her expeditious consideration to that 
appointment.
    Thank you very much.
    Senator Blumenthal. Thank you, Senator Shaheen. Thank you 
for being here today.
    I will now introduce my colleague from Connecticut, Senator 
Murphy. He and I have worked very closely together on the 
nomination, and the introduction that he is going to make is 
very welcome this morning. Senator Murphy, thank you.

  PRESENTATION OF JEFFREY ALKER MEYER, NOMINEE TO BE DISTRICT 
  JUDGE FOR THE DISTRICT OF CONNECTICUT, BY HON. CHRISTOPHER 
      MURPHY, A U.S. SENATOR FROM THE STATE OF CONNECTICUT

    Senator Murphy. Thank you very much, Senator Blumenthal. 
Thank you, Senator Grassley. Good to see you, Senator Hirono. I 
appreciate, Senator Blumenthal, your generosity in allowing me 
to be here before a Committee you are chairing to introduce 
Jeffrey Meyer, who will be appearing before you as the 
President's nominee to be a United States district judge in 
Connecticut. We both have had the pleasure of knowing and 
getting to know Mr. Meyer, and the reason why we recommended 
him for this post is because there are few people, I think, 
that this panel will see that have the unique blend of judicial 
experience, academic experience, and practical experience that 
Mr. Meyer brings to this position.
    He received both his undergraduate degree and his law 
degree from Yale in New Haven. He clerked at the Supreme Court 
for Harry Blackmun and then for Judge James Oakes. He currently 
is teaching the Supreme Court Advocacy Clinic at Yale Law 
School as a visiting professor. He also served as an Assistant 
United States Attorney in Connecticut for almost 10 years, and 
before that was the senior counsel of the independent inquiry 
committee into the United Nations Oil for Food Program.
    Aside from his full-time work, Mr. Meyer has been a member 
of the Connecticut Judicial Ethics Committee since 2008, a 
member of the Advisory Committee for the selection of 
Connecticut's Federal Public Defender. He is also a member of 
the U.S. Attorney's Police and Urban Youth Task Force.
    This is a pretty impressive mixture of both experience as 
an attorney, experience as an academic working specifically on 
issues related to the federal bar, and really robust 
involvement in the community that he lives in. We were both 
very impressed when we got the chance to meet with him with the 
degree of intellectual thought that he has given to trying to 
make the federal court system work better for people who 
interact with it, both plaintiffs, defendants, and lawyers. I 
think that kind of intellectual thought that he has devoted his 
career to will lend great weight to the federal bar.
    I would just note very quickly that though he will, I am 
sure, introduce his family who is here with him today, I would 
give special note to his father, State Senator Ed Meyer, who I 
served with in the Connecticut General Assembly. Senator Meyer 
really is one of the pillars of conscience in the State Senate 
in Connecticut, and he has clearly passed down that trait to 
his son.
    I am very, very pleased to be here to introduce him today, 
and I thank you for your generosity in allowing me to do it.
    Senator Blumenthal. Thank you, Senator Murphy.
    I would just round out that introduction by saying I am not 
going to hold it against Jeff Meyer either that he went to Yale 
or that he was a law clerk to Justice Blackmun or that he is Ed 
Meyer's son, with whom I served as well, and I appreciate his 
being here today. And I might just add that Mr. Meyer not only 
served as a prosecutor in Connecticut but also served for five 
years as appeals chief. He led a very significant part of the 
United States Attorney's Office where I also served, and I know 
from his reputation there as well as his reputation in the 
private bar that he was not only aggressive and zealous, but 
also fair and compassionate in the way that he conducted his 
prosecutorial duties. I think those qualities are profoundly 
significant to the service of any judge, and I know that he 
will bring them to the bench when he is confirmed, as I expect 
he will be.
    And I might just add for the benefit of everyone who is 
here today that this Committee really regards these nominations 
processes and this hearing as a very, very significant step in 
an exacting and demanding process. As I have said before--and I 
have been practicing as a lawyer in the federal courts for some 
decades--the district court judge is often the voice and face 
of justice for countless citizens who bring their grievances or 
complaints or claims of injustice to our federal judges. And 
although they can appeal to the circuit court, for many the 
district court is the place where they seek and receive 
justice.
    And so these appointments of district court judges, in my 
view, are some of the most significant responsibilities we have 
as Senators, and I want to thank all of the nominees for their 
willingness to serve. It is a job that requires extraordinarily 
hard work, diligence, scholarship, and sensitivity, and 
personal qualities that I think they bring to this role that 
are very profoundly important. So I thank our two colleagues 
for being here today, and thank you for taking time from your 
very, very busy schedules. I know both of you are involved in 
Committee hearings and meetings, and I hope that our nominees 
and their families and friends and supporters will excuse them 
today, and certainly we thank you for being here. Thank you, 
Senator Shaheen, and thank you, Senator Murphy.
    I want to introduce the next nominee and ask her to come 
forward. Cornelia T.L. Pillard has been nominated by the 
President of the United States to serve on the DC Circuit Court 
of Appeals, and I must say that I am really very, very honored 
to introduce her to the Committee today. She is a person of 
extraordinary professional excellence and has a record of 
distinguished public service and devotion to the public 
interest that I think is unmatched, really, among the nominees 
that this Committee has considered in this role.
    The American Bar Association has given Ms. Pillard its 
highest rating for her qualifications, and anybody who looks at 
her nomination and her resume knows exactly why. She has served 
in many of the most important jobs in the law, arguing on 
behalf of the U.S. Government in the Solicitor General's 
Office, serving in the Department of Justice's Office of Legal 
Counsel, and teaching at one of the Nation's leading law 
schools.
    Even before she was nominated for this position on the DC 
Circuit, she was a figure of profoundly significant stature in 
the legal profession. Her argument in the landmark case of 
United States v. Virginia, for example, produced a 7-1 victory 
that still serves as a milestone in equal protection 
jurisprudence. Her advocacy in the Hibbs case, which she argued 
alongside the Bush administration official who led that 
administration's support for her argument, also led to another 
enduring Supreme Court opinion, this one by Chief Justice 
Rehnquist, upholding congressional power to enact the Family 
and Medical Leave Act.
    Just as important as her abilities is her commitment to 
public service. In every job that she has had, Ms. Pillard has 
stood up for the public interest, for equal protection, for the 
rights of minorities, and people who sought justice. And in the 
process, she has shown she understands a very important fact 
about the law: No one has a monopoly on truth. A lawyer can 
serve the public by upholding the rule of law in a variety of 
roles, serving a variety of clients. She has represented the 
U.S. government, and she has also represented litigants seeking 
to protect their rights against the government when it intruded 
or interfered unfairly with those rights.
    She has served on the Board of the American Arbitration 
Association where she worked with the corporate general counsel 
to make our legal system more efficient and effective. She has 
experience with the reflection made possible by an academic 
position where a lawyer really can identify different trends in 
legal thinking and work to teach students the basic principles 
that make up our system of justice. And she now serves as 
faculty director of Georgetown University's Supreme Court 
Institute.
    Attorneys who have watched and seen Ms. Pillard work also 
agree that she has the talent and temperament to make an 
exceptional DC Circuit judge.
    This Committee has received letters of support for Ms. 
Pillard from a broad cross-section of the legal profession, 
including 21 former Office of Legal Counsel attorneys, 25 
federal prosecutors and law enforcement officials, 30 retired 
members of the armed forces, former Director of the FBI William 
Sessions, and former Bush administration Assistant Attorney 
General Viet Dinh.
    I ask unanimous consent that these letters be submitted for 
the record.
    [The letters appear as submissions for the record.]
    Senator Blumenthal. And I would also ask consent to submit 
an op-ed printed in the record today by somebody who directly 
benefited from Ms. Pillard's work, Elizabeth Dobbins, who is, I 
believe, with us today. She is a retired military officer and 
graduate of the Virginia Military Institute, and she was able 
to attend VMI and advance her goal of serving our country in 
the military, thanks to the work that Ms. Pillard has done and 
did in that case. And as I mentioned, I think she is with us 
today, and I want to thank her for joining us.
    Ms. Pillard, I welcome you here today. As I mentioned, I am 
honored to introduce you to the Committee, and I want to thank 
you in advance for your willingness to serve. And my first duty 
is to ask you to please stand and be sworn. If you would please 
raise your right hand. Do you affirm that the testimony you are 
about to give before this Committee will be the truth, the 
whole truth, and nothing but the truth, so help you God?
    Ms. Pillard. I do.
    Senator Blumenthal. Thank you. You are free to proceed with 
an opening statement if you would like and introduce your 
family.

STATEMENT OF CORNELIA T.L. PILLARD, NOMINEE TO BE CIRCUIT JUDGE 
              FOR THE DISTRICT OF COLUMBIA CIRCUIT

    Ms. Pillard. Thank you, Senator Blumenthal. I would like to 
thank Chairman Leahy and Ranking Member Grassley for scheduling 
this hearing and Senator Blumenthal for chairing and for his 
very kind and generous introduction. And I would like to thank 
all the Senators on the Committee for taking their time out of 
their very busy schedules to be here--Senators Hirono, Franken, 
and Whitehouse--and I know others are in and out according to 
their busy Committee schedules.
    I would also like to thank President Obama for this 
nomination. The system of laws and courts in our country is a 
precious heritage, and I take my acceptance of this nomination 
as my pledge to safeguard our great legal traditions.
    I also want to introduce several people who are here with 
us today, my family: my husband, David; my son, Aidan, who is 
16. My daughter, Sara, 14, cannot be with us today because she 
is at summer camp in the Adirondacks, a camp with a long family 
tradition. Actually, my parents, who are here, initially met 
each other as counselors at the camp where my daughter is now 
attending. They do not have television or electronics there, 
but they told her that they might let her watch the Webcast, so 
perhaps she is watching us today.
    Additional members of my family: my mother, Cornelia 
Pillard, Cornelia Tierney, is here, and my father, Dr. Richard 
Pillard. My stepsister, Minou Elisa Tierney, is here from 
California as representative of my four siblings.
    I would also like to recognize two special guests who are 
here with us today: Retired Brigadier General Evelyn Foote, who 
goes by ``Pat'' Foote, who has spent 30 years in the United 
States Army and has broken untold barriers for women. She has 
been a leader in working toward women's equal participation in 
the military and was an early and consistent supporter of 
VMI's, the Virginia Military Institute, opening to women, and 
she is here with us today. We are very honored to have her 
here.
    And seated directly next to her is Elizabeth Dobbins. 
Elizabeth, who Senator Blumenthal mentioned, is studying to 
take the bar next week. She is a graduate of the University of 
Virginia Law School, and she went and did her undergraduate at 
VMI. So, yes, she is one of those proud VMI women, and so she 
is also here with us today, and we are very proud to have her.
    Finally, I would like to recognize the Georgetown 
University Law Center dean, Dean William Treanor, and all the 
colleagues, friends, and supporters, including former students, 
who are here with us today. I am very pleased to have you here 
on this very, very important day.
    Thank you so much.
    [The biographical information of Ms. Pillard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
   
    Senator Blumenthal. Thank you very much. I am going to 
begin with some questions and then turn to other Members of the 
Committee.
    Ms. Pillard, I understand that you were on the ABA 
Committee that evaluated Samuel Alito when he was nominated to 
the Supreme Court. In fact, you chaired the ABA Reading 
Committee that produced the report evaluating then-Judge Alito 
when it gave Judge Alito its highest rating.
    I wonder if you could describe the qualities that make a 
good appellate court judge, qualities that you evaluated in 
giving Judge Alito that recommendation.
    Ms. Pillard. Thank you, Senator Blumenthal. I was asked in 
2005 and 2006 to chair one of the ABA Nominations Committee's 
Reading Committees, and at that time, one of the nominations 
that came forward was the nomination of then-Judge Alito to sit 
as a Justice on the Supreme Court. And we reviewed every single 
writing that could be found that had been authored by Justice 
Alito, and that included many judicial opinions. It also 
included speeches and other writings that were written in other 
capacities. And we thoroughly read all of those writings, and 
what we were looking for there was a faithful ability to read 
the law and apply it rigorously to the facts of the case when 
we were looking at the judicial opinions.
    We looked at the other writings with a little bit of a 
different approach because they were written in a different 
role. But we are looking for someone who we think, whatever his 
views, personal views, when he approaches the law, he 
approaches it fairly, rigorously, with an open mind, and has, 
therefore, the qualities of impartiality and of fairness that 
we are looking for in a federal judge. And we made our report 
and the ABA found it, I think, readily apparent that now-
Justice Alito had the qualities to equip him to be a Justice on 
the U.S. Supreme Court.
    Senator Blumenthal. And you have been an advocate, a very 
zealous and passionate and successful advocate sometimes, of 
controversial causes and cases. Looking to those qualities of 
impartiality and fairness, do you think you would be able to be 
impartial and fair? I know you will say yes. How will you be 
able to, in effect, move from the advocacy demeanor and role to 
the appellate judge role, which is obviously one of judging, 
not of advocacy?
    Ms. Pillard. Thank you, Senator Blumenthal. I have had the 
experience, as I think most nominees have, of being an 
advocate, and what we undertake in agreeing to be nominated to 
be a judge is to set aside the kind of partisanship and the 
loyalty to client that we may have, that we were duty bound to 
have as an arguing advocate, and put aside any bias and take on 
as our trust and as the goal of what we are doing the neutral 
and evenhanded application of the precedents of the U.S. 
Supreme Court, the precedents of the DC Circuit, and apply 
those to the case at hand. And the judge has an especially 
heightened responsibility, in my view, to read the read the 
record in a case meticulously to make sure that her decisions 
do not in any way exceed the bounds of the issues presented 
before her.
    Article III judges are judges of limited power, and one of 
the highest responsibilities of a judge is to be so familiar 
with the record that they are deciding only the issue presented 
before them in the most evenhanded way possible under the 
precedents and the text of the law and statutes.
    Senator Blumenthal. Thank you.
    Senator Grassley.
    Senator Grassley. Thank you very much.
    I know that you believe that there is a right of privacy in 
the U.S. Constitution. From what and where in that document 
does it derive? And what is your understanding in general terms 
of the contour of that right?
    Ms. Pillard. Thank you, Senator Grassley. My view, any 
personal view that I might have, would be irrelevant to my 
serving as a judge. The views that I would take as my guide in 
answering any such question as the question you pose are the 
precedents of the U.S. Supreme Court. And the U.S. Supreme 
Court in a long line of cases has found a right of privacy 
protecting reproductive choice in the liberty aspect of due 
process. And as those precedents have evolved, those are the 
precedents that I would apply, and those are the precedents 
that I would be bound to, precedents of the U.S. Supreme Court 
and any precedents of the District of Columbia Circuit.
    Senator Grassley. A little bit along the same line, I will 
quote Justice Douglas in Griswold: Although the Bill of Rights 
did not explicitly mention the right to privacy, it could be 
found, as you know, as he said, in the ``penumbras'' and 
``emanations'' of the Constitution. Do you agree with Justice 
Douglas that there are certain rights that are not explicitly 
stated in our Constitution that can be found reading between 
the lines, as he--``reading between the lines''?
    Ms. Pillard. I do not think that is a methodology that I 
would apply in my decisions as a judge. Thankfully, the Court 
has done much to elaborate since then, and we are not looking 
at enumerations or penumbras. I do not see any role for that 
kind of reasoning under the United States Constitution. I would 
apply the precedents of the U.S. Supreme Court. I would look to 
the text and the structure of the Constitution in interpreting 
the Constitution.
    Senator Grassley. Thank you.
    You have argued that, ``Equal protection is at the heart of 
the abortion matter.'' Could you explain where in the 
Constitution or Supreme Court precedent you find support for 
that argument that abortion rights are a matter of equal 
rights? So let me continue with an additional question along 
the same lines. You have asserted that reproductive rights 
should be doubly constitutionally protected by overlapping 
liberty and equality guarantees. So then what constitutional 
authority supports this proposition or the argument that 
abortion rights are a matter of equal protection?
    Ms. Pillard. Thank you, Senator Grassley. I do not believe 
that the Supreme Court has held that the abortion right is 
protected under equal protection. It is based in the liberty 
aspect of the Due Process Clause.
    The article to which you refer was an article not seeking 
to re-theorize in any way the abortion right, but was looking 
at other--the article was titled, ``Our Other Reproductive 
Choices,'' and it was putting aside the debates about abortion 
and looking at other areas of law where well-established equal 
protection principles of the equality between women and men 
might, in fact, be used to make abortion less frequent. And the 
reference to equality and abortion is a more general reference 
to the policy or the outcomes of equality that the Supreme 
Court refers to in the joint opinion in Casey where the Court 
in that Casey opinion says women's ability to participate 
equally in the economic and social life of the Nation has been 
facilitated by their ability to exercise reproductive choice. 
So it is not intended as any kind of doctrinal re-theorization 
of the abortion right.
    Senator Grassley. Okay. A little bit along the same line 
but in a more specific area, you have criticized laws that 
grant conscience rights to pharmacists and health care 
providers ``to refuse to facilitate abortions or even to fill 
prescriptions for contraceptives if they are personally opposed 
to such practices.''
    I think that this is quite dismissive of religious beliefs 
that these health care providers might have, so I would give 
you an opportunity now to explain your understanding of freedom 
of religion as enumerated in the First Amendment in the context 
of that question and your statement.
    Ms. Pillard. That is not my view, in fact. I believe that I 
have not written on the question of conscience rights, and, in 
fact, the question is a question that is very much before the 
lower courts. It is a question that might come before me. And I 
would hesitate to speak in detail how a judge should approach 
those issues except to generally note that there are rights on 
both sides of those questions. There are rights of individuals 
to have access to reproductive care, but, of course, there is 
also well-established recognition in our Constitution and laws 
of the free exercise rights of individuals and potentially also 
of organizations.
    So I think any judge approaching those issues would have to 
take into account religious freedom as well as the reproductive 
rights of an individual seeking to exercise those.
    Senator Grassley. Okay. While the case Hosanna-Tabor 
Evangelical Lutheran Church v. EEOC was pending before the 
Supreme Court, you made a statement at a press briefing that 
the Lutheran Church's position was a ``substantial threat to 
the American rule of law.'' Given that the Supreme Court ruled 
unanimously for the church, I would like to have you explain 
how the ministerial exception to employment decisions is a 
substantial threat to the rule of law? And do you believe that 
the ministerial exception is unconstitutional?
    Ms. Pillard. Thank you, Senator Grassley. That was a case 
in which the Lutheran Church Missouri Synod was arguing that 
they were exempt from civil rights laws because it was in 
violation of their religious tenets to have somebody who 
claimed age disability discrimination raise the claim. And the 
tension in that case is between the free exercise rights on the 
one hand and the rights to have general application of the 
government system of rule of law on the other. And I have to 
admit, Senator Grassley, that--and this would not be the only 
time--I really called it wrong on that case. I did not predict 
that the Court would rule as it did. And needless to say, I 
would be bound by the Court's decision in that case and in 
every other case of the U.S. Supreme Court. And I do have 
confidence that I would have no trouble applying that precedent 
to any case that would come before me.
    Senator Grassley. Thank you.
    Senator Blumenthal. Thank you, Senator Grassley.
    I am going to call on Senator Whitehouse now to ask 
questions and to take the gavel briefly. I have a Veterans' 
Affairs mark-up, a Committee meeting that I am going to have to 
attend briefly. So thank you very much, Senator Whitehouse, for 
taking the gavel.
    Senator Whitehouse [presiding]. It is my pleasure to stand 
in for Senator Blumenthal briefly at the hearing and to reflect 
on the fact that the complementary things that Senator 
Blumenthal has had to say about this nominee come from a pretty 
remarkable position of accomplishment as one of the senior 
Attorneys General of the country. And I think he has spent more 
time before the U.S. Supreme Court than anybody else in the 
Senate, so he knows whereof he speaks.
    Welcome, Professor Pillard.
    Ms. Pillard. Thank you.
    Senator Whitehouse. One of the issues that courts are faced 
with fairly frequently involves the role of the jury. And we 
all as lawyers understand that the jury has a very important 
role in the administration of justice. It has a vital fact-
finding role. And my question to you is actually addressed to 
the role of the jury beyond its pure judicial fact-finding 
role.
    If you begin with Blackstone, who is a fairly renowned 
authority on legal matters, and if you go through the writings 
and the words and the actions of our Founders when this great 
Republic was created, and if you continue on to the, I think, 
viewed as relatively authoritative, writings of viewers of our 
country like de Tocqueville, over and over again they make the 
same point, which is that the jury is more than just a judicial 
entity, is more than just a fact-finding adjunct to the court. 
It has a governmental role, and it is described as a means for 
defense against tyranny. It is in the provision of de 
Tocqueville's ``Democracy in America.'' The discussion is in 
the chapter that says, ``On what restricts the tyranny of the 
majority.'' It has been described as one of the means of the 
sovereignty of the people and, in effect, as a significant part 
of the architecture of our distinctive American system of 
government.
    Could you comment a little bit on your view on the role of 
the American jury both as a pure judicial institution and in 
the broader context of its role within the American system of 
government given its history?
    Ms. Pillard. Thank you, Senator Whitehouse. The jury is 
indeed one of the cornerstones of justice in our constitutional 
democracy, and it is--I know that, among others, Justice Scalia 
on the U.S. Supreme Court has really insisted, looking at the 
original document and the history of our Constitution, on the 
central importance of the jury right.
    Senator Whitehouse. ``I am a big fan of the jury,'' he said 
in a hearing before this Committee. Juries across the country 
were gratified, I am sure.
    [Laughter.]
    Ms. Pillard. Indeed. It is quite a service to shoulder. I 
have been there myself.
    And I think one of the really important functions of the 
jury is a function that anyone seeking to take the bench also 
be guided by, and that is that the jury really helps the public 
to accept the legitimacy of the decisions that are handed down. 
When common people from all walks of life are convened 
together, it is harder for the skeptical public or for the 
public that feels like they may be outsiders to feel that 
justice is designed by elites or by insiders and imposed upon 
them from on high.
    So the jury has a very important function in increasing the 
acceptability of the system of justice for the people. And that 
is a lesson that I believe that judges also must take very 
seriously.
    One of the subjects that is very dear to me--I teach Civil 
Procedure, we teach about the jury. A lot of my writing has 
been about fair process. And many of my students come into law 
school, and Civil Procedure is not high on the list of things 
they are inspired to study. They are not thinking, ``Whoo, I 
have come to law school for Civil Procedure.'' But I try to 
impress upon them the importance of fair procedure and the 
central and solving role that procedure can play.
    There are winners and there are losers in every case before 
the court, and it is my view that when procedure is 
scrupulously fair, that when the bench is made up of people who 
have checked their biases, if any, at the door, that even the 
losers in the system remain connected to it. They feel that 
they have had a fair shake, and they feel that the system of 
justice is theirs.
    I think the jury helps to create that belief among the 
public, and I think that when judges provide fair process, 
listen carefully to the parties before them and approach them 
with an open mind, that the bench also can communicate that 
they are guardians of this precious public trust and that they 
are fair to all comers.
    Senator Whitehouse. Thank you. I think we often forget that 
in this popular government, one of the ways in which people 
have the most direct voice is sitting in the jury box and 
making the official decisions that will be made in conflicts 
that are brought before them.
    It has also been described as having a very significant 
educational role, a school for citizens and their rights and 
their responsibilities of governance. And it has been described 
as an important check on the wealthy and on the powerful, which 
I think is embodied in the principle that to tamper with the 
jury is actually a crime; whereas, wealthy and powerful 
interests spend an enormous amount of effort trying to tamper 
with executive and legislative branch officials to make sure 
that they get their way. And there comes a point when they can 
get too much their way. And against that tide of power and 
wealth stand the hard square corners of the jury box.
    I hope that as you go forward, and presuming that you will 
be nominated and confirmed, that you will always bear in mind 
that there is more to the jury than just its fact-finding 
function. It is part of how we, the people, govern ourselves.
    And next, I think, we have Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. I look forward to 
asking a few questions of Ms. Pillard, but first I wanted to 
just briefly speak to this administration's push to fill 
additional seats on the DC Circuit at a time when those 
vacancies do not need to be filled.
    No one who is familiar with the DC Circuit's current 
caseload can honestly say that the court is overworked or that 
it is in need of an additional judge, let alone two or three 
additional judges, as the administration has been suggesting.
    While other federal circuit courts struggle to keep up with 
their ever-rising caseloads, in each of the last several years, 
the DC Circuit has canceled regularly scheduled argument dates 
because of a dearth of pending cases. And so especially at a 
time when other circuit court vacancies need to be filled and 
the administration has failed to put forward judicial nominees 
for seats that are considered judicial emergencies, it raises 
significant questions for this administration to focus so 
heavily on a court that does not need additional judges.
    The administration appears to be pushing to confirm 
additional unneeded judges to the DC Circuit because of that 
court's important role in reviewing Executive actions. The 
court's decisions, including its recent invalidation of the 
President's unconstitutional recess appointments, made at a 
time when the Senate by its own rules was not in recess, often 
have very significant political implications. With the 
administration's controversial Executive agenda, the President 
appears to have targeted the DC Circuit in hopes that he can 
pack the court and stack the DC to his advantage.
    But that said, I would like to ask you a few questions, Ms. 
Pillard. Why don't we start off with a simple question. Tell me 
who your judicial role model is, if you had to identify a 
jurist, let us say somebody who served on the Supreme Court in 
the past. You can pick anyone other than John Marshall. 
Everybody says John Marshall. That does not tell us much. Why 
don't we stick with a Justice who has served in the last 50 
years or so?
    Ms. Pillard. If I could go a little further back than that, 
I would like to, because the one that I would like to mention 
would be Justice Robert Jackson.
    Senator Lee. Okay. Tell us why you like Justice Jackson.
    Ms. Pillard. Justice Robert Jackson was an astounding 
jurist. Here was a man who I do not believe went to college and 
maybe had one year of law school training and was one of the 
sort of leading lights of the Supreme Court. He was Solicitor 
General and Attorney General before he was nominated to the 
bench. And he also had the experience of being the chief 
prosecutor of the Nazi war criminals at Nuremberg and, I think, 
understood from his varied experience how the rule of law can 
be a bulwark against tyranny. And his opinions show his 
tremendous patriotism, his tremendous love of the Constitution 
and laws of our country. And he handed down some of the 
constitutional opinions that still guide us, that we still 
teach in constitutional law today. A surprising number of the 
opinions that are well known to law students are opinions of 
Justice Jackson. So I have a great admiration for him.
    Senator Lee. Great. You are thinking about his concurring 
opinion in Youngstown?
    Ms. Pillard. His Youngstown opinion is--you know I worked 
in the Office of Legal Counsel and assessing the powers and 
limits of the government, and his Youngstown opinion talking 
about the complementary powers of Congress and the Executive 
is, of course, a much-cited opinion.
    Senator Lee. I have always been fascinated by that opinion. 
He had a clerk that year named William Rehnquist, who later 
made that concurring opinion the majority analysis in Dames & 
Moore v. Regan many years later.
    In an article that Senator Grassley talked to you about a 
few minutes ago, you posited an equal protection right to 
abortion and contraception, and in that article you wrote, 
among the other things that Senator Grassley talked to you 
about, that ``Our law . . . needs to be restyled so that 
mothers are not routinely `mommy tracked.' ''
    In what ways do you think that our laws need to be restyled 
and specifically in order to make sure that mothers are not 
routinely ``mommy tracked''? And what role does the judiciary 
play in doing that?
    Ms. Pillard. That article was not seeking to restyle the 
law in any way, but actually--not the constitutional law. It 
was an article directed at policymakers and advocates, so 
asking for the law to be restyled was not at all a direction to 
judges but a direction to people who would be advocating for 
policies, whether they be corporate policies----
    Senator Lee. Legislators.
    Ms. Pillard. Or legislative policies that might help 
families who are contemplating having children be more 
optimistic about their ability both to raise their children in 
the ways that they believe are best and to work enough hours to 
make a living, so----
    Senator Lee. Okay. So you were talking about legislative 
policy there. You were not talking about judging.
    You authored an amicus brief--I think it was about 20 years 
ago--in a case before the Supreme Court called Bray v. 
Alexandria Women's Health Clinic. I believe your client was the 
NAACP. You were representing the NAACP as amicus curiae. And 
you argued in that brief that pro-life protesters were guilty 
of conspiracy in violation of 42 U.S.C. Section 1985.
    Now, that, of course, was a law that was originally passed 
to criminalize the activities of the Ku Klux Klan and their 
efforts at depriving African American citizens of their civil 
rights.
    In the brief, you called the pro-life protesters that were 
at issue in that case ``militant,'' and you wrote that, like 
the conspirators at whom Section 1983 was originally aimed--
meaning the Klan, of course--the defendants in this case, these 
pro-life protesters, ``seek forcibly to revoke constitutional 
rights that they have been unable to repeal through legal and 
political processes.''
    Do you believe--based on what I am reading here, it caused 
me to wonder whether you believe that pro-life protesters that 
were at issue in that case are fairly analogous to Ku Klux Klan 
members who lynched African Americans simply because of their 
race, who bombed churches and in the process killed innocent 
children, who brutally murdered people in attempting to 
exercise their right to vote? Is this a fair comparison?
    Ms. Pillard. Not at all. Not at all, Senator Lee. The 
statute that was on the books was, as you mentioned, Section 
1985(3), which was written during the Reconstruction Era as a 
way to help ensure that the newly freed slaves would enjoy 
their equal rights.
    Senator Lee. I understand that, but I am not talking about 
the law. I am talking about your comparison. This is your 
comparison, your invocation of the Ku Klux Klan/pro-life 
protester comparison.
    Ms. Pillard. And in using that law, we were arguing that 
the provisions of the law might be deployed in current-day 
circumstances, and the contribution of our brief was talking 
about when and if protesters interfere with law enforcement. We 
wrote a brief focusing on a hindering of law enforcement 
argument. That was the focus of our brief. And the Court 
decided not to reach that issue. They said the party had not 
raised it. And in the following year, the Congress enacted the 
Freedom of Access to Clinic Entrances Act. And I think that it 
really recognizes the point you make, Senator Lee, which is 
that that old statute, which was the only thing on the books on 
which we could base the theory at the time, was not a good fit 
for the problem at hand. And so Congress, in the wake of that 
case, enacted the Freedom of Access to Clinic Entrances Act in 
order to give more modern and more fitting tools that did not 
have, as you mentioned, the disparaging connotations of using 
that old statute for the current-day problem of allowing law 
enforcement officers to do their job.
    Senator Lee. Okay. My time has expired, and so we will have 
to move on. But I want to make clear I am not questioning 
anyone's choice to invoke that statute. I am questioning your 
choice in that brief to make that comparison, which I think was 
unfair.
    Thank you.
    Senator Whitehouse. Let me, before I call on Senator 
Klobuchar, exercise the prerogative of the Chair to respond to 
Senator Lee's assertion that no one can honestly say that 
filling these seats is not necessary or advisable. I do not 
recall the exact word he used. I actually can say that and feel 
that I am being honest in saying so given that the lowest 
number of appeals per active judge is actually the Eighth 
Circuit, the lowest number of appeals per authorized judge is 
the Tenth Circuit. And it is my belief that the nature of the 
appeals that the DC Circuit tends to hear, particularly the 
agency appeals, is more complex than the average case that, for 
instance, the First Circuit used to hear when I was arguing 
before them regularly as Attorney General and United States 
Attorney.
    Senator Lee. May I respond briefly to that, Mr. Chairman?
    Senator Whitehouse. You have already gone over your time.
    Senator Lee. If you would give me 12 seconds.
    Senator Whitehouse. Got it.
    Senator Lee. Under the same analysis used by the Democrats 
in the Senate who blocked Peter Keisler's confirmation, the DC 
Circuit's caseload is still as low as it was back then. The 
number of cases per panel is still as low or lower than it was 
then.
    Thank you.
    Senator Whitehouse. Senator Klobuchar.
    Senator Klobuchar. All right, thank you. I am focused on 
you, Ms. Pillard, and I welcome you to this hearing today.
    As we have been discussing today, the Circuit Court for the 
District of Columbia in many ways is the second-highest court 
in the country. As Chief Justice John Roberts once said, 
``Whatever combination of letters you can put together, it is 
likely that jurisdiction to review that agency's decision is 
vested in the DC Circuit.''
    Because of the DC Circuit's crucial role in the development 
of this country's jurisprudence, it is essential that the court 
operate with its full complement of judges to avoid congestion 
on the docket, delay of justice, and uncertainty for agencies 
and the entities under its jurisdiction.
    You are one of the most accomplished Supreme Court 
advocates in the country. You have argued nine cases and 
briefed 25 cases before the high court. You have spent over a 
decade teaching and mentoring aspiring young lawyers and 
serving as faculty director to Georgetown Law School Supreme 
Court Institute. And I have no doubt you would make an 
excellent addition to the DC Circuit.
    Could you talk about the circuit, and can you talk about 
the unique role of this court and the circuit court and what in 
your background makes you specifically qualified to serve on 
that court?
    Ms. Pillard. Thank you, Senator Klobuchar. The DC Circuit 
is indeed an important court, and one of the characteristics of 
the docket of the Supreme Court is that it has a high caseload 
on issues about the scope and limits of governmental power. And 
these are the kinds of issues that I worked on within the 
executive branch at the Office of Legal Counsel where the daily 
fare is advising agencies' and entities' officials within the 
government about the scope and limits of their power. And 
certainly in the Supreme Court Institute at Georgetown, I have 
also had exposure to a wide range of the kinds of issues that 
come before the DC Circuit.
    The Supreme Court Institute is a very special enterprise 
that brings together lawyers from across the spectrum, lawyers 
with Supreme Court experience, and helps on a voluntary basis 
to prepare lawyers to argue before the Supreme Court without 
regard to issue or position.
    And this past term that just ended, we helped to prepare 
one or more of the lawyers in every single case that the U.S. 
Supreme Court heard. I personally have been involved in helping 
to prepare lawyers across the spectrum. I have prepared former 
Republican Solicitors General for their arguments. I have 
helped to prepare State Attorneys General to defend their 
criminal convictions. I have helped to prepare lawyers for 
major multinational corporations to defend arbitration awards, 
to defend the court and the nonpartisan service.
    Our commitment at the Supreme Court Institute is when 
lawyers make their best arguments, the Court can make its best 
decisions. And I think my engagement with a wide range of 
issues in the Supreme Court Institute, my personal involvement 
in helping to prepare lawyers, is always part of my background 
to help me prepare for the difficult and varied caseload of the 
DC Circuit.
    Senator Klobuchar. And also the different and varied 
ideology of some of the judges that serve on the court. I would 
think that that is going to be very important to be able to 
work with people with different views.
    Could I ask one question about one of your cases? During 
your time in the Solicitor General's office, you successfully 
argued a number of important cases on behalf of the United 
States. One case was Ornelas v. United States in which the 
Court, in an opinion by Chief Justice Rehnquist, agreed with 
the government's position that reasonable suspicion and 
probable cause required independent review in appellate courts 
in order to clarify precedent and afford law enforcement clear 
guidance as to when searches are appropriate.
    As someone who was in law enforcement for a number of 
years, what benefit do you think clear rules and guidance have 
for law enforcement officials?
    Ms. Pillard. The difficulty for front-line law enforcement 
officials is that they have to make quick decisions in a varied 
range of circumstances, often at personal peril and peril to 
the safety and the property of others. And one of the problems 
with a standard that does not involve appellate de novo review 
is that the body of decisions that create the examples, the 
more precise fact-based guidance does not develop as clearly.
    And so in consultation with the Criminal Division, the 
Government's position in that case was that it was going to be 
best and most helpful to law enforcement if there were 
definitive appellate guidelines on the legality of their 
actions in a wide range of settings, and that that would very 
much help them going forward.
    Senator Klobuchar [presiding]. All right. Thank you very 
much.
    Senator Cruz.
    Senator Cruz. Thank you, Madam Chairwoman. Professor 
Pillard, thank you for being here. Thank you for your 
testimony.
    I want to begin by underscoring the point that Senator Lee 
made a minute ago that I have real concerns about the nominees 
this administration is putting forward to the DC Circuit. The 
DC Circuit nominations to that court in partner have been 
politicized for a long time. The Democrats in the Senate 
repeatedly stopped qualified, excellent nominees to the court, 
including Peter Keisler, including, I think most indefensibly, 
Miguel Estrada, where a Democratic staffer put in a memo that 
the reason to stop Miguel Estrada, one of the top Supreme Court 
advocates in the country, was ``because he is Latino.'' And for 
that to be put in writing, to explicitly say we must not have a 
conservative Hispanic on the court I think was indefensible. 
And I have deep concerns about what the administration is doing 
now with a package of three nominees to the DC Circuit, after 
the Senate just confirmed a very qualified nominee to the DC 
Circuit, I believe is an attempt by this administration to pack 
that court because the DC Circuit has been one of the few 
restraints on government power exercised by the Obama 
administration.
    Now, those are all concerns that are extrinsic to you, but 
they are concerns about the nominations put forward by this 
administration.
    But I will confess, Professor Pillard, that I have concerns 
about your nomination. You have not served on the bench, and so 
we had a limited universe of materials by which to assess your 
judicial philosophy and the approach you would take to serving 
on the bench. The primary source we have is your academic 
writings, and those writings to me suggest that your views may 
well be considerably out of the mainstream. So I would like to 
ask you about some of those writings.
    I would like to first ask about an article you wrote in the 
Emory Law Journal in 2007 where you argued--and this is a 
quote--``The equal protection critique of abstinence-only 
curricula''--in schools--``is strengthened and rendered more 
amenable to judicial resolution by the fact that sex education 
classes are designed not only to expose students to ideas but 
also to shape behavior.''
    In that article, if I understand what you are saying 
correctly, you were arguing that if a State decides to teach 
abstinence only, that that decision by State and local 
officials, in your judgment, may well be unconstitutional and 
it is an appropriate role for a federal court to strike down a 
State or local government's decision to teach abstinence only. 
Is that indeed what you were arguing?
    Ms. Pillard. No, Senator Cruz. In that article--let me say 
first I am a mother. I have two teenage children, one boy and 
one girl. And if my children are being taught in sex education, 
I want both my children to be taught to say no, not just my 
daughter. I want my son to be taught that, too.
    The article was very explicit in saying I do not see any 
constitutional objection, justiciable or otherwise, to 
abstinence-only education that does not rely on and promulgate 
sex role stereotypes. So the concern I had in the article was 
with inequalities that might be contrary to a long line of 
established Supreme Court cases on the equality between men and 
women. That was the only constitutional concern that I 
identified in the article.
    In my view, the front line and in virtually every case the 
only people who are involved in developing curriculum are the 
local schools and the parents in the communities. That is 
absolutely under our constitutional system where the writing of 
curriculum resides. And when I talked in my article about what 
would make something more amenable to judicial review, it was 
because just prior to that I had said I do not think there is 
any settled law making any of this reachable by courts. And as 
we academics do, I said, you know, the argument that one would 
make to make it amenable by courts is the one you quoted.
    So it was in the context of saying this is--you know, there 
may be no doctrine even raising these, but this is a concern. 
This is an academic article. Academics are paid to, you know, 
test the boundaries and look at implications of things. As a 
judge, I would apply established law of the U.S. Supreme Court 
and of the DC Circuit and ensure----
    Senator Cruz. Professor Pillard, the arguments you have 
presented here today may well be sound policy arguments, why 
abstinence only should not be the curriculum, and I would fully 
expect a school board or a State legislature to consider those 
arguments, and that would seem to me an appropriate forum to 
make those arguments.
    What you stated in this Law Review article was not that as 
a policy matter school boards should not choose to do so; 
rather, it was that their decision to teach abstinence only may 
well be unconstitutional, and you explicitly said and that it 
is justiciable, that federal courts, the argument for them 
having the authority to set aside those decisions under the 
Constitution, you found strengthened and considerable. And I 
would note that I find that an extraordinary position, and if 
that is unconstitutional, it is hard to imagine what decisions 
are beyond the ambit of federal courts.
    Let me get to a second area because my time is rapidly 
expiring, and a second area of concern I have is the statements 
you have made concerning--in the Hosanna-Tabor case, and in 
particular, there the question was: What is a church's ability 
to control its own hiring? And in that case, you gave a 
September 2011 press briefing where you stated that the case 
against the church there strikes you as a ``strong case for the 
employee. The big news will be if the Court decides it for the 
church.'' And you stated the position that the church has a 
First Amendment right to choose who it hires was a 
``substantial threat to the American rule of law.''
    Now, that position, as you know, was rejected unanimously 
by the U.S. Supreme Court, and indeed, justice Elena Kagan, no 
conservative, described the position you articulated there when 
it was articulated by the Obama Justice Department as 
``amazing'' to suggest that the First Amendment does not 
protect a church's ability to choose, make its own hiring.
    Do you continue to hold those views?
    Ms. Pillard. Thank you, Senator Cruz. The Court has ruled--
and I am the first to admit that I called that case wrong. That 
was a case that commentators acknowledged was a difficult case 
going into the Court because, on the one hand, you had 
employees' ability to access the general rule of law system 
outside the church, and on the other hand, you had the church's 
claim to have the ability to have its own internal system. And 
it was--there were very strong competing interests on both 
sides, and the hard question was where to draw the line.
    I was wrong in my prediction about the way that case would 
come out, and I have no question about my ability to apply that 
precedent. In fact, I am grateful for the clarity that it 
provides in a difficult area. And I could apply that like any 
other precedent of the U.S. Supreme Court, were I to be 
confirmed to the DC Circuit.
    Senator Cruz. Thank you. My time has expired.
    Senator Klobuchar. Thank you very much.
    Senator Blumenthal has returned.
    Senator Blumenthal [presiding]. Thank you, Senator 
Klobuchar, for taking the Chair and also to my colleague, 
Senator Whitehouse, and thank you, Senator Cruz.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Professor Pillard, you argued Nevada v. Hibbs in which the 
Supreme Court upheld the Family and Medical Leave Act's 
application to States and their employees. I have a few 
questions about your role in that case.
    First, why did you get involved in that case?
    Ms. Pillard. Thank you, Senator Franken. I was asked to be 
considered as one of the candidates to be a volunteer lawyer to 
take that case as lead counsel in the U.S. Supreme Court, and I 
was very happy to be considered. And the client, after 
consultation with me and the other potential lawyers, chose me 
to represent him, and he was a Nevada employee working for the 
State of Nevada, and his wife, Diane, was critically injured in 
a terrible automobile accident. She had a neck injury that 
threatened her life, and he wanted to take time off from work 
to care for her. And he was fired from his job as a result of 
trying to exercise his rights under the Family and Medical 
Leave Act. And the State of Nevada took the position that he 
could not recover damages against the State because of its 
immunity, and the question turned on whether the Family and 
Medical Leave Act could validly apply to the State.
    And the Supreme Court, in a decision authored by then-Chief 
Justice Rehnquist, seemed to not have trouble finding that it 
could, it did apply to the State, and that was a case in which 
the U.S. Government was participating to defend the 
constitutionality of the federal law at issue in the case. So I 
had the opportunity to argue alongside the Assistant Attorney 
General in the Bush administration to the Supreme Court 
defending the constitutionality of that law.
    Senator Franken. So you were working alongside the Bush 
administration in this. What was that like?
    [Laughter.]
    Ms. Pillard. It was terrific. I work--as I mentioned, in 
the Supreme Court Institute I work with people from all across 
the spectrum, and the Assistant Attorney General in that case 
also happened to be a colleague and personal friend and a 
colleague from Georgetown Law who was on leave from the law 
center working as a lead lawyer in the Bush administration.
    Senator Franken. I did not expect to get a laugh on that.
    [Laughter.]
    Senator Franken. I was actually just asking.
    So what lessons did you draw from that case?
    Ms. Pillard. Maybe the same lesson that I drew from 
Hosanna-Tabor, which is do not ever predict how you think 
something is going to come out, because when I took the case, 
everyone said it was a real uphill battle, and I think it was 
very gratifying that the Court ruled.
    I ended up basing some of my academic work on the Chief 
Justice's opinion because he talks about the importance of the 
law not assuming that caregiving responsibilities are the 
province of women and that men have no desire or need for 
family leave, for example, to be offered to them on equal 
terms. So I was very, you know, pleased and interested in the 
ramifications of that opinion.
    And I also found it, as I find it in the Supreme Court 
Institute, extremely gratifying to find common cause with 
people who are often depicted in the news and in the public eye 
as having irreconcilable views. It just has not been my 
experience. I have had many times in my career, whether on the 
executive committee of the American Arbitration Association, 
where I work with general counsels from corporations and people 
from international law firm practices, and really from a wide 
range of perspectives, and I find it really gratifying to work 
on common projects that advance the public good, and I find it 
satisfying, and I found that satisfying also, working on the 
Hibbs case.
    Senator Franken. Well, we share that view, that it is 
satisfying to work with folks that some people outside think 
have irreconcilable views, but here in the Senate, we see time 
and time again where we do come together, and that is a great 
lesson to draw.
    You spoke about it influencing your academic work, and I 
think as we have seen in some of the questioning today, there 
is a difference between being a judge and being a professor. 
See, now, I expected the laugh on that one.
    [Laughter.]
    Senator Franken. And so I was just--what do you think that 
difference is? How is the work of a judge different from the 
work of a professor? And do you think you would have a hard 
time making that transition from being an academic to being a 
judge?
    Ms. Pillard. Thank you, Senator Franken. I have had many 
different aspects of my career, and the professor aspect is in 
some ways most different, because as a professor you are really 
called on to be provocative, to push the boundaries, to come up 
with novel theories. And, you know, I have also been a practice 
lawyer. I have also worked in government as a counselor. I have 
also worked as a teacher. And there are differences between and 
among all these roles. And the role of a judge is a very 
constrained one, and I appreciate that, in part because I have 
held very many different roles already, and each of them has 
its distinct features.
    But I would emphasize that the role of a judge is to put 
aside interests, values, policy objectives, experimental and 
novel theories, and to apply the law--the Constitution, the 
statutes, the regulations--to the case at hand and to do that 
as rigorously and meticulously as is possible.
    Senator Franken. Well, obviously, in arguing cases before 
the Supreme Court and other courts, you get a perspective on 
the judge's role because that is who you are arguing to.
    Do you have an overarching legal theory? Is there a Pillard 
doctrine that we should know about and that may or may not 
apply to being a judge?
    Ms. Pillard. Senator Franken, there is no Pillard doctrine. 
I would, in approaching the bench, emphasize three things: the 
attention to the record, the attention to the arguments of 
counsel, and the scrupulous application of existing and binding 
law to the facts of the case.
    I cannot overemphasize how important it is for an Article 
III judge to be intimately familiar with the factual record in 
a case. And I see this--you know, cases will come up, they will 
come through the institute, or they will come up when I was 
clerking, or they will come into the Solicitor General's 
office, and people think the case is raising such-and-such an 
issue. And when you get into the record and you delve down, 
sometimes you see there is no jurisdiction, or the issue that 
is raised actually is a different issue that is raised in the 
case. And as a judge who has limited power under Article III, 
there is nothing more important than knowing which issues are 
presented by the case and which issues are not.
    I think it is also important for a judge to be guided by--
have an open mind in reading--the briefs for both sides and an 
open and engaged attitude toward counsel at oral argument.
    And, finally, the role of the judge is to be a straight 
shooter, to apply the law that is in the precedents, the 
constitutional law, the statutory law, to the case at hand. And 
those would be, for me, my guides in being a faithful shepherd 
of the great historical legacy that we have as a country, which 
is our system, our system of courts.
    Senator Franken. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Franken.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman. Thank you, and I 
apologize for not being here earlier. I had another hearing. 
But let me just ask a general, very general question first, and 
then one specific.
    Do you believe that judges should look to the original 
meaning of the words and phrases in the Constitution when 
applying them to current cases?
    Ms. Pillard. Thank you, Senator. I certainly do, and I 
would be guided in methodological questions like originalism by 
the guidance of the U.S. Supreme Court. So, in effect, the 
precedents on method, I think, are equally binding on judges as 
the substance of the opinions themselves, and we have many 
Supreme Court opinions which direct us to look to the original 
intent. So absolutely, yes.
    Senator Flake. So you would look to determine original 
meaning, original intent, you would look to the Constitution, 
and where that is unclear, you look to current Supreme Court 
cases or precedent or those that have followed?
    Ms. Pillard. My understanding of my role as a judge would 
be that I would be bound by the precedents and the precedents 
that direct us to look at the original meaning.
    Senator Flake. Even if those--I caught a little of the 
questioning before, but where it seemed that your feelings seem 
to be at odds with what the Court had determined or you could 
not predict? Was that allowing your own feelings or just--we 
all predict elections and get them wrong all the time. But with 
a court case, it would--and hearing your answer to a previous 
question, it would seem that you felt that it ought to go the 
other way. But your application of the law has to be what 
precedent is, right?
    Ms. Pillard. Absolutely. I would have to check my feelings 
at the door and look at the Constitution, at the text, at the 
meaning, and at the precedents, absolutely.
    Senator Flake. In a footnote to your article titled, ``The 
Human Right to Sex Equality at the Work-Family Fault Line,'' 
you quote and seemingly agree with an author who said the 
``rights traditioned in the U.S. Constitution just seem to have 
run out,'' but there is ``promise in international human rights 
as a potential source for social rights in the United States.'' 
Is that a sentiment you agree with? And if not, why would you 
have footnoted it in an article that you wrote, seemingly 
favorably?
    Ms. Pillard. I do not adopt that. I cited several things in 
that article as illustrative of different points. The rights--
--
    Senator Flake. But that seemed to be in support of your 
conclusion in your article.
    Ms. Pillard. The article was arguing about the United 
States rights tradition, and it was speaking to a European 
audience in Switzerland, and I was trying to explain to them 
and compare for them the Nevada v. Hibbs decision and how it 
might relate to their traditions.
    The fundamental rights tradition in the United States is a 
domestically based constitutional tradition. In Europe, some of 
the systems are different. The United Kingdom Fundamental 
Rights Charter is adverting to international rights, and so the 
article was making comparison between our fundamental rights 
tradition--and another aspect of the Hibbs case that made it 
hard to describe and explain over there was that we have a 
federal system, not a national system, and so really the 
animating issue in the Hibbs case was the question of the 
limits on federal power and the Boerne v. Flores line of cases. 
And those are really alien concepts to the European audience. 
So, you know, in the article, I was endeavoring to make 
analogies between their rights traditions and our rights 
traditions.
    Senator Flake. So to be clear, you do not believe that 
there is a promise in international human rights as a potential 
source of social rights of the U.S. You would not look to other 
constitutions.
    Ms. Pillard. Not unless Congress would so legislate, no. I 
mean, if Congress thought that there were, you know, examples 
they wanted to draw from in the international human rights 
tradition, then I would say have at it. But, you know, my role 
as a judge would be to apply the American rights tradition as 
it is announced in positive law, be that in the Constitution or 
in statutes. That is right.
    Senator Flake. Well, thank you.
    Senator Blumenthal. Thank you, Senator Flake.
    Senator Grassley, did you want to ask any additional 
questions?
    Senator Grassley. I will submit some further questions for 
answer in writing. Thank you.
    Ms. Pillard. Thank you.
    Senator Blumenthal. I believe that concludes the 
questioning of our Committee this morning. Thank you very, very 
much for being with us today and answering these questions so 
candidly and forthrightly. I think you have made clear that the 
difference between a professorial role and a judicial role is 
one that you well understand and that citations or footnotes in 
articles do not necessarily mean adherence or support for the 
positions stated in those articles, and that, in fact, the 
articles that you have written are not necessarily going to 
influence your role as a judge, in fact, that you would adhere 
to precedents and statutes and the established principles of 
law as you know so well. So I think that point has been made 
clear, as well as your ability to separate yourself from past 
positions of advocacy, very important to this Committee and 
eventually to the courts.
    So thank you very much, Ms. Pillard, Professor Pillard, for 
being here today. Thank you to your family as well for joining 
you and for supporting you in this very arduous process. And 
with that, I believe you are excused. Thank you.
    Ms. Pillard. Thank you. It has been an honor to be here to 
answer your questions. Thank you so much.
    Senator Blumenthal. And as soon as we have a chance to put 
the name identifications in place, we will call forth the next 
nominee.
    [Pause.]
    Senator Blumenthal. We are going to come to order and begin 
the next portion of our hearing. Let me ask the nominees to 
please stand and raise your right hand. Do you affirm that the 
testimony you are about to give the Committee will be the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Justice Morris. I do.
    Judge Watters. I do.
    Mr. Meyer. I do.
    Ms. McCafferty. I do.
    Senator Blumenthal. Thank you. Please be seated. And I will 
invite each of you to make a brief opening statement. Feel free 
to identify the members of your family that are here. Justice 
Morris.

 STATEMENT OF HON. BRIAN MORRIS, NOMINEE TO BE DISTRICT JUDGE 
                  FOR THE DISTRICT OF MONTANA

    Justice Morris. Thank you, Mr. Chairman, Senator Grassley, 
for holding this hearing here today. It is my honor to be here.
    I first want to thank my colleagues on the Montana Supreme 
Court for their forbearance and patience as I go through this 
process and get distracted from the work of my day job. And I 
also want to recognize and thank my family who is here with me 
today: my beautiful wife, Cherche; and my middle son, Max, is 
here representing his four siblings. My daughter, Mekdi, was 
somehow--she traveled from Montana, was somehow persuaded a 
morning with the Domenici twins is more fun than watching me 
here testify. And my son, Willem, is home in Montana, along 
with his younger brother, Aiden. But they are here with me in 
spirit.
    [The biographical information of Justice Morris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
    
    
    Senator Blumenthal. Judge Watters.

  STATEMENT OF HON. SUSAN P. WATTERS, NOMINEE TO BE DISTRICT 
               JUDGE FOR THE DISTRICT OF MONTANA

    Judge Watters. Thank you, Chairman Blumenthal and Senator 
Grassley. I am also very honored to be here. I want to express 
my gratitude to President Obama for nominating me for this 
position and also my gratitude to Senator Baucus and Senator 
Tester, and thank Senator Baucus for his very kind words this 
morning.
    I am blessed to be here with my family also: my husband, 
Ernie Watters, and my daughters, Jessica Dunn and Maggie 
Kelleher. And it is true, they both have young children and 
jobs and so forth, and I did not expect them to be able to be 
here, and they flew in last night and surprised me, and I am 
very happy that they are here and able to share this with me. 
And I am very pleased that you were able to set up this hearing 
so quickly.
    Thank you very much.
    [The biographical information of Judge Watters follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
        
    Senator Blumenthal. Thank you.
    Mr. Meyer.

STATEMENT OF JEFFREY ALKER MEYER, NOMINEE TO BE DISTRICT JUDGE 
                FOR THE DISTRICT OF CONNECTICUT

    Mr. Meyer. Thank you, Senator. It is a particular honor to 
appear before you as Chairman in light of your remarkable 
career as perhaps Connecticut's foremost attorney in the 
practice and in the intellectual sphere in Connecticut before 
your Senate career and continuing.
    I am also very thankful to the Ranking Member, Senator 
Grassley, and to the entire Committee as well as to President 
Obama and for the faith that he has put into me in nominating 
me for this position.
    I have had so much support from family members. I have six 
brothers and sisters who have settled all across the United 
States. Some of my family have been able to come here, as well 
as two of my students and other supporters that I have had at 
both Quinnipiac and Yale Law Schools.
    As Senator Murphy indicated and you indicated, Mr. 
Chairman, my father, State Senator Ed Meyer, was able to come 
here. My mother could not be here, but my father has been just 
a great inspiration for me, especially as a lawyer, practicing 
lawyer, former Assistant U.S. Attorney, a legislator in both 
the States of New York and Connecticut in the area of public 
service.
    I am also joined by my daughter, Cara Meyer, a gifted 
chorale singer and now about to start her freshman year at Yale 
College; and my son, Zane Meyer, who is a gifted tap dancer, 
and he is about to start his freshman year of high school.
    And, finally, I would be remiss if I did not mention the 
love of my life, Linda Ross Meyer, who has joined me here today 
as well. Linda hails originally from Kansas, and she and I 
actually first met just across the street over at the U.S. 
Supreme Court when she was clerking for Justice Sandra Day 
O'Connor and I was clerking for Justice Blackmun. Today, July 
24, marks our 20th wedding anniversary, so it is especially an 
honor to be here.
    Senator Blumenthal. We are sorry to interfere with that 
important date.
    [Laughter.]
    Mr. Meyer. Thank you.
    Senator Blumenthal. But it will be memorable. And thank you 
for your kind words.
    [The biographical information of Mr. Meyer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Blumenthal. Ms. McCafferty.

STATEMENT OF LANDYA B. MCCAFFERTY, NOMINEE TO BE DISTRICT JUDGE 
               FOR THE DISTRICT OF NEW HAMPSHIRE

    Judge McCafferty. Thank you, Senator Blumenthal and Ranking 
Member Grassley, for having this hearing. It is an honor to be 
here.
    First, I would like to thank President Obama for the honor 
of this nomination. I would like to thank Senator Shaheen for 
her kind words today and for her trust in me in submitting my 
name to the President. I would also like to thank Senator 
Ayotte, who has been supportive of me as well.
    Today, I am lucky to have family members with me. My 
husband of 27 years, Patrick McCafferty, is here, along with ny 
two wonderful daughters: Maureen McCafferty, named for my 
mother-in-law. Maureen is 16 years old going into her junior 
year of high school. And Claire McCafferty is 11, both of whom 
have been very well behaved in the back and are sitting behind 
me. Claire is going into the sixth grade.
    Both of my parents are here today, and I am very lucky to 
have them both here. And my brother, Galen; my first cousin, 
Rob Householder, has come in from Canada; and my brother-in-
law, Terrence, has come down from New York City. I feel very 
honored to have them here with me today.
    Thank you.
    [The biographical information of Judge McCafferty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Blumenthal. Thank you all.
    I am going to yield to Senator Grassley for his questions 
before asking mine.
    Senator Grassley. Thank you for that courtesy.
    For you, Mr. Morris, you probably anticipated a question on 
your Supreme Court decision Western Tradition Partnership, and 
basically I am asking you to explain a position, but let me 
give some background where I am coming from.
    You joined a majority opinion that ignored the ruling of 
the Supreme Court, Citizens United. Dissenters from that 
opinion stated that although they preferred a different policy 
outcome, courts are obliged to follow the Supreme Court 
decision. Do not answer now, but the first question would be: 
Why did you not follow a clear Supreme Court precedent? And 
then I want to quote from a dissenting opinion: ``Whether we 
agree with the Supreme Court's interpretation of the First 
Amendment is irrelevant. In accordance with our Federal system 
of Government, our obligations here are to acknowledge that the 
Supreme Court's interpretation of the U.S. Constitution is, for 
better or for worse, binding on this court, on the officers of 
this court, to apply the law faithful to the Supreme Court 
ruling.'' But, further, ``When the highest Court in the country 
has spoken clearly on the matter of Federal constitutional law, 
as it did in Citizens United, the highest court in Montana is 
not at liberty to disregard or parse that decision in order to 
uphold State law. While politically popular, it is clearly at 
odds with the Supreme Court's decision.'' Why were you unable 
to join that view? Those are two questions that are very 
similar.
    Go ahead, please.
    Justice Morris. In the Western Tradition Partnership case, 
we faced a challenge to a Montana statute that had been on the 
books since 1917. It was constitutional at the time it was 
passed. The U.S. Supreme Court in the Citizens United decision 
made it clear that based on the record before them, the federal 
statute at issue was unconstitutional. It implied that there 
were circumstances that may be available when a restriction on 
spending may be appropriate where there is sufficient evidence 
of corruption.
    We looked at a different case than Citizens United. We 
looked at Western Tradition Partnership. The court examined the 
record in that case and the history of corruption in Montana 
that supported the passage of the statute in 1917 and 
determined that on that record that it could be held 
constitutional. We as a court have an obligation to uphold 
statutes of the legislature when possible when faced with 
constitutional challenges. We thought that given this record, 
there was a possibility that that statute could conform to the 
mandates of Citizens United. We obviously were wrong. The Court 
disagreed with us. They made it very clear to us. It is our 
obligation as a State court to follow Citizens United and as 
supplemented by the Western Tradition's reversal, and it would 
be my obligation as a federal judge to follow all precedents of 
the U.S. Supreme Court and the Ninth Circuit, if I were 
confirmed.
    Senator Grassley. I will have written questions for all of 
you because I only have time to ask each one of you one 
question.
    In 2008, Mr. Meyer, Jeffrey Meyer, you signed a letter to 
Governor Rell and members of the Connecticut General Assembly 
in support of repeal of the Connecticut death penalty. In 2011, 
you said that halting the repeal of the death penalty is 
``certainly our hope.'' Could you explain--well, could you 
please discuss your views on the constitutionality of the death 
penalty?
    Mr. Meyer. Well, Senator Grassley, the Supreme Court has 
authoritatively ruled that the death penalty is constitutional 
in most circumstances. If I have the honor to be confirmed as a 
federal district judge, I would apply the law that the Supreme 
Court has directed.
    My background with respect to the death penalty has 
principally involved the representation of Dr. William Petit, 
whose family was horribly murdered in Cheshire, Connecticut, in 
July 2007. I agreed to represent him, and in connection with 
the statement that you referenced, in 2011, I worked with him 
with respect to delaying the repeal of the death penalty in 
Connecticut as it would have intervened with and interfered 
with the ongoing trial of the second of the defendants who 
viciously murdered his family.
    So I would be prepared, if confirmed, to support the 
application of federal law and the Federal Death Penalty Act if 
I had a particular case come before me.
    Senator Grassley. Okay. Ms. Watters, in State v. Steglich 
you ruled that certain Montana criminal statutes requiring a 
witness to an accident to simultaneously remain at the scene of 
the accident and render any reasonable amount of assistance to 
those injured in the accident, you said that that was 
unconstitutional on the face and as applied. Would you explain 
how you approach cases challenging the constitutionality of a 
statute?
    Judge Watters. Thank you, Senator Grassley. Well, first, I 
approach those constitutionality issues from the position that 
the statute is constitutional and with an appreciation of the 
precedent that has been developed both in the State of Montana 
and the U.S. Supreme Court that statutes are presumed to be 
constitutional, and it is only in rare circumstances that they 
would be deemed not to be constitutional. And so that is how I 
approach issues with regard to constitutionality of the 
statutes.
    Senator Grassley. Ms. McCafferty, you spent a substantial 
portion of your career as an attorney in the New Hampshire 
Public Defender's Office. So the Committee, or at least I would 
like some assurance that you can give me that you will have no 
bias toward criminal defendants. And what has been your 
practice as a magistrate to ensure fairness to all parties?
    Judge McCafferty. Thank you, Senator Grassley. It is 
essential to the administration of justice that all people who 
come before a federal judge--any judge for that matter--feel as 
though they are treated fairly and impartially. And I am deeply 
committed to that principle. I was a public defender, as you 
mentioned, for many years. I was also a prosecutor as bar 
counsel for many years for the Supreme Court of New Hampshire. 
And in all my dealings with everyone, I abided by fair 
treatment to all. I care deeply about that. And as a magistrate 
judge for the past three years, I have treated everybody who 
has come before me--and, again, I have obviously the 
government's attorneys, I have federal defenders and defense 
lawyers, corporations, defendants, and it is the highest duty 
of a judge to treat everybody fairly and impartially, and I am 
committed to that, Senator.
    Senator Grassley. Let me thank you all, congratulate all of 
you, and let me ask you--or let me suggest that you respond to 
my questions in writing, and thank you for your courtesy.
    [The questions of Senator Grassley appear as a submission 
for the record.]
    Senator Blumenthal. Thank you very much, Senator Grassley.
    I want to ask each of you some general questions, but first 
to say how impressed I am with each of your distinguished 
backgrounds, your service, both public service and your service 
to your communities, and say that I really look forward to 
voting for you and supporting you. I think we are very, very 
fortunate to have people of your caliber willing to make the 
sacrifices. They are very real sacrifices that judges and their 
families make simply to go through this process, which is 
demanding in itself, as you know better than I.
    But let me ask just generally each of you--and you can 
answer in order, beginning with Justice Morris--are there any 
particular personal qualities or traits or judicial 
philosophies that you hope to emulate?
    Justice Morris. Well, I think one of the most important 
attributes of a judge is humility and recognizing that your 
role is simply to resolve a dispute between the parties 
presented to you and not to opine on issues of public policy or 
other things that may interest you and recognize the limited 
role you play in the process and to get a decision out as 
quickly as possible so that the litigants can get on with their 
lives.
    Judge Watters. Senator Blumenthal, I think that there are a 
number of qualities that I think are important for a judge. I 
think that a judge has to be scholarly in the law. I think that 
a judge's integrity has to be above reproach. And I think that 
a judge has to have a very, very strong work ethic. I know that 
the caseload in the Billings Federal District Court is very 
large, and there are a lot of trials, and so it will be 
important to make sure that that is managed well, and that will 
require a strong work ethic and a dedication to the job, which 
I will bring to that job if I have the chance to be confirmed.
    Senator Blumenthal. Thank you.
    Mr. Meyer. And, Senator I would agree with the values and 
virtues that my colleagues have indicated. My role models are 
many of the judges before whom I have appeared in the 
Connecticut Federal court, and including former Judge Mark 
Kravitz, who recently passed, whose qualities for intellectual 
acuity, fairmindedness, and general personal character were 
exemplary, exemplarily known both within Connecticut and 
nationally.
    Senator Blumenthal. Thank you.
    Judge McCafferty. I agree with all of my colleagues. I 
would say that the most important qualities are fidelity to the 
rule of law, an ability to be fair and impartial, and as Judge 
Morris said, humility is critical. And humility is critical 
because a judge's thinking must be tethered to the language of 
statutes and precedents, and a judge without humility is less 
likely to be tethered to those and is more likely perhaps to 
impose his or her biases or beliefs in a case. A judge with 
humility also is a judge who is more likely to have a 
temperament appropriate for the bench.
    My role models are many. In my opinion, the Article III 
judges that I currently work with are really the gold standard 
of those principles, and I am very fortunate to be joining, if 
I am so lucky to be confirmed, that court.
    Senator Blumenthal. Let me ask all of you the next 
question, which has been somewhat anticipated by the answers 
given by two of the nominees. Who would be the judge or 
justices whom you most admire who you would seek to use as your 
model of service on the bench? Why don't we begin again--and 
there does not need to be a single one, or you can duck the 
question entirely if you----
    [Laughter.]
    Justice Morris. I would identify two. I had the privilege 
of serving up close as a law clerk for Chief Justice Rehnquist 
and for Justice O'Connor. I always admired Chief Justice 
Rehnquist, the way he operated the Court and managed the 
caseload and approached deciding cases. I had the opportunity 
to have many discussions with him over the course of that year.
    And I also admired Justice O'Connor for her knowledge in 
particular of issues of significance of those in the West, such 
as American Indian law or water law.
    Senator Blumenthal. Thank you.
    Judge Watters.
    Judge Watters. I do not know that I could state a 
particular judge or justice that I would necessarily emulate, 
other than, I think, as I stated in my previous answer, I have 
been in front of a number of judges when I was a practicing 
attorney, and having been on the bench for over 15 years now. I 
just think it is very important for a judge to be a good 
listener, for those who appear before the judge in the 
courtroom to feel like they have been heard, and that the judge 
will give their positions the consideration that they deserve, 
that the judge does, in fact, look at each side of each issue 
and decide those issues according to the precedent and the 
statutes, and that the judge decide only those issues before 
her and that she try to do that in a very timely manner. And 
that would be what I would try to do and what I have tried to 
do in my career as a State district court judge and what I 
would continue to try to do if I am so lucky as to be 
appointed.
    Mr. Meyer. Well, Senator, I could mention just about any of 
the judges and magistrates of the U.S. District Court in 
Connecticut. I would identify perhaps just three just because I 
happened to have extended criminal trials as a prosecutor 
before them.
    One would be Chief Judge Alvin Thompson, who exemplifies, 
in my view, the model of intellectual engagement and humility 
and quiet calm in the courtroom.
    A second would be Senior Judge Ellen Bree Burns, who 
continues to work as a senior judge in the district court, and 
she exemplifies a sense of wisdom and equanimity in the way 
that she conducts her courtroom proceedings.
    And the third would be Judge Janet Arterton, who has 
extreme intellectual rigor in all that she does and also runs a 
very crisp courtroom and efficient control of her docket.
    Those are just three of the judges that I would mention.
    Judge McCafferty. I had the good fortune, when I graduated 
from law school, to clerk for Judge Norman H. Stahl. He was on 
the Federal District Court in New Hampshire when I started 
clerking for him, and then he moved up to the First Circuit, so 
I spent a year on both with him. He has been an inspiration to 
me. He is dedicated to the rule of law. He has an innate sense 
of fairness. He has a humble heart. And he has a real 
dedication to public service that has been an inspiration to 
me, and I will try to emulate him.
    Senator Blumenthal. Thank you.
    Let me ask a question, again of all of you, which I think 
is important. Do you have any personal views that would make it 
impossible, any beliefs that go to the core of who you are, 
either your religious faith or any other beliefs that would 
make it impossible for you to follow precedents or decisions of 
the U.S. Supreme Court or the appellate courts?
    Justice Morris. I do not.
    Judge Watters. No, I do not.
    Mr. Meyer. No, I do not.
    Judge McCafferty. I do not.
    Senator Blumenthal. And do any of you disagree so strongly 
with any of those precedents or decisions of the higher courts, 
higher than the one on which you will hopefully serve, that 
would make it impossible for you to follow those precedents?
    Justice Morris. I do not, not even the Citizens United 
case.
    [Laughter.]
    Judge Watters. No, I do not.
    Mr. Meyer. No.
    Judge McCafferty. No, Senator Blumenthal.
    Senator Blumenthal. Thank you. As I mentioned, I hope that 
we will deal expeditiously with your nominations. I hope that 
they will be voted favorably by this Committee as promptly as 
possible. We need judges in each of the districts that you have 
been nominated to serve, and, again, I just want to add my 
thanks to you and your families for your willingness to 
undertake this very profoundly important obligation. Each of 
you, as I know well from my own practice in the courts, both as 
a prosecutor and as a private attorney, are for many of our 
litigations the ultimate source of justice in the federal 
courts, and your voice and face, the personal traits that you 
have described, will have an enduring and profound impact on 
each of those litigants, not only in their lives but how they 
regard the quality of justice in this country.
    So, again, my thanks to each of you, and I look forward, if 
I am ever allowed back in the courtroom, to perhaps appearing 
before you in your new roles. Thank you very much.
    We are going to keep the record open for one week in case 
any of my colleagues have written questions that they wish to 
submit, and with that, this hearing is adjourned. Thank you.
    Justice Morris. Thank you.
    Judge Watters. Thank you.
    Mr. Meyer. Thank you.
    Judge McCafferty. Thank you, Senator.
    [Whereupon, at 12:13 p.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
   HON. ROBERT LEON WILKINS, OF THE DISTRICT OF COLUMBIA, NOMINATED TO BE 
CIRCUIT JUDGE FOR THE DISTRICT OF COLUMBIA CIRCUIT; TIMOTHY L. BROOKS, 
OF ARKANSAS, NOMINATED TO BE DISTRICT JUDGE FOR THE WESTERN DISTRICT OF 
 ARKANSAS; JAMES DONATO, OF CALIFORNIA, NOMINATED TO BE DISTRICT JUDGE 
 FOR THE NORTHERN DISTRICT OF CALIFORNIA; HON. BETH LABSON FREEMAN, OF 
CALIFORNIA, NOMINATED TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
   CALIFORNIA; AND HON. PEDRO A. DELGADO HERNANDEZ, OF PUERTO RICO, 
     NOMINATED TO BE DISTRICT JUDGE FOR THE DISTRICT OF PUERTO RICO

                     WEDNESDAY, SEPTEMBER 11, 2013

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse, presiding.
    Present: Senators Whitehouse, Feinstein, Franken, Grassley, 
and Lee.
    Senator Whitehouse. This hearing will come to order. We are 
here to consider the nominations of Robert Leon Wilkins, to be 
United States Circuit Judge for the District of Columbia 
Circuit; and in a second panel, for Timothy Brooks, James 
Donato, Beth Freeman, and Pedro Delgado Hernandez, to be United 
States district judges.
    I think that what I will do--I believe that Senator Cardin 
is here to speak for Mr. Wilkins, and I think the other 
Senators are for the district judges, so let me proceed with 
Senator Cardin right now. And we will recess this hearing 
briefly at 10:05, in just a few minutes, for a moment of 
silence coincident with the moment of silence that will be held 
on the Senate floor in memory of the victims of the 9/11 
attack, and in my view, in specific gratitude to those on 
United Airlines Flight 93, whose individual heroism has 
probably been the thing that allows us to have this hearing in 
this building, which might not otherwise be here.
    So, Senator Cardin, if I rap the gavel during your remarks, 
that is why, and we will just have a moment of silence and then 
continue. Senator Cardin.

  PRESENTATION OF ROBERT LEON WILKINS, NOMINEE TO BE CIRCUIT 
JUDGE FOR THE DISTRICT OF COLUMBIA CIRCUIT, BY HON. BENJAMIN L. 
       CARDIN, A U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Well, thank you, Senator Whitehouse, 
Senator Grassley. It is a pleasure to be back before the Senate 
Judiciary Committee, where I have very fond memories. So it is 
good to be back, and I am glad to be here on behalf of Judge 
Robert Wilkins for the DC Circuit. Mr. Chairman, I would ask 
that my entire statement be made part of the record.
    Senator Whitehouse. Without objection.
    Senator Cardin. Let me explain why I am here as a Maryland 
Senator for Robert Wilkins, who is a resident of the District 
of Columbia.
    Senator Whitehouse. I am sorry to interrupt. They have 
started the moment of silence on the floor.
    [Moment of silence.]
    Senator Whitehouse. All right. Thank you. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Chairman, as I pointed out, I am here on behalf of a 
resident of the District of Columbia, Judge Wilkins, for 
several reasons.
    First, as I know everyone here is aware, the residents of 
the District do not have resident Senators, but the District is 
the former land of Maryland, so the Maryland Senators take 
special interest in the residents of the District of Columbia. 
And I could not be more proud to be here on behalf of Judge 
Wilkins.
    Judge Wilkins also has another direct connection to the 
State of Maryland that I think typifies his commitment to 
public service. He was the plaintiff in the civil lawsuit 
Wilkins v. Maryland. Judge Wilkins was a victim of racial 
profiling, and he decided to do something about it, and he 
joined in legal action against the Maryland State Police. And 
as a result of that legal action, there were landmark consent 
judgments entered into that have been the basis of effective 
action to deal with racial profiling. That lawsuit inspired 
President Clinton's Executive order and action by over half of 
our States to deal with the problems of racial profiling, and I 
am hopeful that the Congress will take up S. 1038, the End 
Racial Profiling Act.
    My point is that Judge Wilkins saw an injustice, stepped 
forward to do something about it, and was effective in 
developing a strategy to help all the people of this country.
    Judge Wilkins, I want to thank you, I want to thank your 
family for your commitment to public service and your 
willingness to step forward for this very important position on 
the DC Circuit.
    Judge Wilkins has an excellent record of academic 
achievement, his public commitment, and community service. He 
is a native of Muncie, Indiana. He attained his B.S. cum laude 
of chemical engineering from Rose-Hulman Institute of 
Technology and a J.D. from Harvard Law School. Following 
graduation, Judge Wilkins clerked for the Honorable Earl B. 
Gilliam of the U.S. District Court for the Southern District of 
California. He later served as staff attorney and head of 
special litigation for the Public Defender Service for the 
District of Columbia. He then practiced as a partner in Venable 
specializing in white-collar defense, intellectual property, 
and complex civil litigation before taking the oath as a judge 
on the district court for DC. The ABA has given him its highest 
recommendation unanimously.
    Judge Wilkins also has a very distinguished record of 
community service. He played a key role in the passage of the 
federal statute establishing the National Museum of African 
American History, and then he has worked tirelessly to see that 
law implemented and continues in his interest to see that to 
fruition.
    Judge Wilkins continues his pro bono work to this day. He 
currently serves as the court liaison to the Standing Committee 
on Pro Bono Legal Service of the Judicial Conference of the DC 
Circuit. To me, he has demonstrated his commitment to carrying 
out the oath of a judge to provide justice to all, regardless 
of their financial ability.
    As a U.S. District Judge for the District of Columbia since 
2011, Judge Wilkins has presided over hundreds of civil and 
criminal cases, including both jury and bench trials.
    Mr. Chairman, we have already vetted this nominee, we have 
already voted on this nominee when we approved him for the DC 
District Court. He is eminently qualified. We are very 
fortunate for his willingness to continue to serve the public 
now in this critical appointment on the DC Court of Appeals. I 
would urge the Committee to favorably recommend his 
confirmation to the U.S. Senate.
    [The prepared statement of Senator Cardin appears as a 
submission for the record.]
    Senator Whitehouse. Thank you, Senator Cardin. We 
appreciate your statement of support.
    And we are very honored to have Senator Feinstein, a senior 
Member of this Committee, here. Senator Feinstein is the 
Chairwoman of the Senate Intelligence Committee, so as you can 
imagine, she has been working terrifically hard in the past 
days and weeks as the serious situation has emerged, and we are 
grateful that she has the time to come to this hearing. I will 
recognize her now, because the press of other business will 
take her away from us after that. Senator Feinstein.

PRESENTATION OF JAMES DONATO, NOMINEE TO BE DISTRICT JUDGE FOR 
 THE NORTHERN DISTRICT OF CALIFORNIA, AND BETH LABSON FREEMAN, 
   NOMINEE TO BE DISTRICT JUDGE FOR THE NORTHERN DISTRICT OF 
 CALIFORNIA, BY HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Well, thank you very much, Senator 
Whitehouse, and thank you for the very nice comments. I would 
like to speak very briefly on two distinguished nominees to 
serve on the Northern District of California.
    I think as most people know, the way I do these judgeships 
is that we have a bipartisan screening committee of attorneys 
on both sides, Democratic and Republican, in the State. And 
people submit their applications directly to these screening 
committees. They screen, they vet, and they make a 
recommendation to me, and that is how both of these nominees 
came about. Each one of them would fill a long-time judicial 
emergency vacancy on the Northern District of California, which 
has a caseload that is actually 24 percent above the Nation's 
average.
    Let me begin with Judge Beth Freeman, who is sitting in the 
first row on my right. It is my understanding that her husband, 
William, her brother-in-law, David, and other family members 
and friends are here to support her today, and I would like to 
take the opportunity to say welcome to the heat in more than 
weather in Washington.
    Judge Freeman graduated from the University of California 
at Berkeley in 1976 and Harvard Law School in 1979. She spent 
four years in private practice at two law firms, after which 
she began a career in public service by joining the San Mateo 
County Counsel's Office. She served as deputy county counsel 
for 18 years, from 1983 to 2001, representing county agencies 
and school districts in State and federal courts. In the County 
Counsel's Office, she tried more than 200 cases.
    In 2001, she was appointed to the San Mateo Superior Court 
by the then-governor. She has presided over more than 1,000 
trials, including over 150 jury trials, and she has substantial 
experience hearing both civil and criminal cases.
    She has earned the deep respect of her colleagues who 
elected her assistant presiding judge in 2008 and presiding 
judge in 2010. And in the interest of full disclosure, my 
daughter called me last night and said, ``I hope you are nice 
to my friend, Judge Freeman.'' My daughter is newly retired as 
the presiding judge in San Francisco.
    Throughout 2011 and 2012, she led the San Mateo Court as 
presiding judge while deep judicial budget cuts were forcing 
severe cuts in judicial services, including courtroom closures 
and furloughs all across the State of California.
    She is active in her community. She served as president, 
director, and secretary of the Junior Statesmen Foundation. She 
has also served as president of Peninsula Temple Beth El. I 
believe Judge Freeman will make an outstanding addition to the 
federal bench in San Jose.
    Now let me turn to Jim Donato. His wife, Rhonda, and his 
daughter, Isabella, are here today, and I want to welcome them 
as well. I saw your smile, so I figured out who you are.
    Jim Donato earned his B.A. also from UC-Berkeley in 1983, 
his master's also from Harvard in 1984, and his law degree from 
Stanford in 1988. Obviously, Stanford is preferable. He was a 
senior editor of the Stanford Law Review. Following law school, 
he clerked for Judge Procter Hug on the Ninth Circuit Court of 
Appeals.
    In 1990, he joined the law firm of Morrison & Foerster, 
where he worked as an associate from 1990 to 1993. He then 
joined the city attorney's office in San Francisco, where he 
served from 1993 to 1996 as a deputy city attorney in the trial 
division. In his role, Mr. Donato was responsible for defending 
San Francisco and its employees against civil claims, including 
Section 1983 claims against police officers.
    In 1996, Mr. Donato returned to private practice, joining 
the law firm Cooley LLP, where he ultimately became a partner. 
In 2009, he joined the law firm Shearman & Sterling LLP as a 
partner. His work in private practice has focused on civil 
litigation in a variety of complex fields, including antitrust, 
unfair competition, trademark, and copyright law. He has been 
trial counsel in 10 cases, including a recent federal antitrust 
case.
    Mr. Donato has published several articles on topics related 
to business litigation, including antitrust law, electronic 
discovery, and class action trials. He has also given back to 
the legal profession, serving with the Bar Association of San 
Francisco for many years, including as president in 2008. He 
has been named a Northern California Super Lawyer every year 
since 2004, and he has been an elected member of the American 
Law Institute since 2000.
    He also is involved in his community, serving on the Parish 
Council of Newman Hall, Holy Spirit Parish, at UC-Berkeley, and 
as a director of the Berkeley Symphony.
    I believe that Jim Donato's education, experience, and 
background in complex civil cases will be a great credit to the 
bench in Northern California, where we have many of these, 
which has--actually, the docket is 85 percent of those cases, 
civil cases.
    Let me conclude by saying that these two outstanding 
nominees bring strong qualifications and experience to two 
judicial emergency vacant positions in the Northern District, 
and I hope both the Chairman here as well as the distinguished 
Ranking Member of this Committee will see fit to move them on 
as rapidly as possible.
    I thank you for your courtesy, Senator Whitehouse.
    Senator Whitehouse. Thank you, Senator Feinstein, and I 
know you have to leave.
    Senator Feinstein. Thank you.
    Senator Whitehouse. If Senator Boozman will indulge me for 
a moment, I will recognize our colleague from the other side of 
the building, Representative Pierluisi, who has been waiting 
patiently for a while. Representative Pierluisi.

PRESENTATION OF HON. PEDRO A. DELGADO HERNANDEZ, NOMINEE TO BE 
 DISTRICT JUDGE FOR THE DISTRICT OF PUERTO RICO, BY HON. PEDRO 
   R. PIERLUISI, RESIDENT COMMISSIONER IN CONGRESS FROM THE 
                  COMMONWEALTH OF PUERTO RICO

    Representative Pierluisi. Thank you. Senator Whitehouse, 
Ranking Member Grassley, and Members of the Committee, I am 
honored to be here on behalf of the 3.6 million U.S. citizens 
of Puerto Rico to introduce Judge Pedro Delgado Hernandez, who 
has been nominated by the President to serve on the U.S. 
District Court for the District of Puerto Rico.
    Because Puerto Rico does not have U.S. Senators, I am 
grateful to the Committee for extending me, a Member of the 
House, an invitation to appear this morning.
    I have known Judge Delgado Hernandez for longer than either 
he or I would like to admit. Indeed, when I was serving as 
Attorney General of Puerto Rico in the early 1990s, he was 
nominated and confirmed as the territory's Solicitor General. 
Two decades later, I am particularly pleased and, indeed, 
rather moved to introduce him to this prestigious Committee now 
that he has been nominated for a lifetime appointment on the 
federal bench.
    I believe that Judge Delgado Hernandez is an outstanding 
nominee. Based on his wide-ranging professional experience, his 
first-rate academic record, his sound judgment, his even 
temperament, and his passion for public service, Judge Delgado 
Hernandez is well prepared to handle the complex criminal and 
civil cases that would come before him.
    Born and raised in Puerto Rico, Judge Delgado Hernandez 
received his undergraduate and law degrees from the University 
of Puerto Rico. He served as an editor of the Law Review, 
graduated magna cum laude, and earned the award given to the 
student with the highest GPA in criminal law.
    Following law school, Mr. Delgado Hernandez served as a law 
clerk to the Honorable Juan Torruella in his capacity as Chief 
Judge of the U.S. District Court of Puerto Rico and then as a 
newly minted judge on the U.S. Court of Appeals for the First 
Circuit.
    After his clerkship, Judge Delgado Hernandez worked as an 
associate and later as a partner at one of Puerto Rico's most 
prestigious law firms.
    In 1993, Mr. Delgado Hernandez became Solicitor General of 
Puerto Rico, representing the Government of Puerto Rico in 
appellate matters.
    In 1995, he was confirmed as a judge on the Puerto Rico 
Court of Appeals where he dealt with the full range of criminal 
and civil matters.
    Judge Delgado Hernandez subsequently returned to private 
practice where he specializes in labor and employment law and 
has served as outside counsel to the Puerto Rico Elections 
Commission.
    Judge Delgado Hernandez is also highly respected within the 
legal community in Puerto Rico for his knowledge of national 
law and ethics matters. If confirmed by the Senate, I am 
confident that Mr. Delgado Hernandez will work tirelessly to 
dispense justice based on the facts of the case at hand and 
free from any prejudice.
    I hope this Committee will support his nomination. Thank 
you very much.
    Senator Whitehouse. Thank you, Representative. We 
appreciate very much that you have taken the trouble to come 
across the building to us.
    I will now recognize my friend and colleague, Senator 
Boozman.

PRESENTATION OF TIMOTHY L. BROOKS, NOMINEE TO BE DISTRICT JUDGE 
 FOR THE WESTERN DISTRICT OF ARKANSAS, BY HON. JOHN BOOZMAN, A 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you very much, Senator Whitehouse, 
Senator Grassley, the rest of the Committee, for allowing me to 
be here and to speak at this important hearing today. I am very 
proud to be here to support Timothy L. Brooks' nomination as 
United States District Judge for the Western District of 
Arkansas. His extensive experience and impressive background 
unanimously qualify him for the position of district judge.
    Born in Detroit, Michigan, in 1964, Tim is now a 
wholehearted Razorback, which is important in our State. He 
graduated from the University of Arkansas with an undergraduate 
degree in 1986, went on to receive his J.D. from the University 
of Arkansas School of Law, where he graduated cum laude, was a 
published member and research editor of the Arkansas Law 
Review, and a first-place winner in both negotiation and client 
counseling competitions.
    During law school, Tim became a law clerk with Taylor Law 
Partners, located in Fayetteville, Arkansas. Upon graduation, 
he was retained by Taylor Law Partners as an associate. Tim 
became a partner at the Taylor Law Partners in 1993. While 
Taylor Law Partners has a diverse general trial practice, Tim's 
specific expertise has been focused on litigation encompassing 
workers' compensation claims, personal injury matters, Social 
Security disability, domestic relations, criminal defense, 
corporate transactional matters, and commercial litigation. 
Presently, his scope of work is more narrowly focused on 
complex civil litigation with an emphasis on commercial cases 
and medical malpractice.
    Tim has an extensive courtroom experience involving both 
jury and non-jury trials. He has also accrued experience in 
alternative dispute resolution and bringing cases before the 
Arkansas Workers' Compensation Commission. In addition, since 
2011, Tim has served as a member of the Arkansas Supreme Court 
Committee on Model Jury Instructions-Civil. The committee is 
tasked with the responsibility to review and analyze recently 
released appellate court decisions, statutes, and other legal 
authority to create or revise model jury instructions to 
accurately reflect the current state of Arkansas law.
    An active member of his community, Tim is a volunteer 
lawyer for Ozark Legal Services and Arkansas Legal Aid, has 
served as counsel to the Junior League of Northwest Arkansas, 
and has taken a number of cases on a pro bono basis in order to 
assist those less fortunate with their legal battles.
    In addition, he and his wife, Mary Beth, are well-respected 
members of the legal and business communities in and around 
northwest Arkansas, as well as members of the Century United 
Methodist Church in Fayetteville, the Public Education 
Foundation, Northwest Arkansas Community Foundation, and the 
United Way.
    In the multitude of support letters on his behalf, I have 
read of Tim's trustworthiness, commitment to the legal 
profession, and dedication to his clients. He is a well-
experienced and highly knowledgeable attorney whose reputation 
is untarnished. There is no hesitation or lack of confidence to 
be found amongst his peers and clients.
    One of the most important things that we do in the Senate 
is the confirmation of judges, the process of selecting people 
with the right temperament and qualifications. I believe Tim 
Brooks will do an excellent job and that we will be proud of 
his future service on the bench. I congratulate him on his 
nomination and strongly support his confirmation.
    Thank you.
    Senator Whitehouse. Thank you very much, Senator Boozman.
    It is now my pleasure to recognize the Senator's colleague, 
Senator Mark Pryor, whose very distinguished service as the 
Attorney General of his home State makes his remarks here 
particularly welcome and weighty. We former Attorney Generals 
have to say that about each other.
    Senator Pryor. Exactly.
    [Laughter.]
    Senator Whitehouse. But in the case of Senator Pryor, it is 
actually true. Senator Pryor, please.

PRESENTATION OF TIMOTHY L. BROOKS, NOMINEE TO BE DISTRICT JUDGE 
FOR THE WESTERN DISTRICT OF ARKANSAS, BY HON. MARK L. PRYOR, A 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Pryor. Thank you, and I appreciate all of you all 
for being here today and all the Members of the Judiciary 
Committee.
    I am here to introduce Timothy L. Brooks of Fayetteville, 
and I also want to pay special tribute and thanks to his family 
and friends who came to DC today.
    I also want to thank Senator Boozman. He and I partnered on 
this, and I think he would agree that we have a lot of very 
qualified people, but very quickly you saw the legal and 
business community and this community at large rally around Tim 
Brooks because he just brings so much to the table.
    I was certainly proud to nominate him, and I am honored to 
share his qualifications or at least some of his qualifications 
with the Committee today.
    When I look at judges and think about who ought to be a 
federal judge, I think of three things: First, is that person 
qualified? Second, do they have the proper judicial 
temperament? And, third, do they have the ability to be fair 
and impartial? And not only does Tim pass these three, he 
exceeds all three in many different ways. And, again, I have 
heard from around the business and legal community in his home 
parts of Arkansas, and they will tell you that he passes all 
three with flying colors.
    He is a partner at the Taylor Law Partners there in 
Fayetteville, which is a well-established firm. He has been 
there for 24 years. He became a partner in 1993.
    One of the things that I like about Tim is that he does not 
have one area of practice and that is it. He does a lot of 
different things. And he does some plaintiffs' work; he does 
some defense work. He does a lot of complicated legal 
representation. He is oftentimes in federal court, but he has 
also been in State court quite a bit. So just that experience 
in the courtroom with clients, trying to work through very 
complicated legal issues, really will make him an outstanding 
federal judge.
    He did get two degrees, his undergraduate degree and his 
law degree, from the University of Arkansas. Go, Hogs, right? 
And also he was on the Arkansas Law Review. And, you know, it 
is not just the fact that he has excelled in the courtroom, 
which he has, but also he is rated as AV Preeminent by the 
Martindale-Hubbell Peer Review Service. Again, peer review. His 
colleagues think a lot of him. And the other thing that he has 
done--and Senator Whitehouse can relate to this, I am sure--is 
that in our State we have a committee that the State Supreme 
Court appoints to periodically update the Model Jury 
Instructions, and he is on the Model Jury Instruction 
Committee-Civil in Arkansas. And believe it or not, that is 
like being on law review, and that takes a lot of work, because 
they have these monthly meetings, and they are constantly 
looking at the decisions that the various Arkansas courts have 
made.
    So he is obviously a member of the Arkansas, the American, 
and the Washington County Bar, and he also--and Senator Boozman 
said this a few moments ago--does a lot of pro bono work, but 
that also includes a pretty large number of representing 
indigent clients, which is important to the legal profession.
    I remember at one point I was talking to Tim about what a 
federal judge should be, and he said, ``All parties, regardless 
of their socioeconomic position, seek the same thing: that 
justice be done to their cause in a fair and impartial 
manner.'' I think that is exactly the attitude we want to see 
in our federal judiciary, and we have a vacancy here in the 
Western District of Arkansas, and Tim Brooks is certainly an 
asset and will be an asset to the federal judiciary in Arkansas 
and around the country, and I wholeheartedly support his 
nomination.
    So, again, I want to thank the Committee for having me 
today. Thank you very much.
    Senator Whitehouse. Thank you, Senator Pryor. It is welcome 
to this Committee to see you and Senator Boozman side by side 
supporting this nominee, and I hope that augurs for a swift and 
uneventful confirmation. Thank you both very much for being 
here. I know you have pressing business, and you are excused.

 OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The manner in which we will proceed now 
is for myself and the distinguished Ranking Member Senator 
Grassley to make opening statements. Judge Wilkins will be our 
first panel of one, and he is welcome to take his seat at the 
witness table, and we will recognize him very shortly. And at 
the conclusion of Judge Wilkins' remarks, we will have five-
minute round for any questions that the Members present may 
care to ask.
    Then we will call up the second panel of nominees, the 
nominees to the district courts, and once again have five-
minute rounds of questions for all the Members who are here.
    We gather in a serious way for these hearings because 
voting to confirm an individual to the federal bench is one of 
the most important and lasting decisions that a Senator can 
make. Every day we see federal judges make decisions that 
affect the lives of Americans in all walks of life in many 
important respects.
    As they have that effect in the lives of ordinary 
Americans, it is very important that judges respect the role of 
Congress as the duly elected representatives of the American 
people; that they decide cases based on the law and the facts; 
that they not prejudge any case but listen to every party that 
comes before them; that they respect the precedent that comes 
from higher courts; and that they limit themselves to the 
issues that the court properly must decide. I hope that each 
judicial nominee who we hear from today understands the 
importance of those principles.
    Judicial nominees also must have the requisite legal skill 
and reputation to serve as a federal judge. Each of today's 
nominees has a very impressive record of achievement. As a 
result, I believe and hope that each nominee will receive 
prompt consideration. We certainly need good judges for our 
system of justice to function, and I think it is fair to say 
that around the world people look to America's system of 
justice as a model to be aspired to. So it is important for us 
to promptly confirm qualified members to these important 
positions.
    [The prepared statement of Senator Whitehouse appears as a 
submission for the record.]
    Senator Whitehouse. And, with that, I will turn to my very 
distinguished Ranking Member, Senator Grassley of Iowa.

 OPENING STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM 
                       THE STATE OF IOWA

    Senator Grassley. I join you, Mr. Chairman, in welcoming 
our nominees who are here today with their families and 
friends. It is a milestone in each of the nominees' careers and 
a proud moment for their family and friends.
    Today, of course, is also a somber anniversary of our 
Nation's history as we remember the tragic events of 9/11 and 
the lives that were lost. It also reminds us of the importance 
of the rule of law and the liberty we enjoy.
    Today's hearing is the 12th judicial nominations hearing 
this year, during which we will have considered a total of 38 
judicial nominees. That is a pretty remarkable pace. It is 
especially quick when compared to the pace of the first year of 
President Bush's second term. At this stage in that term, the 
Committee had only three hearings and five nominees. In fact, 
for the entire year of 2005, the Judiciary Committee held only 
seven hearings for a grand total of 18 judicial nominees. And 
so compare that to the 12 hearings and 38 nominees this year.
    Judge Wilkins, you are currently serving on the U.S. 
District Court for the District of Columbia, and I thought 
maybe we would have the usual debate about the statistics of 
the district court. And since you did not bring that up, I am 
going to put my statement in the record, but I would like to 
make the audience----
    Senator Whitehouse. And I will put mine in, too.
    [Laughter.]
    Senator Grassley. But I would like to make Judge Wilkins 
aware of the fact that we have this debate going on between the 
two political parties of whether or not we need the additional 
judges beyond the eight that are already there, and I have all 
sorts of statistics, and he will have countering statistics. I 
will put those in the record. I would appreciate your reading 
them, and anybody else that is interested, and just so you know 
that this is a debate that is beyond you as an individual, 
although it could impact you, whoever wins that debate.
    But the way I see it, my case that I make in my remarks I 
am putting in the record is that we have the lowest caseload of 
any of the districts and we do not need more judges. But we 
will leave that for another day.
    Senator Whitehouse. Very good, and the Ranking Member's 
full statement in that regard will, of course, be made a part 
of the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Senator Whitehouse. Judge Wilkins, if I could ask you to 
stand and be sworn, please. Do you affirm that the testimony 
you are about to give before this Committee will be the truth, 
the whole truth, and nothing but the truth, so help you God?
    Judge Wilkins. I do, sir.
    Senator Whitehouse. Thank you. Please be seated. And I 
understand that you have family with you who you might wish to 
recognize, and let me allow you that opportunity. Please 
proceed. And let me add my personal welcome to them as well.

 STATEMENT OF ROBERT LEON WILKINS, NOMINEE TO BE CIRCUIT JUDGE 
              FOR THE DISTRICT OF COLUMBIA CIRCUIT

    Judge Wilkins. Thank you, Senator Whitehouse. Yes, I do 
have my family here. All the way to my far left is my mother, 
Joyce Wilkins, who is here from Muncie, Indiana; and next to 
her is my dear wife of 18 years, Amy ``Amina'' Wilkins; and my 
two sons here behind me and to my right, Alim Wesley Wilkins 
and Bakari James Wilkins.
    I would like to thank you, Senator Whitehouse and Senator 
Grassley, Ranking Member, for scheduling this hearing and 
holding it today. I know that you are busy all the time, but 
with world events, and particularly the fact that today is 
September 11th, this was an imposition on your schedules, and I 
appreciate you taking the time for me.
    I would also like to thank Senator Feinstein, who was here 
earlier, and would like to thank, of course, Senator Franken 
and Senator Lee also for being here.
    I have several guests here, and I will not call them all by 
name, but I have current colleagues who are here and some 
former colleagues and friends from many chapters of my life, 
and I thank all of them for being here today to support me and 
for, of course, all their support over the years.
    I also have members of my staff here, and as I am sure you 
well know, I could not perform my duties without my staff, and 
I have a very--I had the pleasure and honor of having some very 
talented and loyal and hard-working staff over the years. And 
so my former and current law clerks are here as well as my 
current courtroom deputy.
    So, with that, I would just like to again thank you for the 
opportunity to be here, and I am happy to answer your 
questions.
    [The biographical information of Judge Wilkins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Whitehouse. Thank you very much, Judge Wilkins.
    Before we proceed to the questioning--and as the Chairman, 
I am going to be here through the entire hearing, so I will 
reserve my questioning until the end and allow other Senators 
the opportunity to ask their questions, and then proceed to 
other business if they need to. So in a moment, Senator 
Grassley will begin the questioning, followed by Senator 
Franken, followed by Senator Lee, and such others as may join 
thereafter.
    But before we get to that, I want to ask unanimous consent 
to put into the record letters of support of your nomination 
from the National Organizations of Black Law Enforcement 
Executives; from the National Bar Association; from a large 
group described as an ad hoc group of African American Am Law 
100 Managing Partners, and Fortune 1000 General Counsel Leaders 
of the National Bar in that sense; from the National Women's 
Law Center; from the Leadership Conference on Civil and Human 
Rights; and other letters as well. Without objection, they will 
be made part of the record.
    [The letters appear as submissions for the record.]
    Senator Whitehouse. I will turn now to the Ranking Member.
    Senator Grassley. Judge Wilkins, I would like to get a 
sense of your judicial philosophy, so I am going to read to you 
a few assertions regarding constitutional law. I would like to 
get your reaction to them. These are not your assertions, but 
as I assess your judicial philosophy, I would like to hear how 
you respond, whether you agree or disagree, and why or why not. 
And I would have one, two, three, four, five of these that I 
would read, and then I would like to have relatively short 
answers so I can get to some other questions.
    ``Reproductive rights should be doubly constitutionally 
protected by overlapping liberty and equality guarantees.''
    Judge Wilkins. I am not sure of the context for the quote, 
Senator, but my understanding of the--I have not held--I am 
sorry. I have not handled a reproductive rights case, I think, 
in the two and a half years I have been on the bench. But my 
understanding of the law in that area is that the reproductive 
rights are founded upon the rights to privacy in the 
Constitution. And, of course, I would follow whatever the 
Supreme Court precedent is in that regard.
    Senator Grassley. Okay. The second one is: ``Reproductive 
rights, including the rights of contraception and abortion, 
play a central role in freeing women from historically routine 
conscription into maternity.''
    Judge Wilkins. Again, I do not know the context of that 
quote, sir, but I would follow Supreme Court precedent in this 
area, as I have all other precedent when I handle cases.
    Senator Grassley. Okay. The third one: ``Reproductive 
rights really are fundamentally about sex equality.''
    Judge Wilkins. Again, I am not familiar with that 
statement, so it is hard for me to react to it, sir. But--so I 
really do not know what else to say about it.
    Senator Grassley. Okay. I am not going to go to the other 
two. I might submit them for response in writing.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. My second question: What is your 
understanding of the constitutionality of States to provide 
``conscience rights'' to pharmacists and health care providers 
who refuse to facilitate abortions or fill prescriptions for 
contraceptives if they are personally opposed to such 
practices?
    Judge Wilkins. This is not an area that I am really 
familiar with or where I have handled any litigation.
    Senator Grassley. Why don't you respond to that in writing 
then?
    Judge Wilkins. Yes, I will do that.
    [The information referred to appears as a submission for 
the record.]
    Senator Grassley. Three, why do you want to be an appellate 
judge? I would like to have you describe your interest in 
transitioning from trial work to appellate work, and how would 
you prepare yourself for that transition, if confirmed?
    Judge Wilkins. Well, I am not considering this because I am 
unhappy in my current job, so I will tell you that much. I 
enjoy being a trial court judge, and I have really loved it for 
the last two and a half years. But I have had the privilege to 
serve on some three-judge panel cases where I have worked with 
colleagues, including colleagues on the court of appeals, and 
so I have experienced the collaborative decision making that 
that entails, and I have enjoyed that. And so I was intrigued 
by the prospect and interested in the prospect of serving 
further in that context on the court of appeals.
    Senator Grassley. Okay. As a federal public defender, you 
once said you were someone who was pretty good at ``begging for 
mercy.'' As a federal judge, how have you responded to defense 
counsel who beg for mercy for their clients?
    Judge Wilkins. Well, as an advocate, that was my job, was 
to zealously advocate for my clients, and oftentimes as a 
public defender that meant I was begging for mercy.
    As a judge, of course, I am duty-bound to follow the law 
and to consider the arguments made by both sides. And in the 
criminal law context at sentencings, I certainly do that, 
consider the arguments of both sides. And sometimes I guess I 
have ruled in favor of the prosecution, and sometimes I have 
ruled more in favor of the defense, and sometimes I have ruled 
in between. But I try to give even consideration to all sides.
    Senator Grassley. Could I ask one more question?
    Senator Whitehouse. Of course, please.
    Senator Grassley. You have said that you admire attorneys 
who remember the ``humanity of the client.'' You have also 
stated that it is important to ``understand the persons being 
punished.'' It sounds a little bit like empathy standards that 
sometimes we debate are they right or wrong for a judge to 
have. So I would like to have you explain your views on the 
role that empathy should have in the judicial process.
    Judge Wilkins. Thank you, Senator. I guess my view is that 
judges should understand all aspects of the issues that are 
before them, so they should understand the intent and context 
of Congress in passing whatever the law is that might be at 
issue, the intent and context of the Framers with the 
constitutional provision that may be at issue, and, of course, 
the intent and understanding of the parties when they were 
engaging in whatever the activities were that led to the 
dispute.
    And so in that context, I think that empathy means having 
an understanding or trying to endeavor to understand all sides 
of the dispute and all perspectives that are relevant to the 
disputes.
    Senator Grassley. This is my last question. In one talk, 
you said that you question how much progress the United States 
has made in the fight against racial discrimination and whether 
the courts are fully equipped to right those wrongs. So my 
question is: What is the court's role in a general sense in 
righting societal wrongs?
    Judge Wilkins. Well, the courts, of course, first and 
foremost must follow precedent in fashioning any remedies that 
they do to--in that case I think I was talking about a 
constitutional--or a practice that was alleged to be 
unconstitutional and probably in the context of racial 
profiling, I think, were those remarks. And I think that the 
purpose of the court is to fashion remedies that courts can and 
should fashion, and other times remedies should be sought in 
the political process or in other processes outside of the 
courts, and the courts do not need to get involved in that.
    Senator Grassley. Thank you, Mr. Chairman. Thank you, Judge 
Wilkins.
    Judge Wilkins. Thank you, Senator.
    Senator Whitehouse. Thank you very much, Senator Grassley.
    I will turn now to Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Judge Wilkins, congratulations on your nomination. It is 
good to see you again.
    Judge Wilkins. Thank you, Senator. I believe you were--I 
was honored to have your presence at my last confirmation 
hearing.
    Senator Franken. Thank you. That is very kind.
    When you appeared before the Committee in 2010, I thanked 
you for your service on the DC Public Defender Service and the 
DC Access to Justice Commission, and I asked you what would you 
do as a federal judge to continue to promote access to justice. 
And I appreciated your answer. This is what you said: ``I think 
that as a judge on the U.S. district court, you have to be 
mindful of your obligation to make sure that justice is blind 
and that justice is equal, and that a person who perhaps does 
not have all the resources is not affected unfairly on the 
merits because of that.''
    Now that you have had a couple of years on the bench, I am 
interested in your current thoughts on access to justice 
generally and to the judge's role in promoting that access.
    Judge Wilkins. Thank you, Senator Franken. I currently 
serve as the--our circuit Judicial Council has a pro bono 
committee that works on these issues, and there is a judge that 
is not a member of the committee but serves as a liaison 
between the committee and the court as that committee does 
their work on access to justice issues. And I was honored to be 
appointed to serve as the judicial liaison to that committee, 
and that committee has been very active in trying to encourage 
the members of the private bar to get more involved in pro bono 
cases and assisting the court when the court needs lawyers to 
take appointments to cases that have some potential merit but 
no one to represent them, either on the plaintiff side or the 
defense side. And so I have tried to work on that issue in that 
context.
    Senator Franken. Judge Wilkins, we have some real problems 
with our criminal justice system. At alarming rates, we are 
imprisoning nonviolent people who suffer from addiction or 
mental illness. This country has five percent of the world's 
population, but we have about a quarter of the inmates in the 
world. I have heard from sheriffs in my State who say that a 
high proportion of inmates under their supervision should be in 
treatment programs and not in prison or in their jails. Mass 
incarceration has a huge financial cost, a huge moral cost, and 
public safety cost.
    You were a public defender for 10 years. You have been a 
federal judge for a couple of years now. I know that you care 
deeply about this issue. Can you share your thoughts on it? And 
based on your experience, do you have any insights or advice 
you can give us as law makers to improve the criminal justice 
system?
    Judge Wilkins. Well, thank you, Senator. Of course, in my 
former life as an advocate, my former agency, the Public 
Defender Service, while I was there, spoke out a lot about this 
issue from the perspective of an advocate and from the 
perspective of an agency that represented clients within the 
system. And, of course, now that I am a judge, I leave the 
policy to the elected representatives and the citizens and just 
try to interpret and uphold the law.
    I guess if I had any advice it would be that there is a lot 
of data, I guess, that the U.S. Sentencing Commission and 
others have gathered about the criminal justice practices, and 
I have found that a lot of times that data does not get 
adequate consideration and, you know, reports are written and 
they sit on shelves and gather dust, and that we could all 
benefit and all benefit from examining where we have been in 
the data to know where best we should go.
    Senator Franken. Thank you, Judge Wilkins, and 
congratulations to you and your family.
    Judge Wilkins. Thank you so much.
    Senator Franken. And welcome to the family. Thank you.
    Judge Wilkins. Thank you, Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Senator Whitehouse. Senator Lee is recognized.
    Senator Lee. Thank you, Mr. Chairman. I have a statement 
that I would like to submit for the record regarding some of 
the----
    Senator Whitehouse. Without objection.
    Senator Lee [continuing]. DC Circuit. Thank you.
    [The prepared statement of Senator Lee appears as a 
submission for the record.]
    Senator Lee. Thank you, Judge Wilkins, for joining us 
today. I am glad that your family is here with us. I especially 
appreciate the fact that your sons are here, and they even 
appear to be quite interested in the proceedings of the 
Committee.
    [Laughter.]
    Senator Lee. Your judicial service thus far has prepared 
them for long hearings, and apparently they have sat through 
some of your judicial proceedings, I am imagining.
    Judge Wilkins. They are very patient.
    Senator Lee. Yes, they seem to know exactly what is going 
on here, too. That is fantastic.
    I would like to talk a little bit more about your judicial 
philosophy. Starting out, tell me if you have--do you have any 
U.S. Supreme Court Justice that has served over the last 
century or so who you would identify as best reflecting your 
judicial philosophy?
    Judge Wilkins. I do not think that I really--that there is 
a Justice that I believe has the same philosophy as me. My 
philosophy generally has been over the last two and a half 
years to try to really focus on the case in front of me and 
nothing more, to be mindful of the importance of judicial 
restraint, decide the issue that needs to be decided, do not 
reach out and try to decide other issues; and, of course, not 
to bring any preconceived notions to my decision making and let 
the facts and the law lead wherever they lead and the case be 
decided on its merits and that is it.
    Senator Lee. As you decide each case, do you have in mind a 
particular approach that you take toward interpreting a 
statute? For example, would you describe yourself as a 
textualist, an intentionalist, a purposivist, as any other kind 
of ``-ist'' ?
    Judge Wilkins. I think that perhaps it is because of the 
way that I am wired and because of my background as a chemical 
engineering major undergrad, I like rules, and so I try to look 
very closely at text and adhere to the text and adhere--and try 
to find whatever the governing principle is that applies to the 
particular context or interpreting that text or deciding that 
issue and find that and apply that rule or that text strictly.
    Senator Lee. When the text appears to conflict with what 
you believe the legislative body had in mind, how does that 
factor in? What do you do to resolve that?
    Judge Wilkins. Well, that is an important question. It is 
also a difficult situation because, of course, probably the 
best evidence of what the legislature intended is what they 
wrote in the statute and what was passed. And if that statute 
is--the meaning of that text is clear and plain and 
unambiguous, I am duty-bound to apply it as written. Even if I 
think that perhaps Congress may have intended something 
slightly different, that is not the way that I understand my 
job is to--my job is not to overrule the plain meaning of text.
    Senator Lee. In light of that, where and in what way does 
legislative history play a part in your interpretation of the 
statute?
    Judge Wilkins. If the meaning of the text is clear, then 
the precedent from the Supreme Court and our circuit is that 
that should end the matter, because I apply the plain meaning 
of the text. But if that meaning is ambiguous, then I would, of 
course, also look to the legislative history and other aids, to 
statutory construction to try to interpret the meaning of those 
words in the text.
    Senator Lee. Once you get into that inquiry, in your 
opinion is all legislative history equal? Or are there some 
kinds of legislative history--some legislative history data 
points that are more reliable or less reliable than others?
    Judge Wilkins. Well, I think courts believe--or courts have 
stated that some legislative history is a little bit more 
persuasive than others; if something is in a committee report 
or a conference committee report, that that might be more 
persuasive than just a floor statement of a single Senator or 
House Member, depending upon the context of that statement. But 
I think you have a duty to look at all of it and then try to 
determine what it means.
    Senator Lee. And then, last, I think I heard you mention 
that you had brought your law clerks with you today. What would 
they say about you?
    Judge Wilkins. That is a tough one. I think they would 
say----
    [Laughter.]
    Judge Wilkins. I think they would say that I am tough but 
fair.
    Senator Lee. Thank you, sir, and thank you, Mr. Chairman.
    Senator Whitehouse. We certainly got a little burst of 
smiles in the back of the room when Senator Lee asked that 
question. I assume those identify your former clerks.
    Judge Wilkins. I hope you did not subpoena them.
    [Laughter.]
    Senator Whitehouse. I do not think that will be necessary.
    So how on Earth do you get from chemical engineering to law 
school?
    Judge Wilkins. Well, I initially went to college thinking 
that I wanted no part of graduate school, that four years more 
would be enough after high school, and so I was very interested 
in science and math at that time, and chemistry, and so I 
focused on chemical engineering. But as I went through that--
matriculated through college, I became more interested in law, 
in public policy issues, and so I made the transition to law 
school.
    Senator Whitehouse. Judge Wilkins, during my opening 
statement, I mentioned a number of principles that I identified 
as ones that I feel judges should comport themselves with. One 
is to respect the role of Congress as the duly elected 
representatives of the American people. Another is to decide 
cases based on the law and the facts without prejudging any 
case after listening carefully to every party that comes before 
the court. A third is to respect precedent from the higher 
courts. And the fourth is for judges to limit themselves to the 
issues that the court must decide.
    Are those principles that you agree with and are 
comfortable with?
    Judge Wilkins. Yes, Senator Whitehouse. I think that is an 
excellent set of guideposts for all judges to follow, and I 
certainly follow those guideposts.
    Senator Whitehouse. I appreciate that you have come out of 
both active practice and trial court experience, and I would 
like to have a brief conversation with you about the jury as an 
institution. As we all know, the jury appears three separate 
times in the Constitution and Bill of Rights. In the 
Revolutionary War, the protection of the civil jury from 
British encroachment was one of the clarion calls to battle and 
one of the reasons that we fought for our independence. The 
original Constitution prior to the Bill of Rights banged into 
the ire of the American people that the civil jury was not 
adequately protected with the result that the Seventh Amendment 
was added specifically protecting the civil jury. And it has 
really, I think, quite a noble and significant constitutional 
history and an important part in our system of government, not 
just as a fact-finding appendage to a court but as actually a 
part of the broader American system of government.
    Alexis de Tocqueville wrote that the jury is, before 
everything, a political institution, one ought to consider it 
as a mode of the sovereignty of the people. And a century or 
more before that, Blackstone explained one reason why the jury 
is so important. He wrote that, ``[T]he most powerful 
individual in the state will be cautious of committing any 
flagrant invasion of another's right, when he knows that the 
fact of his oppression must be examined and decided by 12 
indifferent men . . . ''
    Now, those last two words need a little bit of editing now. 
``Indifferent'' had a different meaning then than it does now. 
It simply meant impartial. And obviously men and women now 
serve on juries. But with those adjustments, I think that that 
description of the role of the jury stands true.
    He also had, I think, a wise political sense that the 
executive and legislative branches can be sometimes brought 
under the sway of powerful interests in a way that is 
antithetical to the public interest. And in that respect, the 
jury of ordinary men and women provides sort of a final 
backstop when things go wrong, when the Governor is in your 
enemy's pocket, when the legislature is controlled by the 
lobbyist, when the press have quipped up public sentiment 
against you, the courtroom and the jury are supposed to be 
immune from that, and as Blackstone said, to prevent ``the 
encroachments of the more powerful and wealthy citizens.''
    So I detect a strain in certain current judicial 
philosophies of trying to deny, minimize, inhibit, cripple the 
jury system. And I think that it has a lot to do with that role 
as an institution that prevents the encroachments of the more 
powerful and wealthy citizens. More powerful and wealthy 
citizens do not always appreciate having their encroachments 
prevented. And so we have, I think, a bit of a struggle over 
the role of the jury in this country right now, and I would 
like to hear your comments on that and whether you see 
particularly the civil jury as more than just a fact-finding 
appendage to the court.
    Judge Wilkins. Thank you, Senator Whitehouse. I just 
completed a jury trial this past Thursday, and the jury reached 
a verdict, and I told the jurors, as I tell all the jurors in 
all of my cases, how important it is what they are doing, that 
they are literally implementing the Seventh Amendment to the 
Constitution, of our Bill of Rights to the Constitution, with 
their service, to try to help them understand the grave 
importance of what they do when they sit as jurors. And so I 
understand and appreciate your remarks, and as an advocate, I 
was a strong proponent of the jury system, and as a judge, I 
have seen nothing to change my views of the jury system. I 
think the jurors take their obligations very seriously. They 
are very diligent in trying to understand the evidence and 
follow the law and reach the correct result based on the 
evidence and the law. And I have been very impressed with all 
of the jurors and all of the juries that I have observed as a 
judge.
    Senator Whitehouse. I urge you to keep that good feeling 
about juries in mind as, I hope, you proceed to this next 
judicial office. It is clearly inconvenient to certain powerful 
interests who think they have got the executive branch of 
government under control and who think their lobbyists have got 
the legislative branch of government all tied up and who think 
that they have kind of got the system fixed for their benefit, 
to suddenly face 12 good men and women true, and have them 
disrupt what the big interests had been able to achieve in the 
other branches.
    But I do think that that disruption, however inconvenient 
to powerful interests, by a civil jury is a part and an 
important part of what the Founding Fathers had in mind when 
they built the system of divided powers, in some cases even 
conflicting powers, that is occasionally a source of 
frustration to us, but I think in the long sweep of history a 
source of pride not only to our country but also a lesson to 
our world.
    So I wish you well in your process forward. I thank you for 
bringing your family here with us today, and I hope that we can 
have a quick vote on your confirmation. Thank you very much, 
and thank you for your service on the district court.
    Judge Wilkins. Thank you, Senator, and I appreciate again 
the Committee's time and consideration. And it is an honor for 
me to have been nominated, of course, by the President, and it 
is an honor for me to appear before this body for your 
consideration. Thank you.
    Senator Whitehouse. Thank you, Judge Wilkins. You are 
excused, and we will call up the next panel.
    [Pause.]
    Senator Whitehouse. Let me call this hearing back to order. 
If I could ask the nominees to remain standing, we can proceed 
with the oath. If you would raise your right hand. Do you 
affirm that the testimony you are about to give before the 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you God?
    Mr. Brooks. I do.
    Mr. Donato. I do.
    Judge Freeman. I do.
    Judge Delgado. I do.
    Senator Whitehouse. Thank you. Please be seated.
    Today is a somewhat unusual day in that it is the 12th 
anniversary of the attacks on our country on September 11th, 
and the service of remembrance and commemoration here in the 
Senate is taking place now, and that is why Senator Grassley 
has had to excuse himself. And he wanted me to pass on to you 
that it indicates no disrespect for you or for the important 
positions for which you are nominees, and I perfectly 
understand that many of my colleagues are there right now. My 
duty requires me to be here in this hearing; otherwise, I would 
be as well. But it is not for lack of interest in you or 
judicial nominations that there are some empty seats here. It 
is for a very important reason.
    Let me welcome each of you, and why don't we begin right 
across the line here, starting with Mr. Donato. Let me invite 
you to give whatever opening statement you would like to make 
and whatever recognitions you would like to offer of family and 
friends who are present at this point.
    Mr. Donato, please proceed.

STATEMENT OF JAMES DONATO, NOMINEE TO BE DISTRICT JUDGE FOR THE 
                NORTHERN DISTRICT OF CALIFORNIA

    Mr. Donato. Thank you, Mr. Chairman. Let me begin by 
thanking you and the other Members of the Committee for having 
us in on this somber day.
    I also want to acknowledge with gratitude the nomination of 
the President in sending my name to the Committee for 
consideration for the district court. I am deeply honored by 
that.
    I am very appreciative for the gracious remarks that 
Senator Feinstein made earlier today and for recommending me to 
the White House for consideration for the Northern District of 
California.
    I do have a number of guests that I would like to 
acknowledge, starting with my wife, Rhonda, and my daughter, 
Isabella, who are behind me. Rhonda and I met many years ago 
when we were legal assistants before going to law school. We 
went to law school at about the same time, served on the Ninth 
Circuit at about the same time, and today she is a staff 
attorney at the Northern California Innocence Project, working 
on those cases. Sometimes you will hear the advice that lawyers 
should not marry other lawyers. That advice is wrong. You 
should reject it. It is one of the best things you can do.
    Also with me is our youngest child, Isabella, a freshman at 
Berkeley High and a recent powerhouse addition to the Berkeley 
High volleyball team, where she is a cool and efficient libero, 
for those of you who are volleyball aficionados.
    Our two sons--Nate, who is a junior at the University of 
California, majoring in Japanese, and our middle son, Vince, a 
junior at Berkeley High--had pressing academic commitments and 
could not be here today.
    I am happy to welcome a number of friends and family 
joining virtually in true Silicon Valley fashion to the 
Webcast. That includes my parents, Alice and Tony, who are in 
their 80s. They live in Northern California. Both of them spent 
their careers in public service. My father was a local city 
administrator for his career, my mother a public school 
teacher. Their example and their ideals are a big part of why I 
am here today.
    I would also like to welcome my sister, Valerie, and my 
younger sister, Antonia, and their families. I am happy to say 
I have a number of friends who are showing their support by 
watching today, ranging from Australia to California to the 
East Coast, including my good friend and old trial partner, 
Mike Klisch, who is sitting behind me and is a local resident.
    And I will end by acknowledging my friends, partners, and 
colleagues at Shearman & Sterling. I understand that the 
proceedings today are being broadcast throughout the firm's 
offices in the United States and in London, and I am thrilled 
to be a member of the Shearman family. It has been a great 
privilege practicing at the firm, and I welcome them today as 
well.
    [The biographical information of Mr. Donato follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Whitehouse. Thank you, Mr. Donato. I appreciate 
that very much.
    Mr. Brooks.

 STATEMENT OF TIMOTHY L. BROOKS, NOMINEE TO BE DISTRICT JUDGE 
              FOR THE WESTERN DISTRICT OF ARKANSAS

    Mr. Brooks. Thank you, Senator Whitehouse. I certainly 
appreciate your role in chairing this Committee hearing. I also 
very much appreciate Senator Leahy and Senator Grassley for 
arranging and scheduling this hearing on our nominations.
    I especially want to thank Senator Pryor for recommending 
me to the White House. I really appreciate the trust and 
confidence that he has placed in me for this role. And I also 
want to thank Senator Boozman for his support. We have two very 
good Senators in our State of Arkansas, and they always put the 
interests of Arkansas above all else, and I appreciate their 
collegiality and their both supporting my nomination.
    Of course, I would also like to thank the President for 
giving me the honor of the nomination.
    I would like to introduce some family members that are here 
with me today, first and foremost, my wife, Mary Beth. Anyone 
who has been a trial lawyer knows that it is not easy being a 
trial lawyer's spouse. There is a lot of extra duties that fall 
upon them when you are in the middle of a long jury trial, and 
Mary Beth has certainly been my rock.
    I also have my 11-year-old son, Sam, somewhere in the 
courtroom, and he is apparently on his best behavior today. I 
have not heard a peep out of him, which is somewhat unusual. 
But this has been a great experience for him.
    We have two daughters, one of whom is a junior in college 
in New York and was not able to be with us today. I also have 
another daughter who is starting her first year as a science 
teacher at a junior high back home in Bentonville, and she 
could not be with us either.
    I am very pleased that our good friends, Shawn and Julie 
Walker, made the trip from Arkansas. They are very good 
friends, and it means a lot to have them here.
    My parents passed away a few years ago, and I know that 
they are here in spirit, and they would be very proud. But I am 
pleased very much to have my in-laws here, Mary Beth's parents, 
Brad and Mary Ellen Jesson, who just mean so much to me. But I 
am especially honored that my father-in-law, Brad, was able to 
be here. He is a lawyer, and his very first job out of law 
school was to clerk for John Miller, who was the very 
distinguished United States District Judge for the Western 
District of Arkansas for many, many years and also a former 
Member of the Senate. Brad went on to be Chief Justice of the 
Arkansas Supreme Court, and so he has been not only an 
inspiration to me as my father-in-law, but also an inspiration 
to me in my legal career.
    Thank you very much, Senator.
    [The biographical information of Mr. Brooks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Whitehouse. Thank you very much, Mr. Brooks.
    Judge Freeman, welcome to the Senate Judiciary Committee. 
You are recognized for any statement and recognitions you would 
care to make.

 STATEMENT OF HON. BETH LABSON FREEMAN, NOMINEE TO BE DISTRICT 
         JUDGE FOR THE NORTHERN DISTRICT OF CALIFORNIA

    Judge Freeman. Yes, thank you very much. First I would like 
to thank you, Mr. Chairman, and Ranking Member Grassley for 
holding this hearing. I am very grateful for the opportunity to 
appear before you and to answer your questions.
    I would also like to thank you personally for acknowledging 
the 9/11 catastrophe and especially those on Flight 93. My 
family lost a cousin that day as well, and your honoring his 
memory is particularly meaningful today. Thank you.
    I would like to thank Senator Feinstein for her kind and 
gracious words this morning. I am very grateful to her.
    I would like to thank the President for his nomination and 
the confidence that he has placed in me up to this point, and I 
hope through this process I can live up to that confidence.
    I do have friends and family here with me today. I am so 
grateful for that. I will only start by saying I wish my father 
could be here. He passed away a year ago. My father was a 
mechanic for United Airlines at Reagan National Airport long 
before it was called that, starting in the 1940s and working 
here. I was actually born in Washington, DC, moving to 
California as a teenager. And he would not--it would be 
unimaginable to him that a child of his was sitting before you 
today, and I know he would have great pride in this moment if 
he were here.
    I am delighted to have family and friends with me. First 
and foremost, my husband, Bill Freeman, is here. Bill and I met 
in law school. We got married two weeks after I took the bar 
exam, and this summer we celebrated our 34th wedding 
anniversary.
    Senator Whitehouse. Another successful example of lawyers 
marrying lawyers.
    [Laughter.]
    Judge Freeman. Absolutely. Absolutely. And our two children 
I do not believe are idiots, as Spencer Tracy suggested in a 
movie many years ago. Our daughter, Laura Freeman, works in the 
fashion industry in New York City, and with Fashion Week, she 
was unable to get away. And our son, Scott, works in the 
economics field in Los Angeles and also was unable to be here. 
He claimed to get up early this morning on California time and 
be plugged into this hearing, and I hope he is listening to 
this at this moment. If not, there will be words.
    [Laughter.]
    Judge Freeman. I am also delighted that my brother-in-law, 
David Freeman, is here. David is a practicing attorney in New 
York City. And my brother, Dr. Victor Labson, is here, who is 
the Director of International Programs at the United States 
Geological Survey here in Reston, Virginia.
    My brother's two children--my niece, Eva Labson, and my 
nephew, Daniel Labson--are both here today. What they do not 
know is they will become my children after this hearing, and my 
children will become my brother's based on their attendance 
today.
    And, finally, I would like to thank high school friends of 
mine who are here with me today. They do live here in 
Washington, DC, but these friendships are long and dear to me, 
and I am grateful to them and would like to introduce Tom 
Rosenstiel; his wife, Rima Sirota; and Mike McCurry. I am very 
grateful for their love and support as well.
    Mr. Chairman, thank you for the opportunity to be here. It 
is a great honor for me.
    [The biographical information of Judge Freeman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Whitehouse. Thank you, Judge Freeman. It is our 
honor to have you here.
    And, finally, Mr. Delgado Hernandez, welcome, and you are 
recognized for any statement and recognitions you would care to 
make.

  STATEMENT OF HON. PEDRO A. DELGADO HERNANDEZ, NOMINEE TO BE 
         DISTRICT JUDGE FOR THE DISTRICT OF PUERTO RICO

    Judge Delgado. Thank you, Mr. Chairman. I would like to 
thank the Committee for conducting this hearing here today, 
Congressman Pierluisi for his kind words and for recommending 
me to the President, President Obama for having nominated me to 
the federal bench in the United States District Court for the 
District of Puerto Rico. I have been humbled, Mr. Chairman, and 
continue to be deeply humbled by this extraordinary honor.
    I would also like to thank my family and friends for their 
continuing support in this process. My brother, Steven, is 
here. If he may stand up and be recognized, that would be 
great.
    It is a privilege, Mr. Chairman, to be here, and I will be 
delighted to respond to any questions the Committee may have.
    [The biographical information of Judge Delgado follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
          
    Senator Whitehouse. Thank you very much. Well, you are all 
very welcome here, and I salute you for being willing to put 
yourself through the wringer of the nomination and confirmation 
process. I know it is not easy. It is arduous and exhausting 
and intrusive. But most of it is over at this point. And do not 
worry if there is not a great deal of attendance here. That is 
usually actually a good sign.
    [Laughter.]
    Senator Whitehouse. You worry when the seats are filled 
with questioning Senators. That does not augur well for the 
nomination. So I hope that yours will go forward smoothly.
    I gave you a bit of a preview of coming attractions since 
you were in the room during my questioning of Judge Wilkins. 
But I have the same questions for each of you.
    I have now mentioned twice, but I will review just again, 
what I think are the sort of core principles of judicial 
conduct that I hope you can agree should also guide your 
actions, and that involves, first of all, an earnest respect 
for the role that Congress has as the duly elected 
representatives of the people of this great country. It 
includes an obligation to decide cases scrupulously based on 
the law and the facts without prejudgment of any case and with 
an honest ear for every party that comes before you. It 
includes respect for the precedent that should guide your 
decisions. And it includes the restraint to limit yourself in 
your decision to the issues that are properly before your 
court.
    Are each of you comfortable with those principles as ones 
that properly should guide your actions as a United States 
district court judge?
    Mr. Brooks. Absolutely.
    Mr. Donato. Absolutely.
    Judge Delgado. Absolutely.
    Judge Freeman. Yes.
    Senator Whitehouse. The record will reflect four 
``absolutelys''--or three ``absolutelys'' and a ``yes.'' All 
positive.
    And then one of the special roles of a district judge is to 
manage and oversee not only judge trials but also jury trials 
and to help jurors feel welcome and understand their role in 
the process that they have been subjected to. My experience in 
talking to juries after trials and in talking to grand juries 
that we have convened as a U.S. Attorney and as an Attorney 
General is that American citizens take their role as jurors or 
grand jurors very seriously, and that whatever burdens it may 
put on their time and on their responsibilities and their 
personal lives, they ordinarily feel that they have contributed 
something in a very important way by serving. Sometimes, 
particularly in criminal cases and for grand juries, the 
subject matter that they are obliged to consider is pretty 
horrific, considering the subjects of their daily lives. But, 
nevertheless, even in the face of some of the more horrific 
cases, my sense has always been that jurors are glad of that 
experience.
    So I would like to ask each of you to comment a little bit 
on how you see the importance of jurors and how important it is 
to reflect that important aspect of citizenship, and also, I 
will not go on again at length, but the fact that a jury is not 
just there to be a fact-finding appendage to a court. It also 
has a very important role in the larger balance of powers and 
among the checks and balances that protect this republic that 
the founders established all those centuries ago.
    Mr. Donato, let me turn to you first.
    Mr. Donato. Well, thank you, Mr. Chairman. I have two 
comments that come to mind.
    The first is, in 23 years of practice, the single most 
impressive thing that I have encountered is the service and 
dedication of the jurors that I have had the privilege of 
practicing before. Now, make no mistake, they did not always 
see the case my way. But I will say each and every time we had 
the opportunity to try a case and talk with the jurors 
afterwards, it was the most impressive level of dedication from 
a group of people who, prior to their appearance in the jury 
box, generally had absolutely no experience with the legal 
system whatsoever, were asked to address in the cases I was 
trying very complicated antitrust and federal class action 
issues, rose to the challenge, often over weeks and weeks of 
trial time, which was a tremendous inconvenience for their 
professional and personal lives, and still at the end of it 
took that job as seriously as you could ever want someone to 
take it and felt very good about the experience.
    So I agree wholeheartedly with sentiments that you 
expressed earlier that it is not just an exercise in trying 
fact. It is, in my view, a badge of citizenship for an 
American, a great privilege, and something that our legal 
system absolutely depends on.
    The second thought is I hear and embrace your concerns 
about potential erosion of the jury system. In private 
practice, where I am today, I often hear--not often, but I do 
periodically hear--lawyers occasionally in intellectual 
property cases, for example, and other more specialized cases 
expressing frustration with juries. My view is they do not get 
it. I think the jury system is absolutely essential for our 
federal judiciary, for our State judiciary, for that matter, 
and I think we ought to do everything we can to protect it.
    Senator Whitehouse. Mr. Brooks.
    Mr. Brooks. Thank you, Senator. I think that our Seventh 
Amendment right to a trial by jury is one of the bedrock 
principles of our judicial system and certainly a component 
that separates ours from all other judicial systems across the 
world and perhaps the hallmark of what makes our system the 
best, in my opinion.
    To your point about the significance of the jury and one's 
civic responsibility, I was trying a case many years ago when I 
had a trial court judge who was welcoming the jury and trying 
to impress upon them the significance of what they were there 
to do. And she said that there are two times when our State or 
our country can call you in to service: one is at a time of war 
when you can be drafted to go and serve your country, perhaps 
overseas; and a second time is whenever you get summoned for 
jury service. And she tried to impress upon them that, in terms 
of civic responsibility, both were very, very important. And 
certainly that jury, as has been my experience in all of my 
trials, that civic responsibility is one that juries somehow 
just the chemistry that comes together, they take it very, very 
seriously, and it is remarkable every time that it happens.
    Senator Whitehouse. Thank you, Mr. Brooks.
    Judge Freeman.
    Judge Freeman. Yes, thank you, Mr. Chairman. I have had the 
good fortune, as Senator Feinstein commented, and the privilege 
of presiding over approximately 150 jury trials in my time on 
the State court bench. I think I have told each and every one 
of those juries--and I believe it wholeheartedly--that they are 
the backbone of our system of justice. And the pride that they 
should take in the service they render is sometimes 
unimaginable to them until they have completed the task. But 
from where I have been able to sit as a judge, I know that when 
12 people come to the jury and deliberate, having heard a case 
with no bias and no agenda, that justice is served. And I look 
forward to continuing, if I am fortunate enough to be confirmed 
for this seat, to presiding over jury trials for the remainder 
of my career.
    Thank you.
    Senator Whitehouse. Mr. Delgado Hernandez.
    Judge Delgado Hernandez. Mr. Chairman, I join my colleagues 
in expressing support for the institution of the jury, as you 
have so eloquently described it. I might add that federal 
judges in the District of Puerto Rico impress upon jurors the 
importance of what they are doing or what they are about to do, 
not just in terms of jurors, citizens, being part of the 
specific decision-making process before them, but their 
participation as a reflection of the system of government under 
the Constitution. And if I am confirmed by the Senate, Mr. 
Chairman, I intend to do exactly the same thing.
    Senator Whitehouse. So honor them and treat them well.
    Thank you all for being here. The hearing record will 
remain open for one more week in order that any additional 
material that is relevant to it may be submitted. I believe 
that Chairman Grassley and others may have additional written 
questions for the nominees, and I urge you to respond promptly 
and thoroughly to those questions, because your nomination does 
not go forward until the questions are answered. And I wish you 
all smooth and uneventful passage through the remainder of the 
confirmation process, and I join my colleagues in 
congratulating you on the signal honor and recognition that 
having been nominated by the President of the United States to 
this position already reflects.
    With that, we will be adjourned.
    [Whereupon, at 11:30 a.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                   [all]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
